<html>
<title> - H.R. 701, THE CONSERVATION AND REINVESTMENT ACT; AND H.R. 1592, THE CONSTITUTIONAL LAND ACQUISITION ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 701, THE CONSERVATION AND REINVESTMENT ACT; AND H.R. 1592, THE 
                  CONSTITUTIONAL LAND ACQUISITION ACT
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             June 20, 2001
                               __________

                          Serial No. 107-43
                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                    U.S. GOVERNMENT PRINTING OFFICE
73-218                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 20, 2001....................................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Prepared statement of....................    93
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    McCollum, Hon. Betty, a Representative in Congress from the 
      State of Minnesota, Prepared statement of..................    95
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     7
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, Prepared statement of..................    93
    Rahall, Hon. Nick, a Representative in Congress from the 
      State of West Virginia.....................................     4
        Prepared statement of....................................     5
    Tauzin, Hon. W.J. ``Billy'', a Representative in Congress 
      from the State of Louisiana................................     5
    Thornberry, Hon. Mac, a Representative in Congress from the 
      State of Texas.............................................     8
        Prepared statement of....................................     8
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico, Prepared statement of.......................    94
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Prepared statement of...........................    92

Statement of Witnesses:
    Ashe, Hon. Victor, Mayor, City of Knoxville, Tennessee.......    12
        Prepared statement of....................................    14
    Caldwell, Jack C., Secretary, Louisiana Department of Natural 
      Resources, Baton Rouge, Louisiana..........................    19
        Prepared statement of....................................    20
    Callahan, F. Patricia, President and Founder, American 
      Association of Small Property Owners, Washington, DC.......    78
        Prepared statement of....................................    81
    Daniels-Mantle, Renee, The Mantle Ranch, Dinosaur, Colorado..    30
        Prepared statement of....................................    32
    Johnson, Randy G., Commissioner, Emery County, Castledale, 
      Utah.......................................................    15
        Prepared statement of....................................    17
    McKnelly, Dr. Philip K., Director, North Carolina Division of 
      Parks and Recreation, Raleigh, North Carolina, on behalf of 
      the National Association of State Outdoor Recreation 
      Liaison Officers, and National Association of State Parks 
      Directors..................................................    57
        Prepared statement of....................................    59
    Mullen, Tom, Supervisor, Riverside County, California, 
      Riverside, California......................................    51
        Prepared statement of....................................    52
    Sanderson, Edward F., President, National Conference of State 
      Historic Preservation Officers, Washington, DC.............    73
        Prepared statement of....................................    75
    Waller, David, Director, Georgia Division of Wildlife, 
      Department of Natural Resources, Social Circle, Georgia....    68
        Prepared statement of....................................    70
    Whitefeather, Hon. Bobby, Chairman, Red Lake Band of Chippewa 
      Indians, Red Lake, Minnesota...............................    62
        Prepared statement of....................................    63

Additional materials supplied:
    Arnett, G. Ray, Letter submitted for the record on H.R. 701..    96
    Babauta, Juan N., Resident Representative, Commonwealth of 
      the Northern Mariana Islands, Statement submitted for the 
      record on H.R. 701.........................................    99
    Colegrove, Nolan, Sr., Forest Manager, Hoopa Valley Tribe, 
      Hoopa, California, Letter submitted for the record on H.R. 
      701........................................................   100
    Garber, Allen, Commissioner, Minnesota Department of Natural 
      Resources, St. Paul, Minnesota, Letter submitted for the 
      record on H.R. 701.........................................   102
    National Governors Association, Statement submitted for the 
      record on H.R. 701.........................................   104
    Norton, Hon. Gale A., Secretary, U.S. Department of the 
      Interior, Letter submitted for the record on H.R. 701......    91
    Patt, Olney, Jr., Chairman, Tribal Council of the 
      Confederated Tribes of Warm Springs Reservation of Oregon, 
      Letter submitted for the record on H.R. 701................   111
    Regan, Ronald J., Commissioner, Department of Fish and 
      Wildlife, State of Vermont, Letter submitted for the record 
      on H.R. 701................................................   114
    Taylor-Rogers, Sarah, Ph.D., Secretary, Maryland Department 
      of Natural Resources, Annapolis, Maryland, Letter submitted 
      for the record on H.R. 701.................................   117
    Walters, Thomas P., Washington Representative, Letters 
      submitted for the record on behalf of the Counties of 
      Riverside, San Diego, and Ventura, California, on H.R. 701.   122
















  H.R. 701, THE CONSERVATION AND REINVESTMENT ACT; AND H.R. 1592, THE 
                  CONSTITUTIONAL LAND ACQUISITION ACT

                              ----------                              


                        Wednesday, June 20, 2001

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to call, at 10 a.m., in Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(Chairman of the Committee) presiding.
    The Chairman. The Committee will come to order.
    We are grateful to have you all here today. This is a very 
important hearing, and we will get started.
    We have some very important guests and witnesses here. We 
are grateful that you could be here.
    We recognize the presence of Chairman Billy Tauzin of the 
Commerce Committee, in whom we stand in awe.
    Today's hearing is on H.R. 701, the Conservation and 
Reinvestment Act, CARA, and H.R. 1592, the Constitutional Land 
Acquisition Act.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. CARA passed the House of Representatives in 
the 106th Congress by a bipartisan vote of 315-102. Although 
the bill passed the Senate Committee on Energy and Natural 
Resources by a vote of 13-7, it was not enacted into law.
    We worry about our friends over on the other side and their 
dilatory manner of getting things done.
    And that is something I wish people would quote me on.
    [Laughter.]
    The Chairman. The Committee heard testimony from 88 
witnesses at four hearings on CARA during the 106th Congress, 
one in each of the following locations: Washington, DC; 
Anchorage, Alaska; New Orleans, Louisiana; and Salt Lake City, 
Utah. We compiled over 1,000 pages of written testimony.
    CARA was reintroduced in the 107th Congress on February 14, 
2001, by Congressmen Don Young, Dingell, Tauzin, George Miller, 
John, Rahall, Kildee, Cooksey, Saxton, myself, and, as of 
today, has 218 cosponsors.
    H.R. 1592 was introduced by Congressman Mac Thornberry on 
April 25, 2001. This is the Committee's first hearing on that 
bill.
    CARA takes revenue from Federal offshore oil and gas 
production and utilizes those funds for production impact 
assistance and coastal conservation while funding conservation 
and recreation programs in all 50 States and territories.
    For example, not only does CARA provide a comprehensive 
approach to wildlife conservation funding by broadening funding 
support to a permanent, definite appropriation from a general 
revenue source, but it also helps provide inner-city children 
with places to play basketball or to study after school.
    CARA also funds the Payment In-Lieu of Taxes program. As 
most of you know, I would not have cosponsored CARA had it not 
been for the bill's full funding of PILT.
    As originally drafted, CARA undertook to fund PILT and the 
refuge revenue sharing programs by a complicated method of 
allocating interest proceeds from the CARA fund based upon 
appropriation levels of a given year.
    Unlike the CARA of the 106th Congress, the 107th CARA fully 
funds PILT and RRS at their authorized levels by simply 
providing all of the funding for the two programs directly from 
the CARA fund. And that, to me, is a very important change.
    CARA also fully funds the Land and Water Conservation Fund 
(LWCF) and provides several property rights protections and 
land management guidelines.
    For decades, the LWCF has made $900 million available for 
Federal and State land acquisition. However, State acquisition 
funding is often overshadowed by that provided to the Federal 
Government, which may currently spend up to $900 million on 
land acquisitions with virtually no restrictions.
    CARA requires the Federal Government to share half of the 
Land and Water Conservation Fund's money--or $450 million--with 
the States to be spent on locally selected projects.
    CARA provides several other protections from Federal land 
acquisition.
    First, the bill mandates that Congress approve the 
expenditure of LWCF money for land acquisition.
    Second, the Federal portion of the CARA fund may not be 
used for Federal acquisition unless the owner of the property 
concurs or Congress specifically approves the acquisition.
    Third, each year the Administration must transmit a list to 
Congress requesting specific approval for each tract of land to 
be acquired. In preparing the list, the Administration must 
attempt to consolidate checkerboard Federal landholdings and 
use exchanges and conservation easements as an alternative to 
acquisition.
    Finally, the Federal portion of the LWCF may not be used to 
acquire any interest in land unless the Administration notifies 
the parties affected by the proposed acquisition.
    Despite its property rights protections, CARA has not been 
without its critics. Property rights advocates have denounced 
the bill for its alleged failure to adequately protect private 
property rights. H.R. 1592 attempts to address that criticism 
by adding several property rights protections to those created 
by CARA.
    To be sure, we would all agree that no legislation is 
perfect, but I feel that CARA is a sound conservation package 
that not only provides valuable protection for landowners, but 
would create a lasting heritage for American conservation.
    The Committee looks forward to hearing from our witnesses 
today. Due to the number of witnesses with us, I will restrict 
opening remarks to Mr. Rahall, Mr. Miller, Mr. Tauzin, and Mr. 
Thornberry, which is about everybody here anyway.
    Lastly, we expected that Secretary Norton would have had a 
deputy or assistant secretary confirmed in time to testify 
before the Committee today. Unfortunately, this has not taken 
place, and Secretary Norton is traveling in Alaska.
    Therefore, the Department of the Interior will submit 
written testimony for the record. We will make that testimony 
available to all members of the Committee when we receive it.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    Today's hearing is on H.R. 701, the Conservation and Reinvestment 
Act (CARA); and H.R. 1592, the Constitutional Land Acquisition Act.
    CARA passed the House of Representatives in the 106th Congress by a 
bipartisan vote of 315 - 102. Although the Bill passed the Senate 
Committee on Energy and Natural Resources by a vote of 13-7, it was not 
enacted into law.
    The Committee heard testimony from 88 witnesses at four hearings on 
CARA during the 106th Congress--one in each of the following locations: 
Washington, D.C.; Anchorage, Alaska; New Orleans, Louisiana; and Salt 
Lake City, Utah. We compiled over 1000 pages of written testimony.
    CARA was reintroduced in the 107th Congress on February 14, 2001 by 
Congressmen Young, Dingell, Tauzin, George Miller, John, Rahall, 
Kildee, Cooksey, Saxton, and myself, and has, as of today, garnered 
over 218 cosponsors.
    H.R. 1592 was introduced by Congressman Mac Thornberry on April 25, 
2001. This is the Committee's first hearing on that Bill.
    CARA takes revenue from Federal offshore oil and gas production and 
utilizes those funds for production impact assistance and coastal 
conservation while funding conservation and recreation programs in all 
50 States and territories. For example, not only does CARA provide a 
comprehensive approach to wildlife conservation funding by broadening 
funding support to a permanent, definite appropriation from a general 
revenue source, but it also helps provide inner-city children with 
places to play basketball or study after school.
    CARA also fully funds the Payment In-Lieu of Taxes (PILT) program. 
As most of you know, I would not have cosponsored CARA had it not been 
for the Bill's full funding of PILT. As originally drafted, CARA 
undertook to fund PILT and the Refuge Revenue Sharing (RRS) programs by 
a complicated method of allocating interest proceeds from the CARA fund 
based upon appropriation levels of a given year. Unlike the CARA of the 
106th Congress, the 107th CARA fully funds both PILT and RRS at their 
authorized levels by simply providing all of the funding for the two 
programs directly from the CARA fund.
    CARA also fully funds the Land and Water Conservation Fund (LWCF) 
and provides several property rights protections and land management 
guidelines. For decades, the Land and Water Conservation Fund has made 
$900 million available for Federal and State land acquisition. However, 
State acquisition funding is often overshadowed by that provided to the 
Federal government, which may currently spend up to $900 million on 
land acquisitions with virtually no restrictions. CARA requires the 
Federal government to share half of the LWCF money, i.e., $450 million, 
with the States to be spent on locally selected projects.
    CARA provides several other protections from Federal land 
acquisition. First, the Bill mandates that Congress approve the 
expenditure of LWCF money for land acquisition. Second, the Federal 
portion of the CARA fund may not be used for federal acquisition unless 
the owner of the property concurs, or Congress specifically approves 
the acquisition. Third, each year the Administration must transmit a 
list to Congress requesting specific approval for each tract of land to 
be acquired. In preparing the list, the Administration must attempt to 
consolidate ``checkerboard'' Federal land holdings and use exchanges 
and conservation easements as an alternative to acquisition. Finally, 
the Federal portion of the LWCF may not be used to acquire any interest 
in land unless the Administration notifies the parties affected by the 
proposed acquisition.
    Despite its property rights protections, CARA has not been without 
its critics. Property rights advocates have denounced the Bill for its 
alleged failure to adequately protect private property rights. H.R. 
1592 attempts to address that criticism by adding several property 
rights protections to those created by CARA.
    To be sure, we all would agree that no legislation is perfect, but 
I feel that CARA is a sound conservation package that not only provides 
valuable protection for landowners, but would create a lasting heritage 
for American conservation. The Committee looks forward to hearing from 
our witnesses today. Due to the number of witnesses with us, I would 
restrict opening remarks to myself, Mr. Rahall, and Mr. Miller, as well 
as the original sponsors of the bills, Chairman Young and Mr. 
Thornberry.
    Lastly, we expected that Secretary Norton would have had a Deputy 
or Assistant Secretary confirmed in time to testify before the 
Committee today. Unfortunately, that has not taken place, and Secretary 
Norton is traveling in Alaska. Therefore, the Department of the 
Interior will submit written testimony for the record. We will make 
that testimony available to the Members of the Committee when we 
receive it.
                                 ______
                                 
    The Chairman. Mr. Rahall?

 STATEMENT OF THE HON. NICK J. RAHALL II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Chairman, the effort to gain enactment of the 
Conservation and Reinvestment Act is truly a historic one. And 
the making of history is normally something that does not occur 
at first blush.
    In many ways, the effort behind CARA reminds me of one that 
I was intimately involved with during the 105th Congress. That 
was the struggle to restore the word ``trust'' in the highway 
trust fund, which resulted in TEA-21.
    This legislation erected firewalls around highway spending, 
providing a guaranteed stream of revenue to finance our surface 
transportation needs, just as we are trying to do with CARA for 
important fish, wildlife, land conservation, and historic 
preservation programs.
    I well recall on several occasions, when faced with the 
united opposition of the appropriators and the budgeteers, we 
patted then-Chairman Bud Shuster on the back and said, ``Nice 
try. Good going, Bud. Give it the old college effort, but we're 
probably not going to win this fight.''
    To his credit, Bud never backed down. He did not flag nor 
fail in his dedication. And against overwhelming odds, he 
gained enactment of this landmark legislation.
    It is true that he was not the first architect of that 
effort. It dated back many years to other chairmen, who all 
fell short by a few votes. But he was the final architect.
    So I would note that the first architects of CARA--Don 
Young, George Miller, and others--truly deserve the credit for 
this effort.
    But as Melville put it in the novel ``Moby Dick,'' and I 
quote, ``But I now leave'' my system of classifying whales 
``standing thus unfinished, even as the great Cathedral of 
Cologne was left, with the crane still standing upon the top of 
the uncompleted tower. For small erections may be finished by 
their first architects; grand ones, true ones, ever leave the 
copestone to posterity.''
    I am here today to say that if we build upon the success of 
this measure in the House of Representatives last year, we are 
dedicated on a bipartisan basis to laying the copestone of CARA 
this Congress by gaining its enactment into law.
    We are dedicated to keeping faith with the unfulfilled 
promise made to the American people in such laws as the Land 
and Water Conservation Fund of 1965, that the investment in 
their land, in their resources, in our heritage, is as 
important to our society as any other public endeavor.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Louisiana, Mr. Tauzin, and one of the 
architects of this legislation.
    [The prepared statement of Mr. Rahall follows:]

Statement of The Honorable Nick Rahall, Ranking Democrat, Committee on 
                               Resources

    Mr. Chairman, the effort to gain the enactment of the Conservation 
and Reinvestment Act is truly an historic one. And the making of 
history is normally something that does not occur at first blush.
    In many ways the effort behind CARA reminds me of one that I was 
intimately involved with during the 105th Congress. That was the 
struggle to restore the word ``trust'' in the Highway Trust Fund which 
resulted in TEA 21. This legislation erected fire walls around highway 
spending, providing a guaranteed stream of revenue to finance our 
surface transportation needs. Just as we are trying to do with CARA, 
for important fish, wildlife, land conservation and historic 
preservation programs.
    I well recall on several occasions, when faced with the united 
opposition of the appropriators and the budgeteers, we patted then 
chairman Bud Shuster on the back and said, nice try, good going, but we 
probably are not going to win this fight. To his credit, Bud never 
backed down. He did not flag nor fail in his dedication and against 
overwhelming odds gained the enactment of that landmark legislation. It 
is true that he was not the first architect of that effort. It dated 
back many years, to other chairmen, who all fell short by a few votes. 
But he was the final architect.
    So I would note that the first architects of CARA, Don Young, 
George Miller and others, deserve the credit. But as Melville put it in 
the novel Moby Dick: ``But I now leave my system [of classifying 
whales] standing thus unfinished, even as the great Cathedral of 
Cologne was left, with the crane still standing upon the top of the 
uncompleted tower. For small erections may be finished by their first 
architects; grand ones, true ones, ever leave the copestone to 
posterity.''
    I am here today to say that as we build upon the success on this 
measure in the House of Representatives last year, we are dedicated, on 
a bipartisan basis, to laying the copestone of CARA this Congress by 
gaining its enactment into law.
    We are dedicated to keeping faith with the unfulfilled promise made 
to the American people in such laws as the Land and Water Conservation 
Fund Act of 1965 that the investment in their land, in their resources, 
in our heritage, is as important to our society as any other public 
endeavor.
                                 ______
                                 

STATEMENT OF THE HON. W.J. (BILLY) TAUZIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Mr. Chairman, thank you for that.
    Let me first recognize the cosponsorship and extraordinary 
help and assistance of my good friend Chris John. The reason 
you didn't recognize his name, Mr. Chairman, is that Chris 
comes from a family that was so poor that they couldn't afford 
a real last name.
    [Laughter.]
    Mr. Tauzin. His dad was named John John, by the way, and 
served on the Natural Resources Committee with me in the 
Louisiana legislature.
    Two weekends ago, Louisiana experienced 38 inches of water 
in my home town--38 inches of water in the rain gauges in 
Thibodaux, Louisiana.
    You know, I used to joke about Louisiana being half 
underwater, half under indictment. It was almost true a couple 
of weekends ago. [Laughter.]
    The governor, 3 weeks ago, facing a drought in my state, 
went on television and asked Louisianians to pray for rain. The 
next weekend, we got 38 inches, which is a message, George. 
When Cajuns start praying, we better get out of the way, 
partner. [Laughter.]
    The bottom line is that the old song by Randy Newman, 
``Louisiana,'' ``They're tryin' to wash us away; They're tryin' 
to wash us away,'' almost came true again a couple weekends 
ago.
    I tell you that because I want to remind you of the genesis 
of this extraordinary action of this Committee and the Congress 
last year. The genesis was a Marine Minerals Management report 
that indicated that the money derived from the great offshore 
activities of our country that are permitted ought to be in 
some way shared with the coastal states to deal with problems 
that coastal states have with ravages of nature.
    In my state, in my district almost, we lose 35 square miles 
a year to erosion. You know, that is just one little sentence, 
but think about it, how profound that is.
    If you were losing 35 square miles of your district, any 
one of you, you know, you get a sense of what we go through 
year after year after year in Louisiana. We lost the size of 
the State of the Rhode Island since the 1950's in my district 
alone.
    George, they tease me, and say I'll be representing fish 
pretty soon. [Laughter.]
    We're trying to teach them how to vote, by the way.
    [Laughter.]
    But we are literally losing some of the most valuable and 
most sensitive and most productive estuaries of the country in 
coastal Louisiana. And with the loss of all that immeasurably 
valuable coastal wetlands comes the threat of hurricanes and 
floods like we experienced this weekend, this last weekend, and 
devastation and damage, because all of that coastal wetlands 
served as a buffer at one time to the ravages of nature in the 
gulf.
    So while we drain 40-some-odd states through the 
Mississippi and the Red River valley and down by Lafourche in 
my home town, we also face enormous rainfall and erosion on the 
coastline.
    And so this started as an effort to try to do something 
about it. If Louisiana coastline were as close to Washington as 
the Chesapeake, we probably would have done something a long 
time ago. Or if it got as much attention as the Everglades, we 
probably would have done something a long time ago.
    But this is the first effort to do something about it, to 
literally make a dedication, not just to Louisiana, but to all 
coastal states who are similarly threatened, a real dedication 
of funds on a permanent basis to do something about it, to try 
to protect and preserve those incredibly valuable lands.
    And we came to this table and met with the 
environmentalists and the conservationists of this House and 
put together an enormously important and delicately balanced 
package that funds land and water conservation efforts and 
acquisition efforts across America, coastal preservation 
efforts, the PILT program, Federal lands, historic 
preservation, urban parks.
    You look at this bill, it is an extraordinary contribution 
to a whole host of incredibly important aspects of American 
life that this bill literally funds and makes possible.
    And we finally met with all the conservatives in this body, 
who were deeply concerned about property rights, and built in 
17 specific property rights provisions that actually makes the 
law of America more protective of property rights than it would 
be without this bill.
    That is an extraordinary balance. There is a lot of give 
and take.
    And the meetings that we sat through last year were arduous 
and tough negotiating sessions. But we ended up with a package 
that three-quarters of the Members of this House could support.
    That is a remarkable achievement in a partisan decade when 
we tend to throw bombs at each other rather than compliments. 
That is an extraordinary achievement for the good of our 
country.
    We need to replicate that again this year, Mr. Chairman. 
And I know, under your leadership, we are going to do that. And 
we will present to the Senate one more chance to get it right. 
And hopefully this time, they will get it right, and we will 
get a bill signed by the President.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from California, Mr. Miller.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman.
    And I want to join you and Mr. Rahall and Mr. Tauzin and 
Mr. Thornberry and others on this matter and to say that I join 
in this effort.
    CARA is in fact a package. It was not designed to be 
cherry-picked in one fashion or another by the Appropriations 
Committee. And I, like all of us, appreciate the pressure that 
they are under.
    But this was about a commitment, about a commitment that we 
called that was really about redeeming the promise that was 
made to the people in this country about the use of those oil 
revenues and about the needs of the coastal states.
    And we did part of the job last year, but we didn't do the 
entire job. And I think it is important that we come back and 
that we make every effort to fulfill the entire package, that 
we get a sustained program of spending on what are clearly 
national priorities that have overwhelming bipartisan support 
in rural areas, in suburban areas, in urban areas, in the 
heartland of this country, and along the coast of this country, 
and that we recognize that this is a matter of national need 
and of purpose, and that we follow through on this.
    Members of this Committee spent many, many hours meeting 
with people across the board. And one of the components was 
something that took a lot of work, and that was on the points 
that Mr. Tauzin raised about property rights and the provisions 
and the protections.
    Well, if just do the appropriations, you don't get the 
other half of that package. And that was a major concern to 
many people who sponsored this legislation, that that in fact 
would happen.
    And that is why we need the passage of this bill. I hope we 
will be able to do it early. It got to the Senate late, and we 
know the Senate needs a lot of time to move.
    But hopefully, we can get this over to them early on and 
this will be a matter of priority there, too. I know I have 
talked to a number of Senators who now recognize what we are 
trying to do, and now they want to champion this bill where 
last year they were reluctant.
    So I am very encouraged by those efforts. We have had a 
couple of meetings with the White House. And I think that 
people understand the importance of this legislation and the 
priority that it should have.
    And I want to thank you for this hearing, Mr. Chairman, and 
to all of my colleagues for the reintroduction of this bill, 
and to everybody who worked so hard to get the 218, 219 
cosponsors I think we are at today.
    Finally, I just want to say to Mr. Tauzin, there was a 
wonderful program on the Mississippi and on New Orleans and on 
the pumps that my wife watched. And of course, when it started 
raining, she kept going to the Weather Channel to see how the 
pumps were doing in New Orleans.
    But it is an amazing amount of rain that you absorbed in 2 
days' time down there. It is just absolutely remarkable.
    But I think it makes the case for the kind of work that has 
to be done if we are in fact going to protect those wetlands 
and the coastline of this state in that very tenuous position.
    So I look forward to the hearing and thank you again, Mr. 
Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Mac Thornberry, the author of 
H.R. 1592.

   STATEMENT OF THE HON. MAC THORNBERRY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, Mr. Chairman.
    And I would ask unanimous consent that my complete 
statement be made part of the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Thornberry follows:]

Statement of The Honorable Mac Thornberry, a Representative in Congress 
                        from the State of Texas

    Thank you, Mr. Chairman.
    I appreciate the opportunity to have this hearing today to discuss 
government land ownership and a bill that I have introduced to help 
safeguard one of the most precious rights a free people can have.
    The Fifth Amendment to the Constitution clearly states that the 
federal government cannot lay claim to private property without 
compensating the owner or owners of the land.
    Yet over the years, this right has been eroded away. New laws have 
been passed and regulations enforced that have pushed property rights 
far down the list of things about which Washington is concerned. The 
Land and Water Conservation Fund is a good example of that.
    The Land and Water Conservation Fund is the main fund that the 
government uses to buy private lands. Over the past 35 years, around 
4.5 million acres of land--an area around the size of New Jersey--have 
been acquired with tax dollars collected through this fund. Yet as it's 
currently written, the law includes no provision recognizing the rights 
of private property owners.
    I introduced H.R. 1592, The Constitutional Land Acquisition Act, to 
recognize and protect those rights in the law. My bill basically says 
that if the government wants to buy a piece of land, it's got to take 
into consideration the rights of property owners before moving ahead 
with the sale.
    Among other things, H.R. 1592 would:
    <bullet> LRequire that a land seller concur with the purchase, and 
that the transaction be approved by an Act of Congress.
    <bullet> LProtect inholders so that federal standards on 
surrounding LWCF purchased lands cannot conflict with neither use nor 
enjoyment of the owners'' lands.
    <bullet> LRequire relevant agencies to certify that equal value 
land exchanges, conservation easements, and other factors have been 
considered before an acquisition can be made.
    <bullet> LRequire affected areas to be notified of a purchase.
    <bullet> LProhibit using LWCF money for condemnation actions as a 
means of acquisition.
    <bullet> LMake it easier for states to convert lands they purchased 
with LWCF funds to a new purpose.
    One of the issues we'll likely discuss today is how the private 
property protections included in my bill compare with the private 
property protections included in the Conservation and Reinvestment Act. 
I would make the case that while CARA does take a step in the right 
direction toward strengthening private property rights, it does not go 
far enough. Perhaps most critically, it does not specifically prohibit 
federal or state governments from condemning private land.
    Mr. Chairman, in his recent book, The Mystery of Capital, acclaimed 
author Hernando de Soto has this to say about the importance of private 
property to Western Civilization:
        ``With legal property, the advanced nations of the West had the 
        key to modern development; their citizens now had the means to 
        discover...the most potentially productive qualities of their 
        resources.''
    H.R. 1592 is not only about mechanics and fairness when a federal 
or state acquisition is made, it is also about preserving the basic 
foundation which enables Americans to continue our liberty and pursuit 
of happiness.
    Mr. Chairman, I appreciate once again the opportunity to discuss my 
bill and this issue this morning.
                                 ______
                                 
    Mr. Thornberry. Mr. Chairman, I appreciate the opportunity 
to have a chance to discuss today the proposal that I put 
forward.
    It is certainly related to CARA, but I believe that we need 
some additional property protections whether or not CARA 
passes, because I believe one of the most precious things that 
a free people can have is the right to own property and to use 
that property.
    There has been a fascinating book that has come out in the 
past year or so called ``The Mystery of Capital'' by a Peruvian 
author, Hernando De Soto, which tries to look at why the Third 
World has not developed the way other parts of the world have. 
And his conclusion is it comes down to property ownership and 
protections of those rights.
    And if CARA passes, and we have the tremendously greater 
sums of money available for land acquisition, which you have 
all talked about, I think we need to be more vigilant in the 
protections of property rights as well.
    CARA certainly takes a step forward from existing law. 
There are no protections in the Land and Water Conservation 
Fund now. CARA is a step ahead. I think we can make another 
step ahead.
    But, again, whether or not CARA passes, I believe we need 
to have additional protections.
    Mr. Chairman, the power of the Federal Government is an 
awesome thing, particularly when it zeros in on a particular 
piece of land owned by a particular landowner or a family. I 
think we have to be very vigilant in thinking about what it 
looks like from that landowner's standpoint, and the importance 
of those property rights as we talk about tremendously greater 
sums of money which could be used for land acquisition by the 
Federal and state governments.
    So I appreciate the chance to talk about those issues and 
the chance to have a hearing on this proposal.
    The Chairman. I thank the gentleman from Texas.
    We are grateful for our first panel, and we have some very 
great people on all three of our panels, if they would come 
forward.
    I see Mayor Ashe is there. Mr. Randy Johnson, Commissioner 
from Emery County, if he would come forward. Mr. Jack C. 
Caldwell, Secretary, Louisiana Department of Natural Resources. 
And Mrs. Renee Daniels-Mantle.
    Now, we have them from different States here, and I would 
appreciate it if the respective ladies and gentlemen on the 
Committee would introduce the distinguished members of this 
panel.
    I will start with Mayor Ashe and turn to our friend from 
Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman.
    I simply want to welcome to the Committee a longtime friend 
of mine, Mayor Victor Ashe, who is Knoxville's longest serving 
mayor. He is now in his fourth 4-year term.
    Mayor Ashe has made a tremendous record as mayor of 
Knoxville, and that has been recognized nationally. He was 
honored as being named the national Chairman of the U.S. 
Conference of Mayors a few years ago.
    Mayor Ashe has been a very popular mayor. He has been 
reelected by large margins.
    And we have worked together over the years on many 
different projects. And I can tell the Committee that he has 
been a really outstanding mayor for the city of Knoxville.
    I am proud to call him my friend and proud to welcome here 
to the Committee this morning. He was the executive director of 
the President's Commission on Americans Outdoors a few years 
ago. And he has great, great interest in the work that this 
Committee does, and particularly in this legislation on which 
he will testify this morning.
    So thank you very much for allowing me to introduce and 
welcome Mayor Victor Ashe.
    The Chairman. I thank the gentleman for those comments.
    Our next witness is Mr. Randy Johnson, a Commissioner from 
Emery County. I personally know Mr. Johnson, and I don't know 
if I have ever known a Commissioner that works as hard or is as 
dedicated in my many years in this business.
    But I will turn to Mr. Cannon, who represents that area, to 
introduce Mr. Johnson.
    Mr. Cannon. Thank you, Mr. Chairman.
    It is my pleasure to introduce Randy Johnson, who has been 
a commissioner at least as long as I have been here, longer, 
and done a great job.
    We work closely together. Mr. Johnson represents that area 
of Utah which Butch Cassidy and the Sundance Kid occupied and 
which is where the movie was made, by the way.
    [Laughter.]
    So if you enjoyed some of the stark scenery in that movie, 
you will understand that that is the San Rafael Swell that has 
been subject to a significant amount of legislative work on 
this Committee.
    So we would like to welcome you.
    And also point out that I think Mrs. Daniels-Mantle also 
runs cattle in Utah, don't you?
    Mrs. Daniels-Mantle. Partly.
    Mr. Cannon. Partly. The part that you do is in my district, 
so we appreciate your being here and welcome you here today, 
also.
    Thank you.
    The Chairman. I thank the gentleman from Utah.
    The gentleman from Louisiana.
    Mr. Tauzin. I will be brief, Mr. Chairman.
    That movie, ``Butch Cassidy and the Sundance Kid,'' was 
remarkable for that great line. Every time Butch Cassidy and 
the Sundance Kid would look behind them, they would say, ``Who 
are those guys?'' Remember? They kept following them; they 
couldn't lose them.
    [Laughter.]
    Well, among the guys and the gal of who are presenting 
today is a very special person from Louisiana. Governor Foster 
named Jack Caldwell the secretary of our natural resources 
department because of his extraordinary depth of knowledge, not 
only about our natural resource base and its environment, but 
about the oil and gas industry and the important interplay 
between the two. And Jack Caldwell has been an extraordinary 
force in the last Congress's efforts to put together the CARA 
bill.
    Recently, he was an adviser to the Vice President and sent 
the Vice President extraordinarily good advice on the energy 
package that the Vice President delivered to Congress just 
recently.
    Jack, I want to thank you for that. You served our state 
extraordinarily well, I think, in the great advice you gave him 
as a consumer state and the messages you gave him about 
conservation and the need for us to balance our program out 
properly. And I want thank you for that, Jack.
    Jack is an extraordinary public servant. And if I were 
governor of Louisiana, I would have picked him as secretary of 
natural resources as well.
    Thank you for being here, Jack.
    The Chairman. I thank the gentleman.
    Our next witness claims many areas, I understand, but it 
says Wyoming, so I will turn to the gentlelady from Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman.
    And I would like to welcome Renee Daniels-Mantle, who 
resides in Pavillion, Wyoming, I understand. But the ranch that 
you run is in Representative McInnis's district for the most 
part, so he wanted to introduce you as well.
    But he is busy so--
    [Laughter.]
    Yes, I am done.
    Welcome. Glad to have you here.
    Mr. McInnis. Well, I welcome the witness as well.
    I think that the Mantle Ranch is a clear demonstration of 
overreaching by the Federal Government. It is clear at the 
Mantle Ranch there is a Federal agency that wants the land and 
is bound and determined, despite the property owner's rights 
and privileges, is bound and determined to take that ranch by 
whatever acquisition method is necessary or justified, 
including regulatory overburden, including threats of 
condemnation, including lack of cooperation.
    I mean, I am glad that we have an owner of the ranch, a 
representative of the ranch, here today to testify, but, I'll 
tell you, if any of my colleagues want an example of grievous 
overreaching by the government to push private property owners 
off the property and put it into the Federal bag of 
landholdings, this is the example.
    So I appreciate the witness making the trip and coming out 
here.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady from Wyoming and the 
gentleman from Colorado.
    With that said, let me point out to you folks that when you 
were asked to testify, you were told that we would appreciate 
it if you could keep it within 5 minutes. We know how important 
this legislation is, both to Congress and to America.
    And you will see there in front of you a little thing that 
looks like this, and it is just like a traffic light. When you 
see the yellow, don't try and run it--but you know some people 
in America do.
    And if you feel there is just something that you just can't 
stand, that has to be said, well, I probably won't gavel you 
down for at least 30 or 40 seconds.
    So with that in mind, Mayor Ashe, we are very grateful to 
have you here. And the floor is yours, sir.

    STATEMENT OF THE HON. VICTOR ASHE, MAYOR OF THE CITY OF 
                      KNOXVILLE, TENNESSEE

    Mr. Ashe. Thank you very much, Mr. Chairman. It is 
certainly a privilege to be here representing the U.S. 
Conference of Mayors.
    And I thank my Congressman, Jim Duncan, for that very 
generous introduction. He didn't tell you, for those of you who 
might not know, that his father served as mayor of the city of 
Knoxville and also, up until my time, had the record of being 
elected the most times as mayor of the city of Knoxville, and 
was very instrumental in bringing minor league baseball to our 
city during his tenure back in the 1960's.
    Let me express appreciation to both Democrats and 
Republicans on this Committee for your bipartisan sponsorship 
in the last Congress of CARA and the fact that it achieved a 
bipartisan majority in both parties in the enactment of this 
legislation.
    And I speak to this today from the standpoint of local 
government. I am not qualified to speak for what has or has not 
occurred at the Federal level in terms of land acquisition or 
non-acquisition.
    And I realize that from Yosemite to the Everglades, the 
national parks serve as a shining star in terms of the scenic 
beauty of our nation, and they make for memorable once-in-a-
lifetime opportunity for visits.
    But I can tell you, as mayor of the city of Knoxville, that 
the most important park in American is the one down the street, 
where your children play ball or soccer or whatever the sports 
activity may be.
    In fact, this sunburn that is peeling off my face here 
today is the result being there from 12:15 Saturday until 5:30, 
watching my 11-year-old play ball at a park in our city.
    It is the park where you spend recreational time, where you 
may be there, walking with a friend to develop a healthier 
lifestyle. It may be where you had your first picnic with that 
other person who became the most important person in your life. 
It may be where you developed athletic ability.
    But the fact is, I can tell you that developing new local 
parks and maintaining existing local parks is increasingly more 
difficult. They are not making any new land, and the pressure 
to develop greenfields for new industrial and commercial uses 
often makes park use sometimes a secondary consideration.
    I am proud to say that in Knoxville, we have just acquired 
and are developing a new 100-acre park, which will be probably 
be the last park of that size within the current corporate 
limits of our city, simply because we don't have any other 
undeveloped land available. And the expense of converting 
developed property into park land is oftentimes far beyond the 
reach and the financial ability of local government to do.
    And while it is difficult to develop new facilities, I 
think the citizens not only of Knoxville but cities and 
counties across our nation want improved and expanded 
recreational opportunities.
    Two years ago, I testified before the comparable Committee 
but on the other side of this Hill in the Senate. And I sat in 
the shadow of NFL star Denver Broncos running back Terrell 
Davis, who certainly took the limelight that day, and 
appropriately so.
    But it was to urge the Senators and the Congress to keep 
the promise to support local parks, because when the Land and 
Water Conservation Fund was enacted some 36 years ago, it 
pledged to use the funds collected from offshore oil and gas 
drilling to support the development not only of national and 
state parks but also local parks.
    And that is the point I want to make, that this should not 
be lost in terms of the debate at the national level, realizing 
the local level is a major, major component. And in terms of 
the actual use that will occur in this country, there will be 
more use occurring at the ballpark down the street from where 
you live than will be at Yosemite or Yellowstone or the 
Everglades, as great as those parks are. None of my comments 
are in diminution of that.
    But the fact is, we have already used to a great degree 
this funding over the last 36 years, whether it is Morningside 
Park, which has the largest statue of an African-American in 
our nation in Knoxville for Alex Haley, who has Knoxville as 
his adopted home town, or whether it is other parks, Westview 
or Harriet Tubman.
    The fact is, they are providing good opportunities for 
people to develop healthier lifestyles.
    And I would point out I think it helps provide for a safer 
community because, particularly if kids and teenagers have 
things to do, it makes sure that they are not getting into 
trouble or doing things they shouldn't be doing.
    It enhances property values, parks do, in those immediate 
neighborhoods.
    And when you improve recreational opportunities for 
children or for young people, I think there is a clear 
correlation that crime goes down. I can tell you as mayor that 
when anyone has ever suggested that the park budget or 
recreation budget be reduced, I respond that police department 
budget ought to be increased because you will need that much 
additional help to offset the problems that will be created by 
reduced recreational opportunities.
    Park improvements are an investment in our future, they are 
an investment in our youth. And I hope that this Committee and 
the Congress is able to enact this with the same type of 
bipartisan support that you have in the past.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Ashe follows:]

  Statement of The Honorable Victor Ashe, Mayor, Knoxville, Tennessee

    Americans are justifiably proud of their national park system. From 
Yosemite to the Everglades, the national parks serve an important 
purpose in preserving our natural history for future generations and 
make for memorable once-in-a-lifetime visits.
    However, as mayor of Knoxville, Tennessee, I have learned that the 
most important park to most Americans is the park down the street from 
where they live. The park down the street from your house is the place 
you take your children to play baseball, football or soccer. It is the 
park where you walk with a friend to develop healthier lifestyles. It 
is probably the park where you had your first picnic with that most 
important other person in your life.
    Developing new local parks is becoming increasingly more difficult. 
The pressure to develop greenfields for new industrial or commercial 
uses often makes park use a secondary consideration. In Knoxville, we 
have just begun to develop a major new park of about 100 acres, which I 
think will be the last of its size in our city. It will be the last 
because the city doesn't have the undeveloped land to build another 
park of this grandeur. And the expense of converting developed property 
into parkland is many times beyond the reach of local governments.
    While is it difficult to develop new facilities, the citizens of 
Knoxville and most every other American city for that matter, want 
improved and expanded recreational opportunities.
    Two years ago, I joined with NFL star Denver Broncos running back 
Terrell Davis in addressing your colleagues in the Senate.
    Mr. Davis and I urged the senators to keep their promise to support 
local parks.
    When the Congress created the Land and Water Conservation Fund in 
1965, it pledged to use the funds collected from off-shore oil and gas 
drilling to support the development of national, state and local parks.
    However, since the 1980s, Congress has used most of this money for 
budget deficit reduction leaving very little funding for state and 
local parks programs.
    I urge this committee to approve H.R. 701, the Conservation and 
Reinvestment Act.
    The Land and Water Conservation Fund and the Urban Park and 
Recreation Recovery Program have helped to develop some of the most 
popular parks in Knoxville, both in the inner city and in other 
sections of the city.
    An example of the success of the federal funding is our Morningside 
Park, which is the home of the outstanding Alex Haley Statute, the 
largest statue of an African American in the nation.
    Other parks so developed include the Harriet Tubman Park and 
Westview Park.
    And we have an Urban Park and Recreation Recovery Program grant 
application to develop Caswell Park, which will be a multi-use facility 
located in the city's HUD designated Empowerment Zone area.
    Using these models, Knoxville has been very successful in 
developing new parks and greenways.
    While many people like park development is nice and good for the 
quality of life, there are many other important factors to consider in 
park funding.
    These park improvements strengthen the fabric of our community by 
providing young people with a safe place to gather and play.
    Across the nation and right here in Knoxville, communities have 
learned that when you improve recreational opportunities for children, 
the crime rate goes down.
    Many mayors have found that if you reduce your Parks budget, you 
need to increase the Police budget by a like amount to handle the 
problems of teenagers on the streets with no where to go.
    Park improvements are an investment in our future''. They are an 
investment in our youth.
    Thank you for this opportunity to address the members of this 
committee.
                                 ______
                                 
    The Chairman. I thank you, Mayor. I appreciate you being 
here.
    Commissioner Johnson?

STATEMENT OF RANDY G. JOHNSON, COMMISSIONER, EMERY COUNTY, UTAH

    Mr. Johnson. I was hoping Mr. Tauzin would be here because 
I was going to ask him if he would have the people of Louisiana 
pray for rain in Utah. [Laughter.]
    But at any rate, Mr. Chairman, I am pleased to be here 
today and am grateful for the opportunity to testify about the 
Payment In-Lieu of Taxes provisions of Title VIII of this bill.
    Section 802 of this legislation earmarks up to $320 million 
for annual PILT payments to counties, essentially fulfilling 
the longtime promise to public lands counties that the Federal 
Government would help pay for the services it imposes upon 
counties in the form of mandates.
    A full PILT payment is, in essence, Congress keeping its 
word, providing a portion of the funds necessary to comply with 
that mandate. I will discuss this in more detail in a moment.
    May I say that there is some irony to the fact that I am 
here to testify in regard to fully funding PILT payments in 
connection with legislation which may well create an increase 
in the loss of tax revenues to counties from private lands, and 
a corresponding increase in cost to those counties for 
infrastructure requirements on Federal lands.
    In fact, in order for rural counties to support H.R. 701 in 
any significant way, they must believe that the Federal 
Government recognizes the fiscal impacts to counties as a 
result of Federal lands, and that it recognizes its 
responsibility to make the counties as whole as possible for 
the burden they carry.
    Truly full and ongoing funding of PILT becomes integral to 
the success of H.R. 701.
    To go back, Congress did enact the Payment In-Lieu of Taxes 
in 1976 and began funding it at about 35 percent of its 
authorized level in 1977.
    Counties have worked hard to increase that level over the 
past 7 years after Congress increased the PILT authorization in 
1994. Despite its miserly 1977 to 1995 funding of the PILT Act, 
Congress made a solemn commitment to counties that the Federal 
Government would begin to pay--if only a fraction--for services 
it demanded from county governments, including basic health and 
safety actions such as police, search and rescue, fire control, 
road maintenance, jail operation, and garbage collection and so 
forth.
    I chair the Rural Public Lands County Council and am also 
on the executive board of the Utah Association of Counties. 
These two organizations from the State of Utah have been by far 
the two most active voices in working to get PILT fully funded. 
Often, we were the only two voices being heard.
    We were often coolly received even by some who would 
normally be our allies. Their reasoning was usually that we 
should be happy with what we were already receiving, and that 
we should not forget that PILT is really a form of government 
welfare.
    I would like to speak to that by giving you an example from 
my own county, which illustrates what counties face in dealing 
with large areas of public lands.
    In Emery County, we have approximately 3 million acres, 
roughly the size of the State of Connecticut, with just under 
11,000 residents. Over 80 percent of our lands are owned by the 
Federal Government. Another 10 percent is state-owned. 
Obviously, very little land is privately owned.
    We receive approximately $370,000 in annual PILT payments 
based on the formula and at the current funding level. As you 
know, the formula is based on many factors but in no way does 
the formula account for impacts to the county as a result of 
Federal land use.
    For instance, I-70 bisects Emery County from east to west 
across the San Rafael Swell. Hundreds of thousands of people 
cross our public lands yearly and have free access to those 
lands without passing through our towns. We only know visitors 
are there if we arrest them, rescue them, retrieve them, or 
find their trash.
    Yearly, we average between 50 and 100 rescues on the San 
Rafael alone, most lasting at least 1 day and some as long as 7 
to 10 days. In 1997, we had 180 rescues in the San Rafael area.
    For example, in 2000, we had two drownings in the Black 
Box. This is a very high and narrow canyon with the San Rafael 
River at the bottom. These people attempted to tube the river 
through this winding canyon based on advice in a travel book.
    The first body took us 3 days to locate and retrieve, and 
it all took place inside a Wilderness Study Area. Total cost to 
the county was over $50,000, and this is just one of many 
examples.
    Furthermore, these search and rescue operations are not 
seasonal, nor are they limited to the San Rafael Swell. We have 
hikers, fishermen, hunters, snowmobilers, public-land users of 
every kind, all through the year on all areas of our public 
lands.
    In a recent survey done of use of national forest lands in 
a 3- to 4-mile section of the Huntington Canyon, 28,000 people 
visited that 3-mile stretch of road and 47 percent of the 
visitors came from Utah's Wasatch front, 41 percent from other 
from out-of-state areas, and only 12 percent were from Emery 
County.
    So the point is that we are severely impacted by the use of 
these lands. And, ironically, people in these urban areas are 
the ones who support programs that tend to limit our 
availability to these public lands and yet they are the first 
to leave their urban areas and scurry out to these rural areas 
to have some fun and refresh and recreate.
    Summarily, sir, I would just like to say there are 2.2 
million acres of Federal land in Emery County, for which we 
receive $370,000. If that were in greenbelt status, the lowest 
tax rate that the county has in private ownership, the amount 
that we would receive is around $900,000.
    So, truly, the Federal Government is not paying its own way 
in terms of the impacts that we face in Emery County. And we 
fully support fully funding PILT as part of this legislation.
    [The prepared statement of Mr. Johnson follows:]

Statement of Randy Johnson, Commissioner, Emery County, Utah, on behalf 
 of Rural Public Lands County Council and Utah Association of Counties

    Mr. Chairman, I am pleased to be here today and am grateful for the 
opportunity to testify about the Payments in Lieu of Taxes (PILT) 
provisions of Title VIII of this bill. Section 802 of this legislation 
earmarks up to $320,000,000 for annual PILT payments to counties, 
essentially fulfilling the longtime promise to public lands counties 
that the federal government would help pay for the services it imposes 
upon counties in the form of mandates. A full PILT payment is in 
essence Congress keeping its word, providing a portion of the funds 
necessary to comply with that mandate. I'll discuss this in more detail 
in a moment.
    May I say that there is some irony to the fact that I am here to 
testify in regards to fully funding PILT payments in connection with 
legislation which may well create an increase in the loss of tax 
revenues to counties from private lands, and a corresponding increase 
in cost to those counties for infrastructure requirements on federal 
lands. In fact, in order for counties to support H.R. 701 in any 
significant way they must believe that the Federal Government 
recognizes the fiscal impacts to counties as a result of Federal Lands, 
and that it recognizes it's responsibility to make the counties as 
whole as possible for the burden they carry. Truly, full and ongoing 
funding of PILT becomes integral to the success of H.R. 701.
    To begin, let me put this issue of Payments in Lieu of Taxes in 
perspective. Since the late 1940s, most public lands counties concluded 
that they would prefer that the lands owned by the federal government 
within their borders be returned to them as the legal subdivision of 
their respective states. In other words, counties would prefer that 
they be removed from federal ownership. There are legitimate arguments 
to be made about maintaining federal ownership of National Parks and 
Monuments and perhaps some areas within our National Forests and 
Wildlife Preserves. Congress can debate this and decide. But, those 
lands which were not included in these designations, the remaining 
Bureau of Land Management (BLM) lands should by all rights be placed on 
the local tax roles and removed from federal ownership and control. 
This is not radical thinking, but rather common sense in the 21st 
Century. Until now, Congress has ignored this concept even though it 
solves numerous problems for the people who are left to eke out a 
subsistence in the public lands states and the people of the United 
States as a whole. Just imagine what the American taxpayers could do 
with the $1.8 billion earmarked for BLM in the fiscal year 2002 budget. 
The fact that PILT payments to counties are only $320 million as 
proposed in this bill (and $200 million in the fiscal year 2002 
Interior Appropriations bill) illustrates why counties believe they are 
shortchanged even with full PILT funding.
    As a stopgap measure, Congress did enact the Payment in Lieu of 
Taxes (PILT) Act in 1976 and began funding it at about 35% of its 
authorized level in 1977. Counties have worked hard to increase that 
level over the past seven years after Congress increased the PILT 
authorization in 1994. Despite its miserly 1977-1995 funding of the 
PILT Act, Congress made a solemn commitment to counties that the 
federal government would begin to pay-if only a fraction-for services 
it demanded from county governments. These services include basic 
health and safety actions such as police, search & rescue, fire 
control, road maintenance, jail operation, and garbage collection and 
disposal.
    I chair the Rural Public Lands County Council (RPLCC), and am also 
on the Executive Board of the Utah Association of Counties (UAC). These 
two organizations from the state of Utah have been by far the two most 
active voices in working to get PILT fully funded. Often, we were the 
only two voices being heard. We were often coolly received even by some 
who would normally be our allies. Their reasoning was usually that we 
should be happy with what we were already receiving, and that we should 
not forget that PILT is really a form of Government welfare. I would 
like to speak to that, by giving you an example from my own county 
which illustrates what counties face in dealing with large areas of 
public lands.
    In Emery County, we have approximately 3,000,000 acres, roughly the 
size of the state of Connecticut, with just under 11,000 residents. 
Over 80% of our lands are owned by the Federal Government. Another 10% 
is state owned. Obviously, very little land is privately owned.
    We receive approximately $370,000.00 in annual PILT payments based 
on the formula and at the current funding level. As you know, the 
formula is based on population, land mass, and other factors, but in no 
way does the formula account for impacts to the county as a result of 
federal land use.
    For instance, Interstate-70 bisects Emery County from east to west 
across the San Rafael. Hundreds of thousands of people cross our public 
lands yearly and have free access to those lands without passing 
through our towns. We only know visitors are there if we arrest them, 
rescue them, retrieve them, or find their trash. Yearly, we average 
between 50 and 100 rescues on the San Rafael alone, most lasting at 
least one day, and some as long as 7- 10 days. For example, in 2000, we 
had two drownings in the Black Box. This is a very high and narrow 
canyon with the San Rafael River at the bottom. These people attempted 
to tube the river through this winding canyon based on advice in a 
travel book. The first body took us 3 days to locate and retrieve, and 
it all took place inside a Wilderness Study Area (WSA). Total cost to 
the county was over $50,000, and this is just one of many examples. 
Furthermore, these search and rescue operations are not seasonal, nor 
are they limited to the San Rafael Swell. We have hikers, fishermen, 
hunters, snowmobilers-public land users of every kind--- all through 
the year on all areas of our public lands.
    As an example, in 1998, the Forest Service did an impact study on a 
3-4 mile stretch of road in the Manti LaSalle National Forest. During 
the 3 month summer high-use period, over 28,000 people visited this 
small area of our county. 47% of the visitors came from Utah's Wasatch 
front, where over 80% of the population of the state reside, and 
another 41 % came from other Utah areas or from out of state. Only 12% 
of the visitors to this area were from Emery county. Ironically, many 
of the residents of the urban areas support programs which threaten the 
economic heath of our rural communities, but when they get tired of the 
city life, they are the first to seek our little towns and rural areas 
to refresh and recreate.
    As another example, in 2000 we wrote off more than $380,000.00 in 
uncollectible ambulance bills--- most of which originated with people 
who were enjoying our public lands most from out of state and some from 
out of the country.
    Often, there are more people visiting our public lands than 
actually reside in the county. On Easter weekend, our population 
triples as over 30,000 people make their way to the San Rafael Swell to 
go ``Easterin.'' But regardless of how many people visit, the 
responsibility for their welfare remains entirely on the shoulders of 
the county. This includes search and rescue, medical emergencies, 
public access, and so forth. And, we have not even spoken of costs of 
road maintenance & law enforcement, which are substantial. Some would 
speak of PILT as government welfare, but all other landowners in our 
county pay their own way. Only the Federal Government does not. With 
all due respect, who is the true welfare recipient here?
    Summarily, there are approximately 2,299,825 acres of Federal land 
in Emery County, for which we receive $369,000 If those same lands were 
in private ownership under greenbelt status, the lowest tax rate in the 
county, the revenue to the County would be approximately $897,069.
    So, Mr. Chairman, if we had our way, most representatives of public 
lands counties believe we could better manage the lands ourselves, much 
in the same way that over 2500 counties currently do in the United 
States. Most public lands are in the western states. However there are 
large pockets of public lands in Wisconsin, Michigan, New Hampshire, 
Vermont, North Carolina, Tennessee, and Florida. Forty-nine states have 
some federally owned land inside their borders. Yet, until Congress 
places these 1739 public lands counties on the same level as the rest 
of the country, PILT is the only way many of us can financially afford 
to continue providing these crucial services on behalf of all Americans 
who use our public lands. The reality is that absent full PILT funding 
going forward, many counties will simply have to stop providing these 
services because they lack the means to do so.
    Moreover, we believe the record is clear that local governments, 
with few exceptions are far more efficient users of tax dollars than 
are federal agencies. We accomplish more for less because our 
constituents demand that we protect their lands in a frugal, efficient 
way, not in a gold-plated way. As local elected public officials, we 
have to stand before the voters and are accountable, whereas unelected 
federal bureaucrats are not--they come and they go while we are left to 
live in their wake. And all too often, their management practices are 
insensitive to the local residents and the challenges they face.
    Rural communities face many difficult problems in maintaining 
economic viability. A big part of the problem, if I may say so, is the 
all-or-nothing approach to public land management issues used by many 
in the debate. This has become very harmful. All-or-nothing 
philosophies are intolerant. They refuse compromise. They are 
prejudicial and contentious, and it is the way we have been forced to 
do business on our public lands for the last 20 years. It is deeply 
concerning that in our zeal to protect land and wildlife, we are not 
only ignoring one of our most important national treasures, we are 
actually working to eliminate it. I refer, of course, to the small 
communities of the rural west. I hope that in the final language of 
H.R. 701, as well as in your decisions regarding PILT payments now and 
in the future, you will work to assure that this important part of our 
American culture is not only protected and preserved, but is given the 
opportunity to thrive.
    Mr. Chairman, I applaud your efforts to move toward full PILT 
funding and will leave it to you and your colleagues to determine the 
best way to accomplish that objective. I would point out that the PILT 
Act is authorized in a way which ties it to the CPI for annual 
inflationary adjustments. For fiscal year 2002, the PILT authorization 
is $327 million dollars. That level will increase over time. As a 
recommendation to keep counties whole, I suggest you consider amending 
your bill so that rather than having a fixed amount of $320 million 
(already behind the authorized level), you attach it to the indexing 
provisions of the PILT Act to always ensure that full funding goes 
forward.
    Thank you again for this opportunity to place PILT in perspective 
and to focus on the huge financial demands which public lands counties 
must endure. I also want to personally thank you, Mr. Hansen, 
Congressman Cannon, and the Committee for what you are doing in behalf 
of the rural counties of Utah and across the country. The fact that you 
have addressed the PILT issue demonstrates that Congress intends to 
find ways to keep its commitments to us. For your assistance on this 
and many, many other issues, I thank you.
                                 ______
                                 
    The Chairman. I thank the gentleman.
    Mr. Caldwell?

STATEMENT OF JACK C. CALDWELL, SECRETARY, LOUISIANA DEPARTMENT 
          OF NATURAL RESOURCES, BATON ROUGE, LOUISIANA

    Mr. Caldwell. Mr. Chairman, honorable members of the 
Committee, last year I had the pleasure of testifying before 
this Committee in support of H.R. 701, the Conservation and 
Reinvestment Act, which passed this House by a three-fourths 
vote but unfortunately failed to reach the floor in the Senate.
    This morning, my focus is going to be on Title I of the 
act, pertaining to coastal states. Today, half of the country's 
population lives within 100 miles of the coast. And the coast 
is subject to increasing stresses of all kinds, from pollution, 
overdevelopment, coastal erosion, and other stresses that are 
severely impacting this fragile ecology.
    In addition to that, the oil and gas producing states bear 
a disproportionate burden of the additional adverse 
environmental impacts from offshore oil and gas operations.
    I can speak particularly about Louisiana, where we have 
20,000 miles of pipeline in the offshore area and crossing the 
Louisiana coastline and 12,000 producing oil and gas wells in 
the offshore area.
    Today, 25 percent of all of America's oil and gas crosses 
the Louisiana coast either by pipeline, barge, or tanker.
    Now, this vast infrastructure is protected by the Louisiana 
coastal marshes. America's wetlands, 3 million acres 
disappearing at the rate of 35 square miles a year.
    Two weeks ago, tropical storm Allison hit the Texas-
Louisiana coast and the price of crude oil jumped $1 a barrel. 
Just imagine what would happen if a Category 3 hurricane hits 
this coast and the coastal marshes have all eroded away.
    Now, we believe that CARA can be the answer, not only for 
Louisiana, but for the entire country. The principle of CARA 
that a portion of the revenues should be shared with the host 
states has already been recognized with reference to onshore 
Federal properties, where half of the revenues go to the host 
state.
    But at the present time, the coastal producing states get 
no assistance at all from the Federal Government to offset 
these adverse impacts.
    Now, Louisiana has a plan to save its coast. And we are 
implementing that plan with encouraging success. But the 
funding is woefully inadequate, and the timing is urgent.
    So we need CARA and we need it now.
    Now, CARA is overwhelmingly popular. The polls show that 80 
percent of the American people support CARA. All of the major 
newspapers have editorialized in favor of CARA. Almost all of 
the governors support the CARA bill. Over 7,000 organizations 
have endorsed CARA.
    The reason for this popularity is apparent. The American 
public firmly believes in the basic principle of reinvesting a 
portion of the revenues from nonrenewable resources, such as 
oil and gas, into renewable and sustainable conservation 
assets. And that is the basic principle for CARA across the 
board.
    So on behalf of the State of Louisiana, we urge favorable 
consideration of H.R. 701.
    [The prepared statement of Mr. Caldwell follows:]

   Statement of Jack C. Caldwell, Secretary, Louisiana Department of 
                           Natural Resources

    Louisiana is in a dynamic position. We find ourselves at the center 
of the nation's energy debate as a key player in the future of the 
country's oil and gas supplies. Eighty percent of the nation's Outer 
Continental Shelf (OCS) oil and gas is extracted off Louisiana's coast 
or comes across our shores through pipelines to supply the rest of the 
nation.
    At the same time, we are the focus of what many scientists consider 
to be the largest on-going environmental crisis in America today. Each 
year, Louisiana is losing almost 35 square miles of our nation's most 
productive coastal wetland. This three-million acre wetland supports a 
third of the total volume of U.S. fisheries and provides wildlife 
habitat for two-thirds of the Mississippi Flyway waterfowl and many 
endangered and threatened species.
    Louisiana's coastal wetland provides protection from storms and 
hurricanes, not just for the two-million people who live in the coastal 
zone, but for the number one port system in America and for the 
nation's offshore oil and gas industry, an industry that puts $2 
billion to $3 billion a year into the Federal Treasury.
    Louisiana is the nation's coastal wetland basket, providing 
invaluable benefits to the rest of the country, while sustaining 
tremendous environmental impacts. Although the situation along our 
coast is clearly a Federal responsibility, the Federal government is 
not paying its way to do business off our shore. States like Louisiana 
that provide so much to the nation but that do not have a large 
population base or economic base, can no longer bear the cost of 
ecological and infrastructure damage occurring from an activity that 
benefits every man, woman and child in our country.
    Louisiana gets little direct benefit from Federal offshore OCS oil 
and gas activity in the Gulf. Jobs that were once almost exclusively 
held by Louisianians have dwindled through the years. The onshore 
infrastructure that supports Federal offshore activities is 
deteriorating and in immediate need of attention. For example, the 
single thread of highway that connects Louisiana's shore to the 
nation's offshore oil and gas supply is close to being washed into the 
Gulf. Still, more than 1,000 tanker trucks a day traverse it as they 
carry oil and gas to the rest of the nation.
    About a fourth of the nation's entire oil and gas supply comes to 
rest on Louisiana's shores by pipeline, tanker or barge. In light of 
today's energy crisis, this is a staggering thought. A more disturbing 
thought, however, is that the coastal wetlands that protect that 
industry's infrastructure are disappearing. Without their protection, 
the ecological consequences of a Category Four hurricane making a 
direct hit on more than 20,000 miles of oil and gas pipelines coming on 
shore is unthinkable.
    Ten years ago, the Coastal Wetlands Planning, Protection, and 
Restoration Act (CWPPRA) provided a unique partnership as five Federal 
agencies and the State of Louisiana began the daunting task of 
restoring Louisiana's coast. We have made great strides in learning 
what does and does not work as we try to save this fragile ecosystem, 
and although CWPPRA provides $50 million a year for the effort, it is 
only a fraction of what is needed to do the job.
    During the past 50 years, Louisiana has lost more than 1,000 square 
miles of its coast. Even with current efforts, we expect to lose 
another 1,000 square miles over the next 50 years. This loss represents 
80 % of all coastal wetland loss in the entire continental U.S.
    To address this loss, CWPPRA has developed Coast 2050, a 
technically sound strategic plan to sustain Louisiana's coastal 
resources and to provide an integrated multiple-use approach to 
ecosystem management. The main strategies of the plan are watershed 
structural repair, such as restoration of ridges and barrier islands, 
and watershed management, such as river diversions and improved 
drainage.
    In developing Coast 2050, the number of coastal wetland acres saved 
was not the only priority. The plan also considered other resources, 
such as roads, levees, fish and wildlife, and public safety and 
navigation. We know that a comprehensive restoration program, using 
Coast 2050 as a guide, could restore and maintain more than 90% of our 
coastal land loss. At the present rate of funding, we can only hope to 
save about 20% at best.
    The price tag to do the job is estimated at $16 billion to $20 
billion, but the cost of doing nothing is far greater. The cost to the 
nation of lost infrastructure alone would be close to $150 billion.
    CARA would go a long way toward providing the funds to restore this 
invaluable part of the nation's coast by sharing Federal OCS revenues 
with the states, just as Federal land-based revenues are shared through 
the Minerals Lands Leasing Act.
    For example, in 1997, the state of Wyoming hosted development of 
Federal mineral resources that generated more than $569 million in 
revenues. Wyoming received $239 million for its share of revenues 
produced on Federal lands. In the same year, Louisiana hosted 
development of Federal mineral resources offshore that generated more 
than $3.8 BILLION, and received only $18.2 million for its share of the 
revenues produced in Federal offshore waters.
    According to a 1993 report, Moving Beyond Conflict to Consensus, 
the OCS Policy Committee of MMS recommends ``a portion of the revenues 
from OCS program activities should be shared with coastal states, Great 
Lakes states and U.S. territories.'' The report goes on to say that 
``although coastal states that host Federal OCS oil and gas exploration 
and development suffer the environmental and infrastructure impacts 
caused by that development, just as Wyoming and other states that host 
extensive land-based Federal oil and gas development suffer impacts, 
these coastal states are not compensated in the same way and cannot 
mitigate the consequences of those impacts in the same measure.''
    The report emphasizes two fundamental justifications for a revenue 
sharing or impact assistance program: to mitigate the impacts of OCS 
activities and to support sustainable development of nonrenewable 
resources.
    The report states that ``addressing these needs would strengthen 
Federal-State-Local partnerships that must underlie a reasoned approach 
to national energy and coastal resource issues, and the breakdown in 
this partnership is evident in the fact that new OCS development is now 
occurring only off the coasts of Alabama, Alaska, Louisiana, 
Mississippi and Texas.''
    The report further states that `` a modest portion of the revenues 
derived from development of nonrenewable resources, such as oil and 
natural gas, should be used to conserve, restore, enhance and protect 
renewable natural resources, such as fisheries, wetland and water 
resources. This concept also underlies the Land and Water Conservation 
Fund which uses OCS revenues to acquire and develop park and 
recreational lands nationwide.''
    In 1997, the OCS Policy Committee reiterated its support. The 
committee's Coastal Impact Assistance Working Group was formed to look 
at alternatives and to make recommendations to the Secretary of the 
Interior on how to implement such a program. Their recommendations 
include the basis for the formula used in CARA to distribute the 
revenues to the coastal states.
    Louisiana has been very aggressive in the fight for CARA. Our 
state, along with the rest of the nation, has much at stake as our 
coastal wetlands continue to disappear. Last year, led by this 
committee, the U.S. House of Representatives championed CARA. 
Ultimately, CARA did not prevail. Instead, certain aspects of the bill 
were authorized or appropriated. Many called this CARA Lite.
    Those of us who fought hard for CARA know that what happened in the 
end was not CARA at all. The true essence of CARA is a steady, 
predictable stream of funding that would come directly to the states. 
This steady stream of funding makes it possible for states like 
Louisiana, with major environmental needs, to plan for and implement 
restoration efforts costing hundreds of millions of dollars.
    Some good things did come of last year's CARA efforts. The one-time 
appropriation of funds for the Coastal Impact Assistance Program (CIAP) 
was the first time Congress has ever acknowledged the need for such 
funding and the contribution being made by the oil and gas producing 
states. The one-time amount of $150 million shared by the seven 
producing states is a start, but pales in comparison to the enormous 
need for future funding.
    Louisiana has put its CIAP plan together and will put its share of 
the money ($26.4 million) to good use. To demonstrate Louisiana's need 
for the funds, in only three months, we identified 100 projects worth 
more than $64 million. It is evident that the one-time CIAP funds would 
barely scratch the surface of our state's enormous coastal impact 
needs.
    However, Louisiana is not standing still. With the Coast 2050 plan 
in hand, we have joined as full partners with the Corps of Engineers. 
For the first time in history, the Corps has taken a state agency into 
a 50-50 partnership. Together, we are engaged in a feasibility study to 
implement the Coast 2050 plan.
    Even without a source of funding to build projects on a scale that 
will truly save our coastal wetlands, Louisiana is moving forward. We 
must be ready if and when the money comes. We have no choice.
    I urge you to consider passage of CARA this year with the same 
vigor and enthusiasm you did last year. Only legislation like CARA will 
give Louisiana the fighting chance it needs to save a coastline that 
is, indeed, in the national interest.
    Attachments:
    Additional Facts on Louisiana's Coastal Land Loss and Contributions 
to the Nation's Offshore Energy Supply
    ``MMS Gulf of Mexico Pipeline Data.'' Image Data: 1993 LanSat TM 
Imagery.
    ``Principal Interstate Natural Gas Flow Summary, 1999.'' Energy 
Information Administration/Natural Gas Annual 1999.
    ``Coastal Louisiana Existing and Predicted Land Loss Trends 1956-
2050.'' Map produced by the Louisiana Department of Natural Resources, 
Coastal Restoration Division, and the USGS National Wetlands Research 
Center, Coastal Restoration Field Station. Data Sources: USGS National 
Wetlands Research Center: 1956-1990 land loss data. Base map derived 
from 1993 GAP land cover data; 1993-2050 with action predicted loss 
compiled for Coast 2050 by Louisiana State University, Natural Systems 
Engineering Lab, and the US Army Corps of Engineers, New Orleans 
District. Map-id 2000-4-317. Map Date: 4/28/2000.
                                      June 20, 2001

Additional Facts on Louisiana's Coastal Land Loss and Contributions to 
                  the Nation's Offshore Energy Supply

    Louisiana's coastal wetlands represent 40% of all the salt marshes 
in the contiguous United States. During the past 50 years, more than 
one thousand square miles have disappeared. During this decade, our 
coastal wetlands are being lost at the rate of 25 to 35 square miles a 
year, or the equivalent of a football field every 15 minutes. Even with 
current restoration efforts, we expect to lose almost one thousand more 
square miles by the year 2050. This dramatic loss represents 80% of all 
coastal wetland loss in the entire continental United States.
    The effects of natural processes like subsidence and storms, 
combined with human actions, including impacts from offshore oil and 
gas exploration and development, have led to an ecosystem on the verge 
of collapse.
    America is losing much more than acreage. Louisiana's coastal 
wetlands contribute 28% to the total volume of U.S. fisheries, provide 
winter habitat for one-half to two-thirds of the Mississippi Flyway 
waterfowl population and for many threatened and endangered species, 
the nursery ground for fish and shellfish for much of the nation's 
seafood consumption, and 40% of the nation's fur harvest. They provide 
for 400 million tons each year of waterborne commerce, and support and 
protect the multi-billion dollar a year oil and gas industry. Our 
coastal wetlands are home to more than two million people and serve as 
their buffer from hurricanes and storms.
Louisiana Offshore Oil and Gas Activity
    Eighteen percent of U.S. oil production originates in, is 
transported through, or is processed in Louisiana coastal wetlands, 
with a value of $6.3 billion a year. Almost 24% of U.S. natural gas 
production originates in or is processed in Louisiana's coastal 
wetlands, with a value of $10.3 billion a year.
    Louisiana's OCS (outer continental shelf) territory is the most 
extensively developed and matured OCS territory in the United States. 
It has produced 88.8% of the crude oil and condensate and 83.2% of the 
natural gas extracted from all federal OCS territories from the 
beginning of oil and gas exploration and development in the U.S. 
through the end of 1996.
    As of December, 1998, Louisiana offshore leases totaled 5,363, with 
more than 27 million acres under lease, 130 active drilling rigs, 4,489 
producing oil wells and 3,813 producing gas wells.
    Our latest annual production data for 1997 shows that 353,846,995 
barrels of oil and 3,881,352,353 MCF (thousand cubic feet) of natural 
gas was produced. Between January and July, 1998, oil production was at 
227,282,332 barrels, with gas at 2,281,832,468 MCF.
    As of October, 1998, there were 3,439 platforms in the Gulf off 
Louisiana's coast.
    In 1997, oil and gas production was valued at a combined total of 
$18.6 billion, with federal royalties totaling $2.9 billion.

[GRAPHIC] [TIFF OMITTED] T3218.034


    The oil and gas industry has rebounded from a downturn in the 
1980s. The main reasons are the discovery of oil and gas in deepwater 
fields of the central Gulf of Mexico, deepwater royalty tax relief, and 
new and improved technology used to extract oil from the deepwater 
Gulf.
    Industry leaders are expressing a new optimism and the frantic pace 
of drilling is breaking old records. The deepwater Gulf of Mexico has 
emerged as the country's most significant oil and gas province and some 
estimates say within the next four to five years, as much as 30% of the 
country's total domestic output will originate from the Gulf of Mexico.
    Market analysts predict this intense level of exploration could 
last 10 years. The success of Louisiana's oil and gas industry 
contributes billions to the state and national economies every year. 
Offshore companies paid about $2.4 billion to vendors and contractors 
in 165 Louisiana communities in 1992 alone. Nearly 4,000 vendors serve 
offshore operations and employ 55,000 people and more than 30,000 are 
employed offshore.
    Port Fourchon is the geographic and economic center of offshore 
drilling efforts along the Louisiana Gulf Coast. More than $700 million 
in public and private investments have been made in the complex and the 
port will provide support to 75% of the deep water drilling prospects 
in the Gulf. Its tonnage has increased 275% in the last five years and 
it is anticipated to double again within two years. It handled more 
than 30 million tons of cargo in 1996.
    More than 6,000 people currently depend on the port as an avenue to 
and from offshore facilities and more than 13,000 people depend on it 
for jobs, supplies, facilities and as a hurricane evacuation hub to 
safer locations north of the coast. Most of the major and independent 
oil and gas companies operating in the Gulf have a presence at Port 
Fourchon. On any given day, more than 1,000 trucks are unloaded and 
loaded there and pipe yards, shipyards, platform construction 
facilities, service bases and barge terminals within the immediate 
service area of the port are working at or near capacity.
    Less than 20 miles southeast of Port Fourchon is the Louisiana 
Offshore Oil Port (LOOP), built by a group of major oil and pipeline 
companies. It serves as the central unloading and distribution port for 
all incoming supertankers to the Gulf region. The supertankers offload 
crude oil into LOOP's offshore pipeline continuously. The oil is then 
piped north to Lafourche Parish where it is stored and piped to markets 
all over the country.
The Oil and Gas Industry - Impacts Come Full Circle
    The United States depends on the oil and gas shipped through and 
produced in Louisiana's coastal zone. Wetlands and barrier islands 
protect the billions of dollars worth of infrastructure that supports 
the industry from wave and storm damage and are an integral part of the 
nation's energy system. The industrial uses associated with offshore 
exploration and production, pipelines, and canal developments have 
directly and indirectly contributed to marsh destruction, putting the 
industry, itself, at risk.
    Navigation channels and canals dredged for oil and gas extraction 
have dramatically altered the hydrology of the coastal area. North-
south channels and canals have brought salt water into fresh marshes, 
killing vegetation and habitat. East-west canals have impeded 
sheetflow, ponding the water on the marsh and leading to stress and 
eventual loss. Canals have also increased tidal processes that impact 
the marsh by increasing erosion. Channel deepening has caused saltwater 
intrusion, endangering the potable water supply of much of the coastal 
region.
    As of 1997, there were more than 20,000 miles of pipelines in 
federal offshore lands and thousands more inland. They all make 
landfall on Louisiana's barrier islands and wetland shorelines. The 
barriers are the first line of defense against combined wind and water 
forces of a hurricane and they serve as anchor points for pipelines 
originating offshore. These islands protect the wetland habitants from 
an offshore oil spill and are critical in protecting the state's 
wetland-oriented oil and gas facilities and thousands of jobs directly 
and indirectly tied to the industry.
    If the barrier islands erode entirely, as expected in the next 50 
years, platforms, pipelines and wells will be damaged in increasing 
numbers. More than 58% of the region's wells are located in coastal 
parishes. Most of them are more than 50 years old and were not designed 
to withstand the conditions of open water they could face in the next 
50 years. More than 30,000 wells are at risk within the 20-parish 
coastal area. Wells that were on land only a few years ago are now 
surrounded by water, a situation hazardous to boat traffic and an 
environmental liability to habitat and fisheries.
    Workers, equipment, supplies, and transportation facilities that 
accompany the rapid growth of the offshore oil and gas industry depend 
on land based facilities. Roads, housing, water, acreage for new 
business locations and expansions of existing businesses, waste 
disposal facilities and other infrastructure facilities will be needed 
in localized areas along the Louisiana coast. Existing land based 
infrastructure is already heavily overburdened and needs expansion and 
improvement, requiring extensive financial infusions from state and 
local governments. For example, Louisiana's only highway leading to 
Port Fourchon is on the verge of crumbling under the strain of the 
thousands of trucks that travel it each week. It will cost about $266 
million to make the highway safe and fully useable.
    LOOP also depends on onshore infrastructure protected by wetlands. 
Without this protection, America will lose an essential trade and 
navigation center that would affect commerce throughout the world.
Other Impacts From Coastal Wetland Loss
    Louisiana ranks first in the nation in total shipping tonnage, 
handling more than 450 million tons of cargo a year through its deep-
draft ports of New Orleans, Baton Rouge, Lake Charles, South Louisiana, 
Plaquemines Parish and St. Bernard. The ports between Baton Rouge and 
New Orleans are the largest by tonnage carried in the world and serve 
the entire eastern part of the country.
    The state's wetlands and barrier islands protect this 
internationally important port system, as well as navigation channels, 
waterways and anchorages from winds and waves. At present land loss 
rates, more than 155 miles of waterways will be exposed to open water 
in 50 years, leaving this key port system at risk and businesses 
throughout the nation losing preferred links to European and Pacific 
Rim markets.
    Because of our coastal marshes and barrier islands, Louisiana's 
commercial and recreational fisheries are among the most abundant in 
America, providing 25% to 35% of the nation's total catch. Louisiana is 
first in the annual harvest of oysters and crabs and menhaden, and is a 
top producer of shrimp. Some of the best recreational salt water 
fishing in North America exists off Louisiana's coast. The reason for 
this abundance is that our coastal marshes provide the nursery for 
young fish and shellfish.
    The long-term impacts of wetland loss relates to many species of 
fish and shellfish that depend on these habitats, translating into 
economic losses that affect the entire region and the nation. Nearly 
all Louisiana commercial species use the marsh at some stage of their 
life cycle, and fisheries loss will be proportional to marsh loss. By 
the year 2050, the annual loss of commercial fisheries will be nearly 
$550 million. For recreational fisheries, the total loss will be close 
to $200 million a year.
    Louisiana's coastal wetlands provide a diverse habitat for many 
wildlife communities. The wetlands provide life cycle needs for 
resident species and wintering habitat for migratory waterfowl and 
other birds. Land loss and habitat change by the year 2050 will affect 
the nation's wildlife population. Sea birds, wading birds and shore 
birds are expected to decrease, along with raptors and woodland birds. 
Alligators and furbearers will decrease in certain areas of the coast, 
as will the abundance of ducks and geese.
    Louisiana's cities and coastal communities are at great risk as the 
wetlands and barrier islands disappear, leaving people with no buffer 
from storm surges and the force of high winds. Miles of hurricane 
protection levees will be exposed to open water conditions, forcing 
widespread relocation and abandonment of coastal communities.
    Wetlands create friction and reduce high winds when hurricanes hit. 
They also absorb hurricane storm surges. Scientists estimate that every 
2.7 miles of wetlands absorb one foot of storm surge. The 3.5 million 
acres of wetlands that line Louisiana's coast today have storm 
protection values of $728 million to $3.1 billion.
    The recent strike of Hurricane Georges, just a few miles east, 
brought home just how devastating a direct hit to New Orleans would be. 
The potential loss of life and property is incomprehensible and the 
threat of disaster was not lost on the city's residents. Bumper-to-
bumper traffic snaked out of the city north and west for hours as more 
than one million people evacuated the crescent city. Hotel space was 
scarce as far north as Memphis.
    With the loss of barrier islands and wetlands over the next 50 
years, New Orleans will be a Gulf coast city and will lose its wetland 
buffer that now protects it from many effects of flooding. Hurricanes 
will pose the greatest threat, since New Orleans sits on a sloping 
continental shelf, which makes it extremely vulnerable to storm surges.
    More than two million people in inland south Louisiana will be 
subject to more severe and frequent flooding than ever before. Coastal 
communities will become shorefront towns and the economic and cultural 
costs of relocation is estimated in the billions of dollars.
    We expect an increase in homeowner and commercial insurance rates 
by 20% in some cases. Insurance coverage for wind damage may be 
discontinued, deductibles will increase by 20% by next year, and large 
insurance companies will stop issuing new policies in the coastal zone.
    South Louisiana's unique culture is a national treasure and the 
very fabric of its distinct way of life is being eroded with the coast 
at great intangible cost to the nation and the world.
Coast 2050: A Vision of the Future
    Louisiana began work in earnest to restore its coast in 1989 with 
the passage of Act 6 and continued its work in 1990 with passage of the 
Breaux Act or CWPPRA (Coastal Wetlands Planning, Protection, and 
Restoration Act). Since then, more than 80 restoration projects are 
presently underway or already completed. We have gained the technical 
know-how, and, by working with our federal partners, we are cementing 
long-term partnerships as we build projects together.
    During the past 18 months, the Coast 2050 Plan was developed in 
partnership with the public. It is a technically sound strategic plan 
to sustain Louisiana's coastal resources and to provide an integrated 
multiple-use approach to ecosystem management.
    Coast 2050 has received unanimous approval from all 20 Louisiana 
coastal parishes, the federal Breaux Act Task Force, the State Wetlands 
Authority, and various environmental organizations, including the 
Coalition to Save Coastal Louisiana. This approval is unprecedented.
    The main strategies of the plan are watershed structural repair, 
such as restoration of ridges and barrier islands, and watershed 
management, such as river diversions and improved drainage. In making 
recommendations, the process did not view the number of coastal 
wetlands acres saved as the only priority, but considered other 
resources as well, such as roads, levees, fish and wildlife resources, 
and public safety and navigation, in making recommendations.
    The Breaux Act (CWPPRA) Task Force, the State Wetlands Authority 
and the Department of Natural Resources Coastal Zone Management 
Authority will establish it as a unifying strategic plan of action. It 
will become the CWPPRA restoration plan and Louisiana's overall 
strategic coastal plan. Proposed projects will be measured against the 
strategies in the Coast 2050 Plan before being approved.
    In one way or another, everyone in the nation will feel the 
enormous loss of land along Louisiana's coast and current restoration 
efforts will only prevent 22% of the land loss projected to occur 
within the next 50 years. However, we know that a comprehensive 
restoration program using the Coast 2050 Plan as a guide, could restore 
and maintain more than 90% of our coastal land existing today.
    The price tag is between $16 billion and $20 billion to construct 
more than 500 projects that would be needed, but the price of 
infrastructure alone that would be lost is more than $150 billion.
    For more than 50 years, Louisiana has shouldered the environmental 
and infrastructure impacts of supporting the OCS oil and gas industry. 
In 1997, royalties paid to the federal government from OCS revenues off 
the coast of Louisiana totaled $2.9 billion. Louisiana realized only a 
fraction in direct financial benefit, while losing another 35 square 
miles of its coast. If Louisiana receives its fair share of OCS 
revenues, we will be well on the way to restoring our coastline, 
justifying the $14 billion investment.
    CARA makes good sense. Investing income from a non-renewable 
capital asset into renewable resources that will provide economic 
stability and health to an entire region and the nation for decades to 
come, is good business. Louisiana and America cannot afford to wait.
    Some of the information in this testimony was taken from: the 
preliminary final draft of Coast 2050: Toward A Sustainable Coastal 
Louisiana, the final draft of No Time to Lose, a report by the 
Coalition to Restore Coastal Louisiana, and reports written by Dr. 
Donald W. Davis, Administrator, Louisiana Applied Oil Spill Research 
and Development Program.
                                 ______
                                 
    [Attachments to Mr. Caldwell's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3218.002
    
    [GRAPHIC] [TIFF OMITTED] T3218.003
    
    [GRAPHIC] [TIFF OMITTED] T3218.004
    
    The Chairman. Thank you very much for your testimony.
    Mrs. Renee Daniels-Mantle is our next witness.

STATEMENT OF RENEE DANIELS-MANTLE, THE MANTLE RANCH, PAVILLION, 
                            WYOMING

    Mrs. Daniels-Mantle. Thank you, Chairman Hansen, for the 
opportunity to testify.
    My name is Renee Daniels-Mantle. I am not a policy expert 
on the different land acquisition proposals today, but I can 
tell you the implications that they have for my family and 
others like us based on the dealings we have had with the 
Federal Government and the land acquisition in our area.
    My family has raised cattle for over a century. In 1919, my 
husband's grandfather, Charley Mantle, homesteaded the Mantle 
Ranch in Hell's Canyon, along the Yampa River in northwestern 
Colorado. The Mantles are as much a part of the cultural 
identity of the area as the humans who have lived there for 
over 8,000 years.
    Miles away, Dinosaur National Monument was declared by 
President Wilson near the town of Jensen, Utah. The original 
monument was only 80 acres.
    In 1938, President Roosevelt expanded Dinosaur by over 
200,000 acres, and it encompassed the Mantle homestead. Twenty-
two years later, it was expanded again, a small expansion, to 
include the rest of the Mantle Ranch. The red dots on that map 
are private property.
    Today, the Mantle Ranch is the only occupied private ranch 
remaining inside the monument. It consists of about 1,800 acres 
in four parcels, two of which are completely surrounded by 
Federal property and two of which border it.
    In addition to these base lands, we also maintain a large 
grazing allotment in and around the monument. The ranch is 
located in one of the most remote areas of the country. There 
is still no electricity, no running water, no phone, and no 
mail.
    I want to stress that the Mantle Ranch is still a working 
cattle operation within the borders of a national monument. And 
though the natural challenges of this county and the ranching 
industry in general are difficult, they are minor in comparison 
to those coming from the Park Service.
    The land acquisition objective for Dinosaur National 
Monument is to acquire private and state in-holdings. First 
priority for purchase will be those lands where incompatible 
uses are taking place. Incompatible uses are described as 
grazing, development of roads and structures, et cetera.
    Based in part on these guidelines, there has been an 
aggressive and relentless effort by the Park Service over the 
years to make the Mantle property available for acquisition. 
The Park Service has attempted this in two ways. The first was 
once described by a Federal Judge as regulatory whittling. And 
the second, a far worse fate, is condemnation.
    Evidence of this is overwhelming, beginning with the 1964 
letter in which we first see that the Park Service intended to 
use our property for major road and construction projects with 
recommendations to acquire the property by condemnation.
    I also wish to note the phrase in recommendation two of 
this document, which says, when land acquisition funds become 
available. It is my understanding that in land acquisition, it 
is the availability of Federal dollars for a condemnation 
proceeding that determines how deliberately a Federal agency 
acts.
    I have provided several more examples of condemnation 
threats in Park Service policy toward grazing, but the park's 
current management plan sums it best by stating: If any 
nonfederal property is subjected to incompatible use, necessary 
actions would be taken to protect park resources. This could 
include the use of condemnation. Incompatible uses still 
include grazing, irrigation of a meadow or pasture, building 
stock ponds, barns, and storage buildings.
    Remember, we are a ranch and these regulations apply to our 
private property.
    As recently as this February, we received a letter 
outlining our options to sell the ranch, should we ever want 
to, including condemnation.
    This says nothing of the blatant harassment by the Park 
Service, all to acquire our land by creating a situation that 
prohibits grazing and renders our property worthless to us.
    In a nutshell, ranching or any use as far as I can tell is 
not a compatible use, and as soon as the park is able or has 
the funds, they will use their regulations to put us out of 
business or condemn our property.
    Congress is currently considering many proposals that deal 
with land acquisition. It is my understanding that the House 
Appropriations Subcommittee has allocated $390 million dollars 
toward Federal land purchases out of the Land and Water 
Conservation Fund, or LWCF, for 2002.
    Last year, the LWCF was funded at a record $544 million. 
Without adequate private property protections on the LWCF, my 
family and others like us across the country fear it will 
become the instrument by which the government forcibly removes 
us from our homes.
    Two proposals in Congress attempt to add property rights. 
The Conservation and Reinvestment Act makes a good start at 
addressing the potential abuses that can occur. However, CARA 
does not prohibit condemnation. And because it transforms the 
LWCF into a mandatory trust fund, what little protections it 
does have are just decorative.
    By contrast, Congressman Thornberry's proposal, H.R. 1592, 
would add meaningful private property protections to the LWCF. 
His bill requires the consideration of land exchanges, 
easements, and other options before acquisition is made. His 
bill reasserts the provision in CARA that requires an area be 
notified when an acquisition is under consideration. His bill 
takes an aggressive step in blocking the application of Federal 
regulations to private property if that property is inside or 
adjoining land purchased with money from the LWCF. The right of 
the landowner to use and enjoy his or her property would not be 
diminished.
    I guarantee, had this provision been placed upon the funds 
that created Dinosaur, the problems the Mantles have 
encountered would have never existed.
    Most importantly, however, H.R. 1592 prohibits acquisition 
by condemnation. It offers the protection that families like 
mine need. It would take away the incentive for harassment by 
the Park Service seeking to make us willing sellers, and it 
would finally eliminate the threat of condemnation that has 
hung over our ranch for 40 years.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Daniels-Mantle follows:]

     Statement of Renee Daniels-Mantle, Rancher, Dinosaur, Colorado

    Thank you, Chairman Hansen, Ranking Member Rahall, distinguished 
members of the House Resource Committee, for the opportunity to tell 
you a little bit about what life is like today in rural Western America 
and to provide testimony on some land acquisition proposals currently 
being considered by Congress.
    My name is Renee Daniels-Mantle. My family has raised cattle for 
over a century. In 1919, my husband's grandfather, Charley Mantle, 
homesteaded the Mantle Ranch in Hell's Canyon, along the Yampa River in 
northwestern Colorado.
    Miles away, and four years earlier, Dinosaur National Monument was 
declared by President Wilson near the town of Jensen, Utah. The 
original monument was only 80 acres. In 1938, President Roosevelt 
expanded Dinosaur by over 200,000 acres, encompassing the Mantle 
homestead. Twenty-two years later, legislation authorized another small 
expansion and gave it its present-day borders, including the rest of 
the Mantle Ranch. (Attachment 1)
    Today, the Mantle Ranch is the only occupied private ranch 
remaining inside the monument. It consists of 1800 acres in four 
parcels, two of which are completely surrounded by federal property and 
two of which border it (Exhibit). In addition to these base lands, the 
law of 1960 grand fathered a large grazing allotment that the Mantle 
family had already maintained when the land was under the control of 
the BLM. This allotment is committed to the Mantles in perpetuity, and 
it is transferable with the private base property.
    The ranch is located in one of the most remote areas of the 
country. Today, it is still a perfectly preserved pristine snapshot of 
the early pioneer days. There is still no electricity, no running 
water, no phone, and no mail.
    I want to stress that the Mantle Ranch is still a working cattle 
operation within the borders of Dinosaur National Monument. Four 
generations have raised cattle on this ranch. The men and women of this 
ranch were born on it and buried on it. In addition to our cattle 
operation, we have recently obtained an Incidental Business Permit to 
begin showcasing it to guests. We conduct weeklong horseback excursions 
through the ranch, working cattle and riding some of the roughest 
terrain in Colorado.
    Not only does the ranch possess incredible beauty, it boasts one of 
the largest collects of privately owned petroglyphs in the United 
States. Some of these are at least 4,000 years old. The Mantles have 
fiercely protected these artifacts, yet we enthusiastically display 
them to our guests. We are fond of saying in our family that if we do 
not share our ranch with people, then we probably don't deserve our 
ranch.
    Though the natural challenges of this country and the ranching 
industry are difficult, they are minor in comparison to those coming 
from the Park Service.
    As stated in their Land Acquisition Plan, the acquisition objective 
for Dinosaur National Monument is to ``acquire private and state 
inholdings as they become available. First priority for purchase will 
be those lands where incompatible uses are taking place.'' Incompatible 
uses are described as ``...grazing, development of roads and 
structures, etc.''
    Based in part on these guidelines, there has been an aggressive and 
relentless effort by the Park Service over the years to make the Mantle 
property available for acquisition. The Park Service has attempted this 
in two ways; the first was once described by a federal Judge as 
``regulatory whittling'' (Attachment 2). The second, a far worse fate, 
is condemnation.
    Evidence of this is overwhelming, but I will provide only a few 
examples.
    First, a letter dated November 25, 1964 hung the cloud of 
condemnation over the Mantle Ranch (Attachment 3). In this document, we 
see that the Park Service intended to use the property for ``major road 
and construction projects'' with recommendations to ``acquire [the 
property] by condemnation.'' I also wish to note the phrase in 
recommendation two of this document: ``when land acquisition funds 
become available.'' It is my understanding that in land acquisition, it 
is the availability of federal dollars for a condemnation proceeding 
that determines how deliberately a federal agency acts.
    In 1979, the Mantle Ranch's fully lawful grazing allotment is next 
targeted in the same Land Acquisition Plan mentioned earlier 
(Attachment 4). Although considerable text is spent describing how 
condemnation will only be used as a ``last resort'' in the event there 
is an incompatible use, a sentence near the end of the document says 
this is about easement acquisition, ``scenic easement acquisition is 
not practical for this area because it will not eliminate grazing use, 
which is one of Dinosaur National Monuments objectives.'' A letter 
fifteen years later from the Park Service (Attachment 5) clarifies 
their position on grazing by stating ``In general, grazing is regarded 
as an incompatible use of National Park System areas.''
    The current Management Plan (Attachment 6) states--if any 
nonfederal property is subjected to incompatible use, necessary actions 
would be taken to protect park resources. This could include the use of 
condemnation.'' Incompatible uses include; ``new agricultural uses, 
including grazing or the cultivation or irrigation of a meadow or 
pasture, new major agricultural support structures...including stock 
ponds, barns, and storage buildings.'' Remember...we are a ranch and 
this applies to our private property.
    Finally, the current Superintendent, Dennis Ditmanson, wrote the 
most recent threat in a 40-year series, on February 5, 2001. I might 
mention that Mr. Ditmanson has actually been a remarkable 
Superintendent. Mr. Ditmanson wrote an objective, sensible letter 
outlining the options for sale of our ranch, should the day ever come 
when the Mantles sell their land.
    Yet, as this letter shows, Option 1 for a Mantle land purchase by 
the agency is a condemnation proceeding. Although this letter is not 
nearly as alarming as the one from 1964, my family is alarmed that 
condemnation proceedings are described here as presenting an 
``advantage'' to the family on the point of agreeing to a price. 
Furthermore, the letter clearly informs us that ``If the NPS elects to 
condemn the property, either with or without [our] concurrence, the 
Mantle family does not have the option of withdrawing'' (Attachment 7).
    It seems to me that if the Mantles are willing sellers, a fair 
price will be arrived at. The federal government does not need the 
power to acquire land for conservation purposes until the owner is 
ready.
    I have many more examples that display intentions to acquire the 
property by making us ``willing sellers''. This says nothing of the 
blatant harassment, constant surveillance, private property 
destruction, and trespassing on the part of the NPS. All to acquire our 
land by creating a situation that prohibits our grazing and renders our 
property worthless to us. In a nutshell, ranching is not a compatible 
use and as soon as the Park is able or has the funds, they will use 
their regulations to put us out of business or condemn our property.
    Congress is currently considering many proposals that deal with 
land acquisition. It is my understanding that the House Appropriations 
Subcommittee has allocated $390 million dollars toward federal land 
purchases out of the Land and Water Conservation Fund, or LWCF, for 
2002. Last year, this entire account was funded at a record $544 
million. Without adequate private property protections on the LWCF, my 
family and others like us across the country, fear it will become the 
instrument by which the government forcibly removes us from our homes.
    Two proposals in Congress attempt to add property rights 
protections to the LWCF. The Conservation and Reinvestment Act, or 
CARA, does make a good start at addressing the potential abuses that 
can occur when federal land acquisitions are made. However, CARA does 
not prohibit condemnation, and because it transforms the LWCF into a 
mandatory trust fund, what little protections it does have are just 
decorative.
    By contrast, Congressman Thornberry's proposal, H.R. 1592, would 
add much more meaningful private property protections to the LWCF. His 
bill requires the consideration of land exchanges, easements and other 
options before acquisition is made. His bill reasserts the provision in 
CARA that requires an area be notified when an acquisition is under 
consideration. His bill takes an aggressive step in blocking the 
application of federal regulations to private property if that property 
is inside or adjoining land purchased with money from the LWCF--the 
right of the landowner to use and enjoy his or her property would not 
be diminished. I guarantee, had this provision been placed upon the 
funds that created Dinosaur, the problems the Mantles have encountered 
would have never existed. Most importantly, however, H.R. 1592 
prohibits acquisition by condemnation. The federal government and its 
employees would be kept honest in dealing with a willing seller, and 
even a state would not be able to use federal money for a condemnation 
proceeding.
    H.R. 1592 offers the protection that families like mine need. It 
would help us in many ways. It would take away the incentive for 
harassment by the Park Service seeking to make us willing sellers. It 
would finally eliminate the cloud of condemnation that has hung over 
our ranch for 40 years.
    Thank you again Mr. Chairman, for allowing me to testify. I would 
be happy to answer any questions you or any other members of the 
committee may have.
                                 ______
                                 
    [An attachment to the statement of Ms. Daniels-Mantle 
follows:]
[GRAPHIC] [TIFF OMITTED] T3218.001

    The Chairman. I thank you for that testimony.
    We are pleased to be joined by Chairman Don Young, past 
Chairman of this Committee and Chairman of the Transportation 
Committee and also the chief sponsor of this interesting piece 
of legislation.
    I turn to Mr. Young for any statement he may have at this 
point.
    Mr. Young. I apologize to the Chairman and of course to the 
panel itself.
    Mr. Chairman, I thank you for holding this hearing. We have 
had 88 witnesses before. We have had numerous hearings all 
across the country. I have said all along that this is good 
legislation.
    We have 218 cosponsors today. I'll have 300 before it gets 
to the floor.
    I will tell you what concerns me the most, Mr. Chairman, 
and I would like to revise and extend my remarks, is a lot of 
people were caught into the CARA Lite.
    And for those that oppose my legislation, there was more 
money spent last year in the purchasing of land without any 
safeguards. Under my legislation, there are safeguards, to the 
persons, the private property owners.
    And if you do not read the legislation, again, to those on 
this Committee that oppose it, I suggest you read the 
legislation, tell me where it is worse and, in fact, if it is 
not better than existing law.
    And as you know, the appropriators last year did 
appropriate a considerable amount of money, and we had what we 
call CARA Lite.
    This bill goes into setting the legacy and allowing the 
states and allowing individuals to have some say in the 
purchasing of land. It also and in fact fully funds the Payment 
In-Lieu of Taxes. It takes care of the historic preservation. 
It does fund the Land and Water Conservation fully. And as I 
mentioned last year, Mr. Chairman, it passed 315-102.
    As it got into the Senate, there was a great deal, again, 
of effort to take and try to demonize this legislation. And I 
worked with everybody, I believe, on both sides of the aisle, 
trying to arrive at a position that keeps, I believe, private 
property protected, but more than that, recognizes the 
importance of open spaces for people to have hunting and 
fishing, wildlife rehabilitation, which is crucially important.
    If somebody can come up with a better concept, then I am 
willing to listen to that. But until they do, I am going to be 
pushing this legislation, H.R. 701, as hard as I possibly can.
    I do thank you, Mr. Chairman, for doing this. It is 
extremely important to me that this legislation comes to the 
floor of the House. I believe it will come to the floor of the 
House. And I believe when it does, we will have as many votes 
as we did last year and maybe more.
    And so, again, thank you, Mr. Chairman, for your stalwart 
work on this. And, again, I thank you because I am the primary 
sponsor of this legislation. And I yield back the balance of my 
time.
    The Chairman. I thank the gentleman.
    I think the Chairman just hit it on the head. People have 
to say, is this legislation better than what we currently have? 
And I think you will come down on the side that this is better 
legislation.
    I was going to turn to Mr. Duncan, but he just walked out.
    But I would just like to ask a question, very briefly, of 
our last witness.
    It concerns me, your comment regarding the possibility that 
your ranch may be taken by eminent domain. This legislation 
basically requires willing sellers or an Act of Congress.
    The latter would seem very improbable to me. And I would 
seriously doubt if that would happen.
    But you may want to review this legislation and check that 
out yourself, because I really think you are pretty well 
covered under this legislation. But if you have any problems, 
would you get with us and tell us what you are upset about, 
because I think this answers that question?
    Mr. Cannon?
    I will recognize my colleagues for 5 minutes.
    Mr. Cannon. Thank you, Mr. Chairman.
    I would just like to ask a couple of questions of Mr. 
Johnson, and then that is all I will have.
    First of all, you mentioned in your testimony that rural 
communities face many difficult problems in maintaining 
economic viability. Can you tell us some the specific problems 
you have had in Emery County? And also, elaborate perhaps a 
little bit on the recreational opportunities on the Federal 
lands within your county.
    The Chairman. Grab the mike, would you, Mr. Johnson? Thank 
you.
    Mr. Johnson. I keep forgetting I need a microphone here.
    In terms of economic viability, there are many public land 
policies that impact rural counties. And I will go into some of 
those.
    But I think that, largely, there are many out there who 
believe that small communities, such as those in Emery County--
we have no large towns but eight small communities. And small 
communities are essentially expendable for the sake of the 
environment. And I believe that that is improper thinking.
    I believe one of the greatest treasures of this nation are 
the small communities of the rural West. And it is a heritage 
that we ought to actually be working very hard to preserve.
    And in fact, some of the policies on environment of past 
administrations and some of the interest groups that work on 
the environment and their ever-expanding efforts to have 
wilderness, for example, wherever they can get it, to not have 
any extraction of minerals on any public lands, and those kinds 
of policies make it very difficult for some of the rural 
communities to make a living.
    Emery County is an energy-producing county. We have power 
plants in Emery County that produce almost all of the 
electricity for the State of Utah and allow other producers in 
the State of Utah to sell power outside on that grid.
    We produce most of our own coal in Emery County.
    And so, as you can see, current proposals for half of the 
county to be put into wilderness would make it very difficult 
for us to continue to do business as we have done historically.
    And this is even more true of some of the other smaller 
counties, such as Kane and Garfield, who are impacted by the 
monument that was created that closed off the Kaiparowits 
Plateau to any kind of future coal mining, where 6 billion tons 
of very clean-burning coal was simply locked away.
    So there are many, many ways that we are impacted 
economically. And ironically, in a recent poll, 75 percent of 
the people of Utah said that they did not believe that we 
needed to sacrifice the economy for the environment or the 
environment for the economy, but that we could achieve balance.
    And I believe that that is the approach that we ought to be 
taking on these issues and that we should shy away from all-or-
nothing approaches to public lands management.
    And I forgot the second half of your question, sir.
    Mr. Cannon. Recreational opportunities.
    Mr. Johnson. Just about anything you can name, in Emery 
County. We currently have legislation that we are hoping to 
push this year for the San Rafael Swell national conservation 
area western legacy district that sets aside a million acres of 
the San Rafael Swell in special protection.
    But as part of that plan would be a travel plan that 
designates where people can use roads with mechanized, such as 
bicycles, where they can use off-road vehicles, where can they 
hike, where they walk, where they can ride horses.
    Emery County has everything from fishing to boating to 
Alpine meadows to hunting to red rock opportunities. Whatever 
there is on public lands, we have that kind of recreation in 
Emery County.
    Mr. Cannon. Thank you very much, Mr. Chairman. I yield 
back.
    The Chairman. Thank you.
    Did I hear you correctly, Commissioner, you said that 80 
percent of your county is owned by the Federal Government?
    Mr. Johnson. Yes, sir. A little over 80 percent. I believe 
it is 81 percent.
    The Chairman. And how much is owned by the State?
    Mr. Johnson. Somewhere around 10 percent.
    The Chairman. Don't have a much of a tax base, do you?
    Mr. Johnson. We do not.
    And we have another interesting problem, if I may just say 
so, and that is that 75 percent of our tax base is from 
centrally assessed properties, such as PacificCorp, Scottish 
Power that owns the power plants. And over the last 5 or 6 
years, they have appealed their tax base and have been having 
their tax base go down an average of 5 to 7 percent a year, 
which means that with them as a 75 percent taxpayer, and their 
tax base going down significantly every year, our local 
homeowners our increasingly having to bear the burden of taxes 
in Emery County.
    The Chairman. You alluded to the San Rafael Swell bill. Are 
you going to push that this year?
    Mr. Johnson. Yes, sir.
    The Chairman. Well, I won't get into the strategic 
maneuvers here--
    [Laughter.]
    --but I would kind of be curious to hear from you.
    The gentlelady from Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman.
    I just want to make a brief statement. I have worked with 
Chairman Young and Chairman Hansen ever since I have been in 
Congress and agree with them about 99 percent of the time.
    There are a few little--there are few things in the CARA 
bill that I don't disagree with--or, actually, there are a lot 
of things I don't disagree with, but there are a few that I do.
    And I think one reason the CARA bill is so popular by so 
many groups is that it does a little bit of something for 
everybody. It protects property rights, which is better than 
the status quo; not as good as Thornberry's bill, but better 
than the status quo.
    It takes care of the problems that Alaska and Louisiana 
have with their coasts. That should absolutely be done.
    Somebody needs to remind me why states that don't allow 
drilling off the coast, like California, would get hundreds of 
millions of dollars from this. I don't exactly understand that, 
when Louisiana and Alaska have specific things that they could 
put the money to, that could be funded.
    And we wouldn't be talking about spending a billion dollars 
a year. It isn't new money.
    So in Wyoming, we get about $10 million a year out of this. 
We will be getting that.
    So since it is not new money, I need to write to my 
governor and I need to say, ``Okay, Governor, where do you want 
me to cut $11 million out of Federal funds?'' And that is not 
going to be a pleasant thing.
    And I think that is one aspect that people both in Congress 
and out in the public haven't come to realize, that it isn't 
free. There is a cost. Now where do you want me to cut?
    I have worked every year since I have been here to get PILT 
fully funded. And then I fight with the appropriators to get as 
much as possible. Fortunately, every year since I have been 
here and Mr. Young was the Chairman, we have been able to get 
more for PILT, which we all know the counties need desperately.
    And the last point I want to make is what it says in the 
bill. And, you know, I see the light on the train coming down 
the track; this is going to happen. And I have never, ever seen 
a bill where the sponsors worked harder to address the concerns 
of everyone and where a bill was brought together with all the 
best motives in the world to try to get the best bill we could. 
I still stand by the other criticisms I have.
    But willing seller, willing buyer, that is in the bill and 
that is great, because it is better than what we have.
    But I know in my district sometimes how the Federal 
Government makes the seller willing, and that is, they don't 
let them use one square inch beyond their own private property 
rights for grazing. They make it impossible for them to use 
their own private property because it is surrounded by Federal 
lands. Through different regulation requirements, they make it 
financially impossible.
    And that is how people become willing sellers, because 
their land is valueless when they aren't allowed to use the 
surrounding land as well.
    But I do appreciate the Chairman's good intentions and hope 
that we will be able to get more of the Thornberry bill in 
this.
    Thank you.
    The Chairman. I thank the gentlelady.
    The gentleman from Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And I appreciate the testimony of all the witnesses. I 
think we are continuing to get a feel for the allure that 
having billions of new dollars to spend for many worthwhile 
purposes has for folks at all different levels of government. I 
just think that we have to be very careful not to let our 
passionate enthusiasm for spending all this money overwhelm 
fundamental property rights, which are so important.
    Ms. Mantle, from your testimony and the documents you 
provided, the Park Service, it sounds like, has held the threat 
of condemnation over your family since at least 1964. And you 
have this letter from just a few months ago, from 2001, where 
the Park Service again reiterates the possibility that they 
could condemn the property with or without your approval.
    One of the answers to the Chairman's question is that CARA, 
as is currently written, does not prohibit that kind of what 
they call friendly condemnation.
    But getting back to the point that Mrs. Cubin was making, 
how does that become friendly? How do you have a willing 
seller? I think that is something that we have to be concerned 
about. And I think it would be helpful if you would describe 
for the Committee some of the things that have happened in the 
relationship between you and the Park Service, where they have 
done something to affect the value of the land, for example, 
with the springs, and the kinds of tactics they have used with 
your family to try to encourage you to become a willing seller 
or to participate in friendly condemnation.
    Mrs. Daniels-Mantle. I think the focus of the Park Service 
is to find an incompatible use that they can paste for us. So 
there have been many instance, I think, in their search for 
incompatible uses where they have used tactics that wouldn't 
necessarily be good.
    For instance, in the mid-1980's, they brought in, after 
grazing season, after our cattle were pulled off, they brought 
in a couple horse trailers full of antelope and put them out on 
the range where they watered on Mantle property. And then they 
did their range study.
    They, in essence, weighted our grazing land with wildlife 
and then did a research study to show that our property was 
over-grazed, including our private property, to show over-
grazing as an incompatible use.
    We are also subjected constantly to surveillance by 
helicopters, by foot traffic, by vehicles. In fact, I have 
another document called the Mantle log; they actually keep a 
Mantle log, where they chronicle what we do on a daily basis, 
trying to find an incompatible use.
    One of the quotes is, as they are looking out over--they 
have the round-top observatory up on top of the mountain--and 
as they are looking out over our private property, the note 
says: No new bulldozers. No new gas stations. No new brothels 
on Mantle property. We will see tomorrow.
    Things like that, which show that they are constantly 
looking for an incompatible use. And grazing is not a 
compatible use for them; I don't think any part of ranching is.
    Mr. Thornberry. Well, let me ask this, and I guess this is 
kind of a common-sense question, but do these tactics that have 
been used against your family play a role in whether your 
family decides to continue to operate the ranch? Aren't you 
tempted to throw up your hands and say, ``Let them have it. 
Let's go do something else.''
    Mrs. Daniels-Mantle. Yes, sir. Well, I don't know that we 
know how to do anything else, but when it becomes financially 
burdensome to us just to maintain--ranching doesn't make a lot 
of money anyway. We know that. But when it becomes financially 
burdensome just to maintain those regulations that are 
inflicted upon us by the Park Service, it makes ranching even 
less economically stable.
    So, it is hard to run cattle in that kind of country 
anyway. But when you are coming up against those regulations 
that go beyond what you would come up against in normal private 
property situations, it is certainly--it is not a money-making 
proposition for a rancher.
    Mr. Thornberry. Thank you.
    Mr. Chairman, I would just add one final point, and that 
is, my understanding under CARA as is drafted currently that 
the willing seller provision does not apply to those funds 
which the Federal Government supplies to the states; therefore, 
there are not those kinds of protections against condemnation 
with those funds.
    Something else, I think there are some improvements we can 
make here, and hopefully we can do so.
    Thank you.
    Mr. Young. Mr. Chairman?
    The Chairman. The gentleman from Alaska.
    Mr. Young. I would just like to ask Mr. Caldwell if he 
would like to comment on the property rights provision, because 
I want the gentleman from Texas to understand what he is 
dealing with right now. What the young lady has been saying is 
under present law. And it is the action of the Park Service, 
which I happen to agree with you 100 percent.
    If anybody should be chastised in the last 8 years, and 
even before then, the conduct which they--launched a campaign 
against getting land is--you are absolutely correct.
    What I try to do in this bill is to make sure that does not 
happen.
    And I will tell you, on the Federal level, it cannot 
happen. And it is a whole, long--and that is, by the way, many 
of the environmental groups did not support this legislation 
because it does make them be responsible.
    And I have great sympathy of what they have done to the 
young lady down here. And it has happened all around this 
country. And it is the government attitude.
    But, Mr. Caldwell, I started to ask you, can you comment on 
that, please?
    Mr. Caldwell. Yes, sir, Mr. Young. I would be delighted to.
    You and Mr. Tauzin are known throughout the United States 
as being some of the strongest property rights advocates in the 
Congress, without any question. And we know that you and Mr. 
Tauzin particularly negotiated at length with the other members 
of this Committee to get a balanced property right that they 
could vote for but that provided strong protections that are 
not in the present law and could probably never get into 
present law in any other way except being combined in the CARA 
bill. That is the meat of the coconut.
    We can all sit here and blow in the wind about what we 
would like to do, but you have been in the trenches on this 
issue as a property rights advocate, a very effective one, an 
expert on the subject matter.
    And it is my understanding--I am not an expert on property 
rights. But from reading the act, it would be my assessment 
that as a practical matter, it is going to be extremely 
difficult for the Federal Government to acquire land in a state 
over that state's objections.
    There are enough roadblocks thrown up to acquisitions that 
it will tremendously reduce the amount of Federal lands 
acquired in states that don't want it.
    See, some states are fine with having acquisitions under 
the Federal part of Land and Water. But when you combine that 
with the PILT provision, which is part of this property rights 
tradeoff, is the PILT provisions, I think that particularly the 
westerners who oppose Federal land acquisitions should find the 
CARA bill a tremendous advance and far beyond what they can get 
through any other legislation than the CARA bill, which has a 
lot of people under the tent, as Mr. Thornberry pointed out. 
Everybody gets not just a little bit, but quite a bit of what 
they want.
    Mr. Young. Thank you.
    The Chairman. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And as I have read this bill and looked through it, there 
indeed are some provisions in here which are far better than 
existing rights and preservation of rights in the current 
existing law.
    My concern is that we may be just a day late and a dollar 
late with some of these things. And we go back to what my good 
friend and colleague from Wyoming said, and as well my friend 
from Texas, about willing sellers.
    The concept of a willing seller of course assumes that the 
current value of the property is one which the historic and 
current economic uses are taken into consideration.
    Over the last several years, I would say that Ms. Mantle 
has had the economic uses of her ranch restricted. And, 
therefore, the current appraised value, which would be included 
in the assessment of what she would be a willing seller for and 
the government's valuation of that property would be much less 
than historic value of that ranch with its grazing rights on 
public land, which happens around the West.
    And this has happened in Nevada, it happens continually, 
where willing sellers are extorted into selling their land.
    I come from the State of Nevada, which we don't talk about 
public land in terms of millions of acres. We talk about public 
lands in the tens of thousands of square miles. The state I 
represent has 89 percent public land.
    PILT, which if I may address that issue, Mr. Chairman, was 
a promise by this government to fully fund the difference 
between what the property taxes would be if they were in 
private hands versus what they would be if they were paid for 
at the lowest base, as we heard Mr. Johnson talk about, the 
lowest appraised value.
    Well, that promise, that law, has never been complied with 
by our Federal Government. What makes us all believe that 
saying fully funding PILT today will be the answer to those 
woes?
    The State of Nevada, if you take 90 percent of 112,000 
square miles as public land receives a fraction of a percentage 
point for the valuation of that land in terms of taxes. It is 
an easy state to walk into and say, ``We want to acquire the 
remaining private property in that state and turn it over to 
the public,'' because it is surrounded by other public lands. 
It is an in-holding.
    The State of Nevada is literally an in-holding on all 
private lands.
    My idea here is that if there is a willing seller concept, 
then historic and normal uses, and historic economic uses, have 
to be considered, not current, existing valuations based on 
removal of the grazing rights, removal of the access rights, 
removal of personal uses of private property, as is the current 
concept today. There ought to be some provision by which the 
Federal Government is held accountable for extortionary 
practices in driving property owners into the maze of saying 
that their land has to be sold if they are going to survive.
    It is vastly different to graze cattle in the West than it 
is in the South or as it is in the East. In the East, you could 
probably graze 17 to 20 cows on one acre of ground, based on 
the rainfall and the grass conditions. In the West, it probably 
takes 25 to 30 acres to graze one cow, which is vastly 
different. And that is the reason why we have grazing rights on 
large areas.
    Secondly, let me address the idea that grazing is 
incompatible. Today we are burning 20,000 acres of forest 
outside of Reno, Nevada. Over 3 days, it has gone over 20,000 
acres, because it has not been allowed to manage that forest 
either through reduction of the fuel loads, which has been 
normal, with grazing or mechanical means, to reduce the fuel 
load underneath the forest on the floor. And that, again, is a 
compatible--or, now, an incompatible use of our forest and now 
we are just seeing it burn up.
    I am frustrated like the rest of us with this issue. Yes, 
indeed, this bill has some wonderful protections. But I think 
there are some historical issues that need to be addressed as 
well.
    I have one final issue here in the remaining time, it is 
the water law. Seventeen western states have prior 
appropriation. Any time you give the Federal Government the 
ability to acquire water rights, they have the ability to have 
Federal law supersede state law. That would destroy many of our 
states' prior appropriation water law.
    And even though this says it shall not interfere with state 
laws, I am concerned, Mr. Chairman, that our prior 
appropriation water law will be destroyed if we allow the 
Federal Government to own such laws in our states. And, 
therefore, I still have several reservations and concerns about 
this law.
    I thank you, Mr. Chairman, and sorry I didn't ask a 
question but got on my soapbox. Thank you.
    The Chairman. I thank the gentleman from Nevada.
    The gentleman from Idaho, Mr. Otter.
    Mr. Otter. Thank you very much, Mr. Chairman.
    I would like to begin by associating myself with the 
remarks from my colleague from Nevada. Being from Idaho where 
65 percent of the land mass of the state, roughly 21.5 million 
acres of U.S. Forests and 14.5 million acres BLM, we are also 
surrounded, inundated.
    And between the Endangered Species Act, the roadless area, 
various and sundry national monuments now, we have counties in 
the north of Idaho that even the courthouse is off-limits 
because it is infringing upon the territory for the grizzly 
bear, the caribou, the sturgeon, the bull trout, the salmon. 
The list goes on and on.
    And yet, I know how well-intended H.R. 701 is. And I 
applaud the efforts, and especially the safeguards that at 
least are sensitive to the private property issue. In fact, I 
am so sensitive to that that I am cosponsor of the gentleman 
from Texas's Constitutional Land Acquisition Act.
    But I, along with many westerners, are extremely suspicious 
of any time you give the government or an agency of the 
government--now, everyone one of us sitting in this body would 
not go onto private property and would not infiltrate the life 
and the style and the value system of you, Ms. Mantle, or any 
of your family.
    Yet, when you have an unelected bureaucrat that is 
answerable to nobody, they are suddenly the vigilante that 
speaks for everybody. I have seen it as lieutenant governor the 
State of Idaho.
    And I apologize to my colleagues on this Committee because 
they have heard this speech so many times.
    But for 14 years I have watched as some Federal agent, who 
is answerable to nobody, march into the state with all manner 
of intent on harassing and, quite frankly, eating out the 
substance of Idahoans. And anything I can do to safeguard that, 
I am going to.
    I am extremely suspicious even of the most well-intended 
effort. If we truly want to protect private property, we don't 
need to improve on the Fifth Amendment to the Constitution. It 
is very, very simple: Nobody is to be denied without just 
compensation.
    And taking all those other things into consideration, I say 
again, I appreciate my colleagues for their well-intended 
effort here, but I cannot support it.
    If indeed we have enough money to do all these wonderful 
things and acquire yet more land--I have sat in this very 
Committee room, Mr. Chairman, members of this Committee, for 2 
days this week and listened to over $9 billion of backlog on 
national parks, on noxious and invasive weed programs that we 
are not taking care of on public lands we have today.
    I am sorry, but as businessman, as a landowner in Idaho 
that has been denied the use his land, because I wanted to take 
a couple of old car bodies out of a swamp at my house and was 
descended on by the EPA and the Army Corps of Engineers and I 
can't remember all the rest of the agencies that showed up. I 
was fined $137,500 for less than a half acre of swamp.
    I went, spent many years in court, spent well over $100,000 
trying to defend my rights under the Fifth Amendment. Never 
once saw a court. I saw the EPA hearing officer. I saw the EPA 
judges. Everybody that I talked to was bought and paid for by 
the EPA.
    Ladies and gentlemen, that is not the system that I believe 
the Founding Fathers intended. And it is not the system that is 
going to work and make the well-intended ideas that we have 
here work.
    And so, along with my colleague from Nevada, I apologize 
for not asking questions, but, unfortunately, I have heard 
those stories so many times. And my heart goes out to you 
because it doesn't make any different what it is worth. It is 
your value system, Ms. Mantle.
    And your value system, everybody in this Congress is 
prepared to jump up any time a value system is threatened. We 
talk about all manor of constituencies in the United States and 
say, ``Look what we have done to this group of people, and look 
what we have done to that group of people.''
    And whether it is the Native Americans, God bless them, or 
whether it is some other group in this nation, what generation 
is going to come back and repay the private property owner for 
the damage that we are doing to them today? And what is it 
going to cost them? And what is the reparation going to be?
    If we can't learn from our mistakes, then I think we are in 
more trouble than we think we are.
    I say again, thank you very much, Mr. Chairman, and thank 
you, members of the Committee, for enduring my tirade. Thank 
you.
    The Chairman. Thank you. I found it very enjoyable.
    The gentleman from Washington, Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chairman.
    I have a question and I may be the only person in the room 
who doesn't know the answer already, but I will ask anyway.
    I was looking at Mr. Thornberry's bill, and as I read it, 
essentially the intent is to require a no-net increase in 
Federal lands or public lands. That is sort of my reading of 
the bill in general.
    Could anyone here help me with that? Is that a basic 
accurate reading of the intention of the bill?
    The Chairman. Mr. Thornberry?
    Mr. Thornberry. Will the gentleman yield?
    Mr. Inslee. You bet.
    Mr. Thornberry. That is not the case. There are those who 
want to have no net increase of Federal lands. What we do is 
prohibit condemnation. We require some certifications that you 
have checked out land exchange and other things. But it does 
not put a limit on the total amount of land that Federal 
Government can own.
    Mr. Inslee. Let me ask about that. I am just looking at a 
paragraph on the second page that says: There will be no 
property acquisition unless the secretary of the department 
that administers the acquisition certifies that any acquisition 
of the interest through an equal value exchange of property 
interest is not feasible and suitable.
    Now, I would understand that to mean that before you could 
have a purchase, you would have to show that you couldn't 
acquire the land by giving away some Federal land in an 
acquisition. And to me, that would be heading toward a no-net 
increase. You essentially would require the Federal Government 
to divest itself of some land to acquire some land.
    If my reading is inaccurate--if you could tell me your 
thoughts on that.
    Mr. Thornberry. Sure. If the gentleman will yield, 
basically, the existing CARA bill says that you have to have 
considered a land exchange. What I try to do is take that one 
step beyond, and that is, have a certification that you 
actually considered a land exchange.
    It just needs to be one of the options that you explore 
before the Federal Government goes to acquire the land without 
some sort of land in exchange.
    But there is no requirement in the bill that says: For 
every acre that you acquire, you have to divest yourself of 
another acre.
    Mr. Inslee. Thank you, Mr. Thornberry. I appreciate that.
    I would just say that I have some considerable concerns 
about the intent of this, and we will leave it to a later date 
to express those.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from North Carolina, Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. And I want to 
thank the panel for being here also.
    I guess I really don't have a question of the panel, but I 
do want to make a couple statements.
    I support Mr. Thornberry in his effort. I am from the 
South. I am very proud to say I am from North Carolina. And 
quite frankly, I do support the CARA bill.
    However, the property rights section is so critical, in my 
opinion, to guaranteeing the constitutional rights of the 
American people that I hope that Mr. Young, who I have great 
respect for, will work with Mr. Thornberry and others from 
around this nation to ensure that there is not any--any--lapse 
so that the Federal Government can continue to extend its heavy 
hand.
    I had the opportunity of going to California a couple of 
weeks ago to Mr. Herger's district. And I can honestly tell you 
that I felt for those people.
    And I understand, Ms. Mantle and Mr. Johnson, I can 
understand your frustration, because I saw the northern part of 
California where towns at one time had 3,000 people now have 
500, 600 people left, people who have lost their jobs.
    There was an issue up in Oregon, I think the Klamath water 
issue, dealing with farmers, where 500 who were promised land 
by the Federal Government after their family members returned 
from World War I, that they could farm that land. Now they 
cannot get water, half of them because of the suckerfish.
    And I looked at the forest. And we spent about 9 hours. It 
was well-organized. It was a real education for me, being from 
the eastern part of North Carolina, to go to the northern part 
of California.
    But to see that between 1991 and 1997, we have had over 
331,000 acres of forest destroyed by fire, and yet we can do 
nothing to protect those forests because of the Endangered 
Species Act.
    And I realize that CARA doesn't speak to the Endangered 
Species Act, but I will say to you, Mr. Chairman, and to my 
friends on the other side of the aisle, if something is not 
done to bring some sanity to the Endangered Species Act, I 
don't know what is going to happen, not only to our national 
forests, but when I had the opportunity to see the experts and 
I warned these people about a concern--which I am concerned 
about the species also.
    But how concerned are they when the forest fire kills them? 
Is there not some concern about the forest fires, because they 
kill animals, they kill birds, they kill insects also?
    So I hope, Mr. Chairman, with your leadership and other 
members', that when we move this CARA bill forward, that we 
have done everything that we can do to protect the 
constitutional rights of the private citizen, because I feel 
for my friends from the West. I sincerely do.
    It was God's will that I should take that trip, quite 
frankly, because I have a new perspective for the people in the 
western part of this United States.
    And, Mr. Chairman, I remember something you said a year ago 
in a hearing, that too many times we in the Federal Government, 
whether we be elected officials or bureaucrats, we forget the 
first three words of Constitution: It is we the people are the 
government. And we the people too many times do not have a say.
    So I just want to do my part as a foot soldier up here in 
this Congress to work with my colleagues as this CARA bill goes 
forward to make sure that property rights of the American 
people are protected, and there is no question about it.
    Thank you, sir.
    The Chairman. Thank you. I couldn't agree more.
    The gentleman from Indiana, Mr. Souder.
    Mr. Souder. I thank the Chairman.
    I am actually an enthusiastic supporter of the bill and 
have been. And it is interesting to listen to the westerners 
debate because, for example, in my district, which is 
approximately 100 miles north and south, and probably 40 miles 
east and west, the only Federal land we have is the Veterans 
hospital and the courthouse. You would have to go 100 miles 
west, 150 miles south, and probably about 400 miles east to 
find Federal land.
    The bulk of the support of the CARA bill has been from 
people who aren't in the situations like Utah where you have 80 
percent public land or in Idaho where it is 65 percent. When we 
hear about the backlog in the national parks possibly being $9 
billion, we look at this as another cash transfer from the 
Midwest and the East to make the West more attractive so our 
young people move west.
    We don't have the same recreational opportunities to access 
BLM forest land, park land that I see in every magazine, every 
ad that comes from the western states to try to recruit people 
because we don't have those open spaces.
    First, thank you, Louisiana. We wouldn't have our trucks, 
pickups, SUVs, and cars if you weren't willing to drill. And 
part of this is to say, look, if we are going to in fact, in 
places like Louisiana and Alaska, drill, there should be some 
compensation in developing the wetlands and preserving the 
heritage.
    And it is a balance. I don't fully understand the 
California question, but I know we have pressures on California 
as well.
    So I don't view it as a disadvantage that we are putting 
dollars into Alaska and Louisiana because we are directly 
benefiting from that.
    But the only way those of us in the Midwest and the East, 
who do not have this kind of open land access, are going to see 
when the money comes down to the parks in Knoxville, is when it 
goes into historic preservation, and things like that.
    I discussed at one point, earlier on, with both Chairman 
Hansen and Chairman Young, of saying, okay, let's agree that 
three-quarters of the money is going to go east of the 
Mississippi, and we will exclude Congressman Jones's district 
because he already has a huge national park in his district.
    Another way to do it would be to say that if you have 50 
percent Federal land in your district that you don't get any of 
the CARA funds. In other words, put some caps on this so that 
the dollars flow to the areas that actually need public space.
    I am sorry I missed the testimony, but I have read through, 
in addition to listening to everybody complain, your testimony.
    And in Mayor Ashe's case--and I actually have a question--
you said that in the city of Knoxville, basically you are not 
going to have, after this one park, additional green space to 
add a park. You have a national park--
    Mr. Ashe. The Smoky Mountains.
    Mr. Souder. --just east of Knoxville. But in Knoxville, as 
in other areas of the country, and you have been a mayor and a 
leader in the national mayors' association, we are seeing a 
suburban sprawl where there was not planning for city parks, 
like you have in Knoxville or like we have in Fort Wayne.
    Could you further expand, having listened to a lot of this 
discussion, on what this means for cities and also the suburban 
areas as we try to address the problems in other parts of the 
country?
    Mr. Ashe. Well, thanks very much, Congressman.
    First of all, it is a education to me as a southerner and I 
guess easterner, being east of the Mississippi, to listen to 
the horror stories in the West and to learn what is going on.
    But it seems to me, and if we can separate the two, those 
seem to be Federal issues, stories and situations that involve 
the Federal Government. At the local level, let's not forget a 
major portion of CARA is money for cities and counties across 
America.
    Again, even though the Great Smoky Mountains National Park, 
which is 20 miles from Knoxville, is the most visited park in 
America, the fact is, more people in Knoxville go to the 
ballpark down the street than go 20 miles away to the Smokies, 
as much as I love them.
    We are 100 square miles within the corporate limit, the 
city of Knoxville. We have 10-acre tracts left. But in terms of 
a 100-acre tract, which is what you would need, if you want 
eight ball fields, three soccer fields, a greenway, you know, 
those sort of large activities, we don't have them anymore, 
short of annexation, which is another issue that I don't think 
you want to get into.
    We can't expand. I mean, we are what we are. So if you are 
going to have space available--and the area which I describe is 
the most rapidly growing area of our city, that is the one part 
of town--which is predominantly middle to lower income, 
predominantly Caucasian--that does not have a large 
recreational facility. They are going to now.
    But I think that is important in terms of urban sprawl as 
well, in terms of dealing with it. And it seems to me CARA 
represents a balance, a compromise. Not everyone gets 
everything they want.
    But surely, I hope the local portion doesn't go down the 
tubes because of situations either in the West or wherever, 
where the Park Service may have done something that they should 
not have done. I can't comment on all of that.
    But clearly a situation in Nevada or Idaho, where a 
majority of the land is owned by the Federal Government, is a 
very different situation than Indiana or Tennessee. I mean, it 
is just totally different.
    I would say, in terms of land acquisition at the local 
level, not saying we don't have the power of eminent domain, 
but if the city of Knoxville wants to condemn, first of all, I 
can't do it. No bureaucrat can to it in the city. The city 
council must vote on it, on each piece. So everybody in 
Knoxville can show up and say whatever it is they want to say 
about it.
    Secondly, if the landowner doesn't like the acquisition, he 
or she has a right to jury trial under Tennessee law. Now, we 
do have the right to acquire but it must be done, one, by 
public vote of the legislative body.
    Remember, we are at Kroger's, Food City, Walgreens. I mean, 
I have a listed phone number. There is no shortage of citizens 
to come tell me what a great job or what a lousy job I'm doing.
    Secondly, a jury trial is there, and it may very well come 
back with an amount that far exceeds what the appraised value 
was, because, I mean, juries have a way of acting on their own.
    Mr. Souder. Thank you.
    The Chairman. The gentlelady from California.
    Ms. Solis. Thank you, Mr. Chairman, and members. I 
apologize for coming in late, but I also want to associate my 
support for H.R. 701, which I am a cosponsor of.
    I am particularly pleased to see that there may be an 
opportunity to help provide funding for inner-city and urban, 
suburban America, particularly in my district, where you have 
very scarce resource or open space available to an increasing, 
changing demography in southern California.
    In my short term in the state senate, I worked to provide 
funding and create a conservancy along the San Gabriel and 
foothills in Los Angeles County.
    We are in need now of Federal support. And this is an 
avenue for many of the cities along that corridor that 
stretches almost 30 miles possibly that could apply for this 
particular fund.
    We have it so bad in some of district where we actually 
have to overuse our high school properties, in terms of their 
football fields, to use as multiple recreational facilities. 
Soccer is played there, softball. You don't have parks in some 
of the areas that are adjacent to highly industrial commercial 
areas.
    Our students, our kids, need some relief. They need to have 
a place to go.
    And certainly, I could see this, CARA, as an avenue to help 
provide that much needed support in a district like mine, where 
you see the largest percentage of people that are living there 
are under 15 years of age. We want to keep them out of crime. 
We want to keep them in activities that are sports-like and 
that will provide them educational enhancement and 
opportunities to grow and understand better open space and the 
environment and how meaningful that can be.
    So I just want to add my words of support.
    The Chairman. I thank the gentlelady.
    The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Again, I apologize for being late. I had 
another hearing, Mr. Chairman.
    But, as you know, I am cosponsor of CARA. And we passed 
this last year by a very good margin. I appreciate the 
testimony of all of you here, and my staff has read that. I 
hope we can do likewise this year.
    I notice that H.R. 1592 contains many of the additional, 
redundant property rights that were attempted to be added to 
CARA last year, which were opposed, turned down, by this House.
    But I certainly appreciate the witnesses and their 
testimony.
    The Chairman. I thank the gentleman.
    And I thank the panel. It has been extremely interesting, 
and some very heartfelt discussion has gone between the members 
and the panel. It has been very enlightening for a lot of us.
    Let me just say that we will continue to move this bill. I 
take very seriously the comments made by everyone concerning 
the property rights of America. That is sacrosanct to all of 
us.
    But I agree with Mr. Young. What we have here is much 
better than what we have now. We will go from that point.
    I thank the witnesses. You have been an excellent panel.
    And we will excuse you and turn to the second panel: Mr. 
Tom Mullen, Supervisor, Riverside County, California; Dr. 
Philip K. McKnelly, Director, North Carolina Division of Parks; 
and Mr. Bobby Whitefeather, Chairman of the Red Lake Band of 
Chippewa Indians, Red Lake, Minnesota.
    I thank this panel for being here.
    The gentlelady from Minnesota, Ms. McCollum, wanted to 
introduce Mr. Whitefeather. She isn't here, but I would like to 
mention that. We appreciate her interest.
    And you folks know the rules. Members will be in and out 
all day.
    But I would like to briefly turn to the gentleman from 
Michigan, Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I, too, would like to welcome Mr. Bobby Whitefeather, the 
Chairman of the Red Lake Band of Chippewa Indians in Minnesota.
    Ms. McCollum right now, Chairman Whitefeather, is over on 
the House floor defending an Indian resolution over there, and 
doing a very good job of it. I just spoke on that myself.
    But I have visited your sovereign nation. And you have some 
of your citizens actually living as far east as Michigan, and 
they are very good citizens of that area, too.
    But I appreciate your being here.
    Mr. Thornberry. [Presiding.] I thank the gentleman.
    And now we would turn to Mr. Mullen.

    STATEMENT OF TOM MULLEN, SUPERVISOR, RIVERSIDE COUNTY, 
                           CALIFORNIA

    Mr. Mullen. Thank you, Mr. Chairman and members of the 
Committee.
    My name is Tom Mullen. I am a county supervisor in the 
Riverside, California, which is located in the southern portion 
of the state.
    Let me tell you just a little bit about Riverside County 
and how we are attempting to make the ESA work. And I certainly 
need not remind the Committee that the ESA is a Federal mandate 
and an onerous one on local government.
    You have my prepared remarks, and to expand on those, I 
would let the Committee know that Riverside County would be 
equal to the 13th largest state in the union. We are slightly 
smaller in population and area than the State of Massachusetts 
and New Jersey. We stretch 200 miles from the Los Angeles 
basin, bounded by the county of Los Angeles, Orange to the 
west, San Bernadino to the north, and San Diego to the south.
    In the basin area, in the western quarter of this county, 
we have about 1.2 million people. The county itself is 1.6 
million. In the next 15 years, we will add another million 
people to the western quarter of that county.
    During the late 1980's, with the advent of more stringent 
enforcement action by U.S. Fish and Wildlife Service, and the 
listing of several species, including the Stephen's Kangaroo 
Rat in Riverside County, we acquired over about 40,000 acres at 
a price of about $42 million. And we have not closed out that 
habitat conservation plan.
    Recognizing the infrastructure stresses that we in the 
basin and the L.A. area, the greater metropolitan area, have in 
providing for this dynamic growth, which I should say will, 
over the next 20 years, exceed the population growth of 
Washington, North Carolina, and Arizona just in Riverside 
County, that we found that dealing with one species at a time 
just doesn't work. And when you attempt to put in major pieces 
of infrastructure, such as highways, we have found in southern 
California, particularly, that it is not a question of years, 
but it is a question of decades.
    And for the Committee, I would point out three examples.
    The 710 freeway, which runs from the Port of Los Angeles in 
Long Beach to Pasadena. The first public hearing was in 1949, 
and that freeway is not completed yet.
    Interstate 15 through Riverside County, western Riverside 
County, was held up near the Santa Anna River at an increased 
cost of $1 billion in 10 years and nothing changed.
    Highway 30 from the area of Redlands, Mr. Lewis's district, 
over to the 210 above Azusa, the first public hearing was in 
1946, and they just started construction of the last 20 miles 
of that last year.
    Because of the rapid increase in population in western 
Riverside County, the need for this type of infrastructure is 
critical. It seemed to us that one of things that was really 
missing was treating the environment as you would any other 
piece of infrastructure.
    And with that, we then put together a stakeholders' driven 
group. And that encompasses, presently, over 100 individuals, 
organizations. It includes the Farm Bureau, environmental 
groups, as well as both the Federal and state regulatory 
agencies. And we meet weekly.
    It is a $32 million project with a 36-month time line. We 
are in the 25th month of that. And we are on schedule, with the 
exception of the EPA.
    We intend to put in, over the next 20 years, approximately 
$13 billion in infrastructure. And without CARA, that will be 
impossible.
    We have approximately somewhere between and $800 and $1.5 
billion worth a land acquisition that in fact must take place 
in order to meet the needs of the Endangered Species Act and to 
prepare, if you will, for the influx of people in the future.
    With that, I would be pleased to answer any questions.
    [The prepared statement of Mr. Mullen follows:]

Statement of Tom Mullen, Supervisor, 5th District, County of Riverside, 
                               California

INTRODUCTION
    Thank you, Mr. Chairman. My name is Tom Mullen. I am a County 
Supervisor in the County of Riverside, located in Southern California.
    I appreciate the opportunity to appear before your committee today 
to urge your support for H.R. 701. This bill is unquestionably the most 
significant legislative initiative for conservation in the last several 
decades.
    As you know, President Theodore Roosevelt is credited with shifting 
public attention to the importance of conservation. In his efforts to 
instill a conservation ethic into the American consciousness, it was 
Roosevelt who noted, ``The nation behaves well if it treats the natural 
resources as assets which it must turn over to the next generation 
increased, and not impaired, in value.''
    Beginning with Roosevelt and the establishment of the National 
Forest Service at the turn of the century and continuing through the 
enactment of the National Environmental Policy Act and the Endangered 
Species Act, the federal government has played an important role in 
conservation efforts. As a result, Americans today share a proud 
conservation legacy.
    You have a unique opportunity to continue that legacy by supporting 
the Conservation and Reinvestment Act (CARA).
    Whether you hunt, fish, hike, or just enjoy the peace and 
tranquility of being outdoors, CARA will ensure that future generations 
can enjoy our nation's precious natural resources for many years to 
come.
TITLE VII FUNDING
    Mr. Chairman, I have been asked to testify on Title VII of CARA. 
The provisions under this Title offer the kind of innovation and 
flexibility that would be embraced by Riverside County. We believe:
    <bullet> LTitle VII gives private landowners the ability to work in 
a non-regulatory, incentive-based manner to achieve land management 
objectives that are mutually beneficial.
    <bullet> LTitle VII builds on our citizens'' strong sense of 
stewardship about their land by involving them in problem solving and 
the implementation of solutions.
    That being said, Mr. Chairman, we offer recommendations that we 
believe are essential to ensure greater flexibility in the application 
of Title VII funding, especially as it applies to our county. We 
strongly believe Title VIII should be expanded to include provisions 
which direct the Secretary to provide funding to local jurisdictions:
    <bullet> LEither directly or through the states to implement 
actions, including land acquisitions, to benefit recovery species or 
actions to prevent a species from becoming listed.
    <bullet> LTo develop conservation plans and recovery agreements 
consistent with the ESA.
    With the inclusion of these recommendations, Mr. Chairman, we 
believe Title VII would be complete, improving the overall utility of 
CARA for communities like ours.
    We not only support CARA for its conservation benefits, we believe 
it has the potential to dramatically improve quality of life for 
millions of Americans in numerous other ways.
A GROWTH MANAGEMENT SOLUTION
    This legislation will make much-needed federal funding available to 
help state and local governments address critical infrastructure needs 
so they can effectively manage numerous challenges in the face of 
extensive population growth.
    Allow me to explain by providing background on our experiences in 
Riverside County.
    For several years, Riverside County has been pursuing locally-
initiated conservation efforts to protect endangered species. But until 
just recently, our efforts were centered on single-species 
preservation. This proved to be a costly and highly inefficient 
approach.
    The most significant and controversial Habitat Conservation Plan 
effort undertaken in Riverside County occurred 1988 when the federal 
government listed the Stephen's Kangaroo Rat (SKR) as an endangered 
species.
    During the late 1980's, residential and commercial development 
accounted for a significant portion of the total activity in the 
western part of the county. Since that area also provided a majority of 
remaining habitat for the SKR, the listing precipitated an economic 
crisis as the Endangered Species Act--specifically Section 9 take 
prohibitions--effectively stopped public and private development in the 
region. The situation was exacerbated by the fact that at the time of 
the listing very little was known about the SKR, its geographic 
distribution, or its habitat needs.
    Following the listing of the SKR, the Riverside County Habitat 
Conservation Agency (RCHCA) was formed to develop and implement a 
Habitat Conservation Plan for the SKR. The RCHCA is a public agency 
comprised of 9 members, 8 cities and the County of Riverside.
    In August of 1990, the RCHCA received approval from the Unites 
States Fish & Wildlife Service (USFWS) and the California Department of 
Fish and Game (CDFG) for a short-term Habitat Conservation Plan (HCP) 
that covered 565,000 acres. Nine ``study areas'' encompassing 
approximately 78,000 acres were designated throughout Riverside County 
and development was restricted to ensure that land-use activities would 
not preclude future preserve establishment. Over 47 percent of the land 
contained in the study areas were privately owned. There were a number 
of key elements included in the short-term plan; one of which involved 
the establishment of an SKR mitigation fee of $1,950 per acre that was 
assessed in conjunction with the issuance of building, grading, surface 
mining, and other land disturbance permits in the HCP area. The habitat 
mitigation fee has generated over $34 million to date. The RCHCA 
expended over $30 million in local funds to implement the short-term 
plan. Approximately 85 percent of this sum was devoted to the 
acquisition of nearly 9,000 acres that were permanently dedicated to 
SKR conservation.
    It is fair to say that the short-term plan was among the most 
controversial and widely monitored HCP's ever implemented. That plan 
has been the subject of extensive media coverage, ranging from the Wall 
Street Journal to National Geographic to television news programs like 
20/20 and Eye to Eye. Additionally, the plan was a frequent subject of 
litigation; the RCHCA has expended over $400,000 to defend seven 
lawsuits and has budgeted another $500,000 in litigation defense costs 
for the remaining three lawsuits during the 2001/2002 fiscal year.
    Three factors are primarily responsible for the extensive 
controversy surrounding this HCP: 1) regulations imposed on thousands 
of property owners located in the study areas; 2) lack of federal 
funding for HCP implementation and; 3) difficulties experienced in 
achieving consensus with the USFWS concerning an appropriate amount of 
conservation in the absence of a Recovery Plan for the SKR.
    As a result of the incidental take prohibitions and other 
conditions included in the short-term HCP Implementation Agreement, 
over 3,000 privately held property owners in the study areas suffered 
significant hardships as a result of this conservation effort. Many 
property owners claimed that the marketability of their parcels was 
adversely affected because the regulations in the study areas adversely 
restricted the use of their land. The study area property owners became 
highly vocal opponents of the short-term HCP.
    Both the total cost and sources of financing for the short-term HCP 
were highly problematical as well. The implementation budget was built 
upon the assumption that state and federal funds would cover 
approximately 50% of its cost. Unfortunately, that assumption proved to 
be erroneous. Of all expenditures related to the short-term HCP to 
date, approximately $2 million has been provided by the State of 
California and $30 million has been paid by local residents through 
collection of the SKR mitigation fee. Despite active funding 
solicitation efforts by the RCHCA, the federal government has provided 
no financial assistance to the short-term HCP.
    The burden placed upon the residents of Riverside County to finance 
the SKR short-term HCP produced extreme frustration among the populace. 
This was based upon the belief that if federal law deems protection of 
the SKR to be in the national interest, then the federal government has 
an obligation to share in the cost of its conservation.
    Amid these sentiments, the RCHCA developed a long-term HCP to 
replace the short-term HCP. This was approved in March of 1996. The 
preserve system consists of 7 core preserves encompassing over 41,000 
acres including over 12,500 acres of occupied SKR habitat. 
Implementation of the long-term HCP is expected to cost approximately 
$15.3 million, including $11.7 million from the RCHCA and $3.6 million 
from federal sources. Combined with the $30 million already expended on 
the short-term HCP, more than $46 million will be spent on the SKR 
conservation effort. Of that amount, approximately $42.7 million--or 91 
percent - comes from the local level.
    In areas such as Riverside County, single species HCP's only 
address a fraction of the total habitat conservation issue. The 
development and implementation of large scale single species HCP's is 
extremely expensive and time consuming as well as controversial.
    After nine long years, and millions of dollars, we learned our 
lesson: with multiple species listed on the threatened and endangered 
rolls, we finally realized that habitat conservation must take place on 
a broad-scale and it must take place within the context of an 
infrastructure plan that addresses long-range transportation and land-
use needs.
    A comprehensive approach provides the highest level of certainty to 
property owners, builders, farmers, environmentalists, and local 
governments concerning their future obligations and benefits under the 
ESA.
    Riverside County is one of the largest counties in the nation. It 
covers 7,300 square miles. By way off comparison, the states of New 
Jersey and Massachusetts cover approximately 7,400 square miles and 
8,200 square miles, respectively.
    Riverside County is also one of the fastest growing large counties 
in California and the United States. Its population will double from 
1.5 million to 3 million in the next 15 to 20 years.
    According to Southern California economist John Husing, more people 
will move to Riverside County over the next 20 years than to seven 
other states, including Arizona, Washington and North Carolina.
    Inevitably, the impact of such a population boom and the challenge 
of balancing the related housing, transportation and economic needs 
with our limited natural resources becomes critical to our very 
survival.
    The challenge of planning for growth is not unique to Riverside 
County. But we have devised an innovative model to address this 
pressing concern.
    In 1999, we launched the Riverside County Integrated Project 
(RCIP). The RCIP is a stakeholder driven process that unites builders, 
property owners, farmers and government behind a long-range planning 
effort that incorporates three distinctive elements--conservation, 
transportation and land-use.
    What makes the RCIP approach unique is the premise that the 
environment must be addressed the same as any other piece of critical 
infrastructure. Just as you must have utilities, roads and schools to 
support a growing population, you must address environmental 
constraints or you cannot grow.
    The normal approach to development in California has been to plan 
the project first then attempt to mitigate. The RCIP begins with the 
development of a multi-species habitat conservation plan (MSHCP) and, 
we hope, a watershed special area management plan (SAMP), and then 
integrates land use and transportation elements that minimize the 
environmental impacts while still addressing housing demands, job 
creation, and congestion relief. The RCIP includes:
    <bullet> LA Multi-Species Habitat Conservation Plan (MSHCP) which 
forms the nucleus of an open space plan for the western part of the 
County. The goal of the plan is to address up to 164 species. County 
staff, a consultant team, resource agencies, and stakeholders are 
working closely together to create a conservation and implementation 
strategy which allows the maximum coverage of species while respecting 
individual property rights.
    <bullet> LAn updated General Plan for the unincorporated portion of 
the County, which includes land use, circulation, housing, open space, 
conservation and other mandatory elements of the general plan in 
conformance with state statute. Close coordination between public and 
private sector stakeholders, including all the cities in the County, is 
viewed as essential for the development of a plan that can be 
successfully implemented.
    <bullet> LThe Community and Environmental Transportation 
Acceptability Process (CETAP), which identifies future transportation 
corridors in the western part of the county and provides the 
appropriate environmental documentation to allow early reservation of 
the necessary rights to develop the corridors. These corridors will be 
designed to meet future needs not only for the mobility of autos, 
buses, and trucks but also to provide the ability to move goods, 
information and products, as well as to provide room for implementation 
of transit well into the next century. The CETAP forms an essential 
component of the County's circulation element and its arterial highway 
plan, associated with the General Plan. The goal of the program is to 
improve mobility both within Riverside County and the Southern 
California region.
    <bullet> LA Special Area Management Plan (SAMP) to address 
watershed management and obtain clearance 404 and 1600 requirements is 
the desired fourth element of the plan. We are currently seeking 
funding that will allow the Army Corp of Engineers to work with the 
County to develop the SAMP.
    The essence of RCIP is in the integration of land use, 
transportation and conservation planning, and implementation, to 
develop a consensus for the future development of Riverside County. As 
a first-of-its-kind endeavor, the RCIP is intended to be model for 
making the ESA work while providing for the long-term development and 
economic growth of the County. Recognizing the need for this new and 
different approach, the project is guided by five overarching 
principles.
    <bullet> LThe process must be a bottom-up process. The public, 
along with stakeholder groups, must drive it. Development of the RCIP 
requires close guidance from stakeholders and citizens throughout the 
County. In order to facilitate this guidance, three Advisory Committees 
were established; one for each of the plan elements. Membership in 
these committees is comprised of citizen appointees and representatives 
of a variety of stakeholders and public agencies. The advisory 
committees number over 100 individuals that represent diverse 
interests. Cities within the County participate both through the 
Advisory Committees and through the two sub-regional Councils of 
Government (COGs), the Western Riverside Council of Governments (WRCOG) 
and the Coachella Valley Association of Governments (CVAG). Advisory 
committees meet monthly to review progress of the RCIP elements and 
provide input on data presented. Various subcommittees to the three 
advisory committees are often meeting weekly to address specific issues 
and report their recommendations back to the full advisory committees. 
In addition to the advisory groups, a management committee that 
includes senior officials from all the participating state and federal 
regulatory agencies confer on a weekly conference call.
    <bullet> LThe recognition of the interdependence between the 
region's future transportation, habitat, open space, recreation, land 
use, and housing needs is essential.
    Without solving the conservation issues, as mandated by the 
Endangered Species Act, the successful identification and 
implementation of new transportation corridors and continued expansion 
of our job bases simply is not possible.
    <bullet> LEveryone, from the private landowners and development 
interests to our state and federal partners, has a financial 
responsibility to ensure the completion of the plan and its 
implementation.
    The equity of the funding plan is at the heart of RCIP. The funding 
plan must recognize the obligation of the local land owners and 
developers to mitigate the impacts of their projects. However, this 
must be in the context of the state and national policy decision that 
conservation of endangered species is a state and national priority and 
should be supported with state and federal funding. Further, there is 
long-term value to the County and the Southern California region as a 
whole to address housing and transportation needs in the region. The 
recognition of joint responsibility and agreement on fair and equitable 
sharing of the implementation costs is essential.
    <bullet> LMake use of the best available scientific information.
    Working with the University of California at Riverside (UCR), the 
USFWS and the CDFG, we have attempted to collect all available data on 
species occurrences and habitat and consolidate it in our Geographic 
Information System (GIS). The consultant team has augmented this with 
an extensive review of the literature available on each of the species 
anticipated to be covered under the MSHCP. More than 10 thousand data 
points collected from museum records; local, state and federal data 
bases; literature sources; and field notes were compiled. The resulting 
data base of information, managed by UCR, will continue to be updated 
as additional information becomes available.
    UCR also coordinates a Scientific Review Panel (SRP), which 
provides formal academic review at key points in the MSHCP planning 
process. To our knowledge, the incorporation of an SRP is a unique 
element of the RCIP. The SRP will help ensure independent critical 
review of the data used to support policy decisions. Furthermore, the 
SRP review will address concerns expressed by critics both in the 
scientific and environmental communities and in the general public who 
contend the conservation has generally lacked scientific credibility 
(Sullivan and Scott, March/April 2000).
    <bullet> LUse incentives and market based approaches where 
feasible.
    To avoid many of the criticisms of earlier plans, one of the goals 
of the RCIP has been to look for opportunities to create incentives for 
property owners to participate in the MSHCP. The MSHCP Advisory 
Committee is currently meeting with the General Plan Advisory Committee 
to develop incentives and policies that will help implement the MSHCP 
and concurrently support programs in the General Plan. Incentives 
include density credits or transfers, conservation credits that reflect 
conservation values and can be sold in an open market, or conservation 
easements that might be mutually beneficial to the property owner and 
to the implementation of the MSHCP.
    The RCIP offers an innovative model for a comprehensive regional 
approach to addressing the ESA as part of an integrated program. The 
RCIP is a superior alternative to the traditional project-by-project 
approach. While not without significant challenges and risks, it offers 
advantages to local, state, and federal agencies in implementing their 
land use, infrastructure, development and regulatory responsibilities. 
Moreover, it offers the advantages of a regional approach to local 
property owners and developers while addressing many of the objections 
they have had to previous habitat conservation plans. Through the RCIP, 
a broad array of stakeholders and individual citizens are afforded 
opportunities to participate and communicate what is most important to 
them in order to improve their quality of life now and into the future.
ADDITIONAL NEED
    Although the ESA is a federal mandate, the cost of compliance falls 
on a limited few. It is only reasonable that implementation of national 
policies should be accompanied by an equitable amount of federal 
funding.
    Funding for conservation incentives for small landowners as 
proposed under Title VII will be helpful to RCIP. Riverside County has 
many areas that are characterized by parcel sizes of 2.5 to 10 acres. 
The ability to offer incentives to conserve a portion of these 
properties is the only feasible method of achieving conservation in 
some instances.
    However, these parcels only represent a small percentage of the 
total privately owned land (153,000 acres) that must be conserved under 
our project. Therefore, we wish to register our support for Title II 
and Title III. Full funding under these Titles would be of paramount 
importance in helping us reach this enormous conservation goal.
    In addition, we support a modification of Title III to clearly 
acknowledge that one of its primary objectives is to enable state 
wildlife agencies to secure lands, in pursuit of helping cities and 
counties as they implement habitat conservation plans. This would 
greatly help local jurisdictions meet the unfunded mandates associated 
with the ESA.
    Incentives for small property owners is an essential element but 
must be coupled with sufficient funding to purchase lands when 
necessary. This is especially true in areas of western Riverside County 
where land development pressure is high and land is held for its future 
development value. Property owners here most often want to develop 
their land or sell their land. Conservation incentives will not be a 
sufficient enticement for these property owners.
    We believe that by providing both conservation incentives and 
direct funding for land acquisition, the ESA can be made to work in 
areas such as Riverside County.
CONCLUSION
    You have a unique and profoundly important opportunity to help give 
folks in Riverside County, and other growing cities and towns, the 
promise of a future filled with hope--access to affordable housing for 
families, good schools for their children, new roads and freeways for 
safe passage, progressive and dynamic economic development and the 
protection of priceless natural resources.
    These are the sweeping benefits this landmark legislation can help 
provide.
    Without this legislation, our county will become a textbook example 
of fragmented urbanization marked by extreme social and economic 
disruption.
    We will have inflated housing prices that few families can afford, 
prohibitive traffic congestion that restricts the flow of commerce and 
people, and uncoordinated natural resource protection. Moreover, 
without comprehensive habitat conservation, all future development 
projects will likely wind up in court, at enormous cost to taxpayers.
    This is why your support for CARA is critical for the future of 
Riverside County and for thousands of other communities across the 
nation.
    Thank you.
                                 ______
                                 
    Mr. Thornberry. I thank you, sir.
    Dr. McKnelly?

   STATEMENT OF PHILIP K. MCKNELLY, DIRECTOR, NORTH CAROLINA 
 DIVISION OF PARKS AND RECREATION, RALEIGH, NORTH CAROLINA, ON 
BEHALF OF THE NATIONAL ASSOCIATION OF STATE OUTDOOR RECREATION 
 LIAISON OFFICERS AND THE NATIONAL ASSOCIATION OF STATE PARKS 
                           DIRECTORS

    Mr. McKnelly. Mr. Chairman, members of the Committee, my 
name is Phil McKnelly, and I am the director of the North 
Carolina Division of Parks and Recreation.
    I am here today representing the National Association of 
State Outdoor Recreation Liaison Officers, which is a long term 
to say that we represent the states, with the National Park 
Service, in dealing with Land and Water Conservation Fund and 
other park-related issues.
    I am also representing the National Association of State 
Parks Directors.
    We appreciate you holding these hearings on H.R. 701, and 
want to thank the sponsors for their strong and persistent 
leadership on this issue.
    While the state liaison officers and the state park 
directors are deeply committed to CARA, I am going to focus my 
comments today on the state side of the Land and Water 
Conservation Fund in Title II.
    And, I am going to use North Carolina examples because 
those are the examples that I am the most familiar with. But I 
have talked to colleagues across the country, and I am aware 
that there are similar issues in every state in the union.
    Issues for state and local governments, the issues they are 
facing, in many cases are caused in part by the shifting 
population. Particularly in the Southwest and the Southeast, we 
are seeing tremendous growth patterns, and we are also seeing a 
shift from rural to urban and suburban areas.
    When I moved to North Carolina in 1973, 54 percent of the 
state population was rural. In 2000, 65 percent of the 
population lived in 15 percent of the counties. We are seeing a 
tremendous shift and this shift is creating growing conflicts 
for the limited resources.
    The playgrounds and the athletic fields in our local 
communities are crowded and worn out. The competition between 
motorized and nonmotorized vehicles, both on trails and on 
waterways, is stiff; the conflict is real. And we are losing 
open space to sprawl.
    As you can see in my written testimony, in North Carolina 
we are losing 156,000 acres a year of open space. We are losing 
it to urban sprawl. And that is a 67 percent increase in a 10-
year period, in the previous decade.
    We are losing 34 percent of our wetlands. They have been 
altered to a point that they no longer function as buffers to 
our streams and watercourses. And we, along with those 
wetlands, are losing opportunities to preserve some threatened 
habitats and species that have been discussed earlier.
    But while the needs are great, the opportunities are also 
great.
    In revitalizing urban cores, there is an opportunity to 
reacquire or reestablish some greenways, some open spaces, that 
have been lost previously.
    In the rural areas, particularly, at least in North 
Carolina, Champion Paper, International Paper, and Duke Energy 
are all selling off large tracts of land on an unprecedented 
scale. Once these large tracts are broken up, they will be 
gone. It will be difficult if not impossible to ever have a 
chance to acquire and preserve those again.
    While the states are looking for help and need help badly 
through CARA, we are also trying to help ourselves. In 1993 in 
North Carolina, for example, the state passed its first ever 
bond referendum. It was for $35 million, which is small 
compared to the scale of bond referendums passed in Indiana, 
California, and other states. But it was the first time in 80 
years the General Assembly had seen that need.
    But based on the support for that bond referendum, in 1994, 
the state created a Park and Recreation Trust Fund, which is a 
dedicated stream of revenue for state and local governments. It 
is a program patterned after the Land and Water Conservation 
Fund.
    At least 17 other states have similar programs to our Park 
and Recreation Trust Fund. Their revenue is generated by the 
transfer tax; in some cases, by the lottery; in other cases, by 
personalized license tags sold by the department of motor 
vehicles.
    Like the state programs, it is terribly important for CARA 
to be consistent to be effective. That is the only way states 
can effectively plan for long-range issues. It is the only way 
we can deal with the large tracts of land that the industries 
are selling right now.
    North Carolina is looking at an $18 million tract of 
waterfront property. We are going to have to do that over a 3- 
to 5-year period. And without consistent sources of funds, 
there is no way we can do that. There would be no way we could 
count on the Federal Government.
    While some folks don't like this commitment, I would 
suggest that that is actually an investment. The states will at 
least match that. In many cases, they overmatch that sometimes 
twice by the state and the local governments.
    It also is effective in attracting business and industry. I 
have given some examples in the written testimony. There are 
others where folks have moved into North Carolina because of 
the quality of life, the open space and the recreational 
opportunities for those communities.
    The broad support has been pointed out before, both by 
Mayor Ashe and the National Governors Association. The National 
Association of Counties has also supported this bill.
    The organizations, (I liked Mr. Caldwell's number; he 
mentioned 7,000. The number I had was a little bit older, but 
it was also a little bit smaller, so I will go with his number 
on the organizations and the communities that have supported 
this) range from the Chamber of Commerce to the Nature 
Conservancy, a couple of groups that do not always see eye-to-
eye.
    I would urge you to move forward with a favorable 
recommendation. It is a highest priority in this Congress for 
the two organizations that I am representing. And we are ready 
and willing to help in any way we can to start this step to 
create a truly national system of parks.
    I do appreciate the opportunity to appear here today. Thank 
you very much.
    [The prepared statement of Mr. McKnelly follows:]

Statement of Dr. Philip K. McKnelly, Director, North Carolina Division 
                        of Parks and Recreation

    Mr. Chairman, members of the committee, thank you for this 
opportunity to testify on this very important piece of legislation. My 
name is Phil McKnelly and I am here on behalf of the National 
Association of State Outdoor Recreation Liaison Officers (NASORLO) and 
the National Association of State Parks Directors (NASPD) and I want to 
tell you that both of these organizations are deeply committed to the 
passage of H.R. 701, The Conservation and Reinvestment Act. I would 
like to thank the sponsors of CARA for their strong and persistent 
leadership in trying to make this dream of millions of Americans a 
reality.
    While my state and the organizations I represent here today 
heartily endorse CARA, I will focus my testimony on Title II, the Land 
and Water Conservation Fund (LWCF). Almost thirty-five years ago I 
started my professional career with the Arkansas Planning Commission 
trying to get a fledgling program off of the ground. That program, the 
original LWCF, was the result of a national study called the Outdoor 
Recreation Resources Review Commission. That study took several years 
to complete and was hailed as the most significant piece of 
conservation legislation to be passed in the history of our country. 
While the LWCF program has accomplished a great deal, it has never 
quite lived up to the to the hopes and dreams it generated when it was 
created. I have seen the program grow and flourish during the late 
1960's and 1970's, and I saw it fade during the1980's and then die in 
the early 1990's. Finally, in the late 1990's our country saw an ember 
of hope among the ashes of LWCF and now, with strong leadership from 
the House and a renewed hope in the cities and states across America, 
we have a chance to turn a history of unfulfilled hope into a true 
legacy of stewardship and opportunity for the generations that follow 
us.
    But my purpose here today is not to dwell on what might have been 
or to place blame for what went wrong with the dreams of 1965. My 
purpose is to endorse the legislation before you and convince you of 
the promise it holds. I will focus on North Carolina because it has 
been my adopted state for more than 20 years and I am most familiar 
with the problems and opportunities that exist there. I have visited 
with other State Liaison Officers and State Parks directors from other 
states and I am convinced that, while our issues may be different in 
the east than they are in the west, while the specific concerns in 
Texas may be different than those in Minnesota, there is a real need 
for CARA and LWCF in every state. I am absolutely convinced - and want 
to convince you - of the need for a national program to encourage and 
assist states and local governments to preserve their significant 
natural resources, to provide open spaces that will act as buffers that 
protect the water quality of our rivers and streams, to minimize the 
damage caused by natural disasters such as the floods and hurricanes my 
state has experienced during the past few years, and to provide 
opportunities for our children to grow and learn in a safe, healthy 
environment.
    In North Carolina the average conversion rate of forests, farms, 
and rural lands between 1992 and 1997 was 156,300 acres per year - a 
sixty-seven percent increase over the previous ten years. The 
Charlotte/Mecklenburg County area will lose forty-one acres of open 
space a day for the next twenty years if the current development 
practices are allowed to continue. In the Research Triangle (Raleigh, 
Durham, and Chapel Hill), urban land area has grown more then three and 
a half times faster than the population between 1959 and 1990. Thirty-
four percent of North Carolina's coastal wetlands have been altered to 
the point they no longer fulfill their function of protecting water 
quality in our streams, rivers, and sounds. These trends are taking 
place at a time when the North Carolina State Parks System has 
documented over $120 million dollars worth of land acquisition needed 
to complete existing master plans and almost $300 million dollars worth 
of capital improvements necessary to complete and repair existing 
parks. The backlog of needs for parks and recreation land acquisition 
and development by local governments in North Carolina is approaching 
one billion dollars.
    While the needs are great, the opportunities to preserve 
significant open space are also great. Large corporations such as 
Champion Paper, International Paper, and Duke Energy are divesting 
themselves of large tracts of undeveloped lands at an unprecedented 
rate. Lands that could be used, for parks, greenways, or public open 
spaces. With improved funding state and local governments could take 
advantage of these once in a lifetime opportunities and take a 
significant step toward making sure that future generations have 
forests, waterfalls, and clean, free flowing streams to appreciate and 
enjoy.
    Because of the concentrated population growth in urban areas, 
pressure is growing on the public lands in close proximity to 
population centers and conflicts are growing among the recreation user 
groups because of crowded conditions on limited resources. Prime 
examples of these conflicts include the competition for open water on 
Corps of Engineers reservoirs swimmers and sailors face from 
personalized water craft, water skiers, and other power boaters. 
Another example of a growing conflict is the competition between 
mountain bikers, horseback riders, and hikers. The explosion of 
mountain biking has had a tremendous impact on the demand for 
additional miles of trail and the need to separate conflicting uses 
such as horses and mountain bikes. Also, the demand for off-highway 
vehicle trails and areas is growing at a tremendous rate - and North 
Carolina does not even have the population of snowmobile riders many 
other states experience.
    While the states and local governments are looking to the federal 
government for assistance, it is important to note that they are also 
taking steps on their own to relieve the situation. In 1993 the North 
Carolina General Assembly authorized, and the citizens passed, a 
thirty-five million dollar bond issue for state parks improvements - 
the first bond referendum in the eighty-seven year history of the State 
Parks System. In 1994, based largely on the public support for the 1993 
bond referendum, the General Assembly passed the Parks and Recreation 
Trust Fund. A dedicated revenue source committed to land acquisition 
and capital improvements for state and local parks and recreation. In 
recent years the General assembly has also created the Natural Heritage 
Trust Fund (a dedicated stream for revenue committed to preserving 
lands with outstanding natural heritage values) and the Clean Water 
Management Trust Fund (a program directed towards the acquisition of 
properties that provide significant protection to rivers, streams, 
lakes, sounds, and the ocean and other preventive measures and 
solutions to water pollution.) Combined, these programs provide 
approximately fifty million dollars per year for parks, recreation, and 
open space projects. While this is a significant step forward, in the 
State Parks System alone, with over four hundred million dollars in 
identified needs and approximately fifteen to twenty million dollars 
per year from the dedicated funds, it will still take over twenty years 
to complete current master plans - and that scenario does not provide 
for the acquisition and development of any new parks. The needs in our 
local communities are equally great. In Fiscal Year 2001, North 
Carolina received two million four thousand dollars in LWCF assistance 
and has received applications from thirty-eight local governments 
requesting over ten million dollars in assistance.
    There are other proposals to rekindle LWCF in addition to CARA, but 
they often omit a very important factor. To be effective, funding 
designed to address acquisition and development needs must be 
consistent. For example, opportunities mentioned earlier in this 
testimony such as the potential acquisition of land from major 
corporations involve large sums of money. North Carolina is currently 
exploring the possibility of acquiring a tract containing over two 
thousand acres of lake front property valued at approximately eighteen 
million dollars. To complete such an acquisition, the State will need 
to spread the transaction over three to five years and will need a 
stable source of funding for the duration on the project. If the recent 
history of LWCF funding continues, North Carolina would simply not be 
able to enter into a contract that relied on matching funds from the 
federal government.
    I have used specific examples from North Carolina because I am the 
most familiar with that situation, but other states around the country, 
such as Arizona, Arkansas, Colorado, and Missouri are taking similar 
steps to help themselves and their local governments. My point is that 
states and local governments are committed to being good stewards of 
the environment, but they need some help to accomplish what has become 
a formidable task. The passage of CARA and Title III would make a 
significant impact on the backlog of state and local government parks 
and recreation needs, and it would also be a solid investment for the 
federal government. Every dollar the federal government provides to the 
states requires a local match of at least equal value. In many cases 
the grants are over-matched and the environment and our citizens 
benefit even more.
    Another economic benefit our citizens would receive from this 
investment is the proven attraction parks and open space have for 
business and industry. As Will Rogers, Jr. has pointed out, ``Too many 
community leaders feel they must choose between economic growth and 
open space protection. But such a choice is not necessary.'' This 
statement has been reinforced in North Carolina by the fact that two 
companies recently relocated to our state because of the quality of 
life available to their employees. Reichold Chemical Company recently 
brought five hundred jobs to the Raleigh-Durham area and Catepillar, 
Inc. moved to Morganton after a twenty city search. In both cases 
greenways, open space, and the quality of life were cited as decisive 
factors in the relocation decisions. LWCF and CARA are good investments 
from at least two different perspectives.
    The last point I would share with you is that this issue has a 
broad range of support. Nationwide, approximately thirty-five hundred 
communities and organizations have endorsed the legislation. The 
National Governors'' Association, National Association of Counties, and 
U.S. Conference of Mayors are among the leaders of those supporters and 
organizations as diverse as The Nature Conservancy and the United 
States Chamber of Commerce have joined forces to get this bill passed. 
Also, major newspapers from New York to Los Angeles and Seattle to 
Miami have endorsed CARA, and just last year the U.S. Congress passed a 
very similar bill with 315 votes in the affirmative.
    In summary, H.R. 701 is the highest priority in this Session of 
Congress for NASORLO and NASPD and we are ready to do what ever is 
necessary to help you complete the effort initiated and passed in the 
House last year. Last Session eleven of our twelve North Carolina 
Congressmen co-sponsored the bill and we intend to do at least that 
well again this year. The one member who did not co-sponsor CARA last 
year did vote for the measure every time he had the opportunity. I urge 
you to give this important piece of legislation a favorable 
recommendation and move it forward in the process as soon as possible. 
On behalf of NASORLO, NASPD, and North Carolina I appreciate this 
opportunity to testify before the House Resources Committee and look 
forward to working with you to make this tremendous opportunity a 
reality.
                                 ______
                                 
    Mr. Thornberry. Thank you.
    Before yielding to Chairman Whitefeather, I will yield to 
Ms. McCollum for any comments that she would like to make.
    Ms. McCollum. Thank you, Mr. Chairman.
    I am deeply honored to be able to introduce Bobby 
Whitefeather, Chairman of the Red Lake Band of Chippewa.
    Chairman Whitefeather was raised in a small, tradition 
Indian community on the Red Lake Reservation in northern 
Minnesota. After serving the United States honorably in the 
Vietnam war, Chairman Whitefeather has worked on behalf of his 
people on the reservation for the past 15 years.
    First elected to treasurer, Chairman Whitefeather has 
served as secretary before becoming Chairman of the Red Lake 
Band of Chippewa.
    While economic development is a priority for Chairman 
Whitefeather, conservation has also played an important role in 
his professional career. He has testified before Congress in 
the past on matters such as improving tribal conservation 
enforcement capability, strengthening educational opportunities 
in fish and wildlife management for tribal members, and has 
worked for equitable access for Federal aid that helps to 
restore fish and other wildlife.
    Closer to home, Chairman Whitefeather initiated a series of 
meetings between state and Federal Government in 1997 after 
walleye stocks in Red Lake in northern Minnesota had been 
devastated by overfishing.
    The partnership has led to one of the largest freshwater 
fish recovery programs in America today, and one of the most 
successful so early in the process.
    Two years ago, Chairman Whitefeather was honored by the 
Great Lakes region of Native American Fish and Wildlife Society 
with a special honor for his long-standing commitment to 
conservation.
    Chairman Whitefeather has been active in the area of Indian 
issues throughout his career. He is a past officer of the 
National Congress of American Indians, and he currently is 
president of the Midwest Alliance of Sovereign Tribes and 
serves on a number of Bureau of Indian Affairs self-governance 
Committees at the regional and national level.
    Obijwe is the Chairman's first language. And while Obijwe 
is a language unknown to many, the Chairman has become an 
effective voice for the Chippewa, for the Minnesota people, 
native people, and for many of us here in the United States.
    It is my honor today, Mr. Chairman, and I thank you for 
yielding to me, to introduce Chairman Bobby Whitefeather.
    Mr. Thornberry. Mr. Whitefeather, a double introduction. 
You may proceed.

  STATEMENT OF BOBBY WHITEFEATHER, CHAIRMAN, RED LAKE BAND OF 
             CHIPPEWA INDIANS, RED LAKE, MINNESOTA

    Mr. Whitefeather. [Speaking in Obijwe.]
    Mr. Chairman, members of the Committee--
    Mr. Kildee. May I respond with: [Speaking in Obijwe.]
    [Laughter.]
    Mr. Whitefeather. Members of the Committee, my name is 
Bobby Whitefeather. I am the tribal Chairman of the Red Lake 
Band of Chippewa Indians. And as is my custom and tradition in 
my culture, I introduce myself in our language.
    And it is my pleasure to testify before you here this 
morning and express our support for the measure called CARA.
    And as a brief introduction to my homeland, we reside in 
northern Minnesota, comprising approximately 850,000 acres of 
land and water. And I must say, 80 percent is comprised of 
wetlands, wildlife, and water, so we are very aware of the 
responsibilities that we have for the protection of natural 
resources.
    And as well, certainly tribal nations across this country 
being the original stewards of the land now called America, we 
are grateful that CARA is going to include tribal 
participation, which is critical because of the land base that 
tribes currently hold, presently, which amounts to about 2.25 
percent of the entire land base of the United States.
    Last session, CARA Lite was introduced, and we were 
certainly grateful for the inclusion of tribal nations within 
CARA Lite during the last session. However, we were greatly 
disappointed that even though we were included as being 
eligible for funding under certain provisions of CARA Lite, 
tribes weren't allocated to any funding that was available. So 
that was a great disappointment.
    This morning, my testimony will focus on Titles II, III, 
and VI of CARA, as being proposed. And, again, while we are 
tankful for tribal inclusion, we, again, find it very 
disturbing if not unusual that there is a prohibition for 
tribes to participate in the land acquisition section of Title 
II.
    We as tribes are cognizant of our responsibilities as 
stewards of natural resources, and to disqualify us from this 
particular section we feel is not right and not just.
    Also, I would like to address the funding formula under 
Title II. And in order for us as tribes to demonstrate fairness 
and equity to tribes amongst us, we ask that the allocation 
formula and the maximum amount of availability to a single 
tribe be adjusted from 10 percent to 5 percent.
    That adjustment will allow that more tribes will have 
access to the funding. As you know, there are approximately 
560-plus tribes across this country.
    Under Title III, as I said before, 2.25 percent of the 
allocation for tribes is being appropriated, and we thank the 
Committee for recognizing what we see as a past oversight or 
inequity in not making the funds available to the tribes.
    This new funding opportunity will certainly allow us to 
greatly enhance our efforts at protecting our natural 
resources, and land and water conservation efforts.
    Under Title III, however, we do suggest that statutory 
language be included so that the 2.25% distribution methodology 
reflects the formula of two-thirds land and one-third 
population. This will enable tribes that are eligible, to 
properly allocate their resources based on that methodology.
    We also ask that tribes that are eligible to access the 
funding have existing conservation programs, or a plan or 
strategy in place so that there would be adequate funding to 
begin their programs.
    Finally, under Title III, statutory language needs to be 
added so that any undistributed funds be redirected back to 
funded tribes on a proportional basis.
    Under Title VI, we strongly urge the Committee to keep 
Title VI intact because we as tribes have very limited funding 
to protect our natural resources due to budget reductions that 
we experienced over the last few years, amounting to in excess 
of 20 percent, and thereby greatly straining our existing 
resources and putting additional burden on our limited staff of 
biologists, technicians, and so forth.
    In conclusion, Mr. Chairman and members of the Committee, 
we as the first Americans realize that protection of Mother 
Earth is of the greatest importance. And CARA, as a national 
conservation measure, represents the greatest opportunity for 
all of us to leave a lasting legacy.
    We hope and pray that the Committee will find the necessary 
way to include tribes in CARA so that we also, as stewards of 
our homeland, can offer its protection in order for us to 
remain connected to our culture and a way of life that has been 
handed down to us through generations.
    I thank the Committee for your time and the opportunity to 
testify. And as always, before I go home, I must invite you. 
And grandma requires that I invite you to come visit our 
homeland any time I meet new friends and make new 
acquaintances.
    So with that, Mr. Chairman and members of the Committee, I 
would be pleased to answer any questions. And again, thank you 
for the opportunity to testify.
    [The prepared statement of Mr. Whitefeather follows:]

Statement of The Honorable Bobby Whitefeather, Chairman, Red Lake Band 
                   of Chippewa Indians Tribal Council

    Mr. Chairman, I thank you and the other distinguished members of 
the Committee for this opportunity to provide testimony on behalf of 
the Red Lake Band of Chippewa Indians, concerning H.R. 701, the 
Conservation and Reinvestment Act (CARA) legislation. The Red Lake Band 
is a Native American Indian tribal government recognized by the United 
States government.
    Red Lake and, I believe it is safe to say, most of the 561 
federally-recognized Indian tribes across the country, strongly support 
CARA and the lasting benefits it will provide for conservation and 
future generations of Americans. I thank this Committee and the 
Congress for recent improvements made to CARA with respect to tribal 
government participation, most notably the 2.25 % proportional funding 
share provision included within Title III. I also thank the House 
Appropriations Committee for retaining $5 million of President Bush's 
proposed $10 million fiscal year 2002 tribal allocation under the Land 
and Water Conservation Fund (LWCF) state grant program. These actions 
signal a recognition by the Administration and the Congress of the 
great need tribes have for conservation funding, and I am very pleased 
to see these improvements.
    The enactment of CARA, and the direct participation by tribes in 
CARA-supported programs, is absolutely critical to Indian tribes. Like 
states, tribes have governmental responsibilities for the conservation 
of fish, wildlife, and other resources on their lands. Like states, 
tribes regulate hunting and fishing and gathering on their lands. Like 
states, tribes would receive critically needed conservation funding 
under CARA. But unfortunately, when CARA died late last year and CARA 
``Lite'' was enacted, tribes were completely shut out from the CARA 
Lite conservation funding, unlike states and local governments.
    CARA Lite, as you know, was enacted as a new Title VIII, Land 
Conservation, Preservation and Infrastructure Improvement to the Fiscal 
Year 2001 Interior Appropriations Bill, H.R. 4578. To our dismay, 
virtually none of the tribal allocations from either the House or 
Senate versions of CARA last year were included in CARA Lite, leaving 
tribes with nothing for their conservation responsibilities. After an 
additional $50 million was added for wildlife conservation to Sections 
901 and 902 of Title IX, Wildlife, Ocean and Coastal Conservation in 
the Fiscal Year 2001 Commerce, Justice, State, and Judiciary 
Appropriations (CJS) bill, tribes were further shocked to discover 
that, at the last minute during the final House-Senate conference, the 
tribal allocation percentage was dropped, leaving tribes as technically 
eligible to receive funds but with no allocation. These actions 
represented significant blows to tribal conservation efforts after 
years of cooperative effort in support of the campaign for CARA.
    My testimony today will focus on CARA Titles II, III, and VI, as 
they contain provisions of critical concern to tribes. I will suggest 
minor modifications which would make major improvements to these 
titles. But first I want to provide some background information about 
the Red Lake Nation and our Reservation, information which I believe 
will assist you in judging the merits of our requests.
Red Lake People and Resources
    Red Lake is a relatively large Tribe with 9,300 members. Our 
841,000 acre Reservation, located in northwestern Minnesota, is held in 
trust for the Tribe by the United States. While it has been diminished 
in overall size, our Reservation has never been broken apart or 
allotted to individuals. Nor has our Reservation ever been subjected to 
the criminal or civil jurisdiction of the State of Minnesota. 
Consequently, we have a relatively large land and water area over which 
the Tribe exercises exclusive governmental authority and control in 
conjunction with the United States.
    Red Lake Band members'' lives center around a seasonal cycle of 
reliance on natural resources. Fishing, hunting, and gathering 
activities are as vital to our survival today as they were 200 years 
ago. Time has certainly changed some aspects of this cycle. The desires 
of Band members to purchase modern-day products and goods has led to a 
resource-based cash economy of fishing and logging that began early in 
the 20th century and continues today. However, concerns about resource 
depletion in recent years have led us to seek out economic 
diversification.
    Due in part to our Reservation's location far from centers of 
population and commerce, we have few jobs available in the private 
sector economy. While unemployment rates throughout America have 
dropped to historically low levels, our unemployment rate remains at an 
outrageously high level of 60%. The lack of good roads, communications, 
and other necessary infrastructure continues to hold back economic 
development and job opportunities. We have had limited success with 
gaming, but our remote location prevents the type of often-cited, 
large-scale gaming operations run by a small handful of tribes 
throughout America. The limited gaming revenues we do receive are 
devoted to human-services programs like meals for the elderly, our 
nursing home, and community-based activities devoted to meeting the 
pressing needs of people who live on the edge of survival on our 
impoverished Reservation.
    Relatively speaking, our resources are vast and important to many 
people who are our neighbors beyond our Reservation borders. The 
resources for which the Red Lake Band, not the State of Minnesota, is 
responsible, include 350,000 acres of forests, 471,000 acres of 
wetlands (including forested wetlands), 237,000 acres of lakes, and 55 
miles of rivers and streams. Title to all of these resources is held in 
trust status for the benefit of the Red Lake Band by the United States. 
Many of our resources are truly unique.
    Our Reservation includes much of northern Minnesota's patterned 
peatlands, which have received worldwide scientific recognition because 
ours is the largest peatland resource outside of Alaska and because 
many rare and endangered species reside in these areas.
    Our Tribe's natural namesake, the Red Lake, is the sixth largest 
natural, freshwater lake in the United States. While it has never been 
included as a sixth Great Lake, Red Lake is ``greater'' in size than 
Lake Champlain which, with some controversy, was temporarily bestowed 
that status several funding cycles ago.
    Until just recently, Red Lake was home to the largest and longest 
continuously operated freshwater commercial fishery in America and 
provided important employment for some 500 reservation families. 
Unfortunately, similar to the fate of commercial fisheries the world 
over, stocks of walleye, which were the principal commercial Red Lake 
species, collapsed in the mid-1990s forcing the Tribe to close our 
fishery for the first time since the beginning of World War I. The 
Tribe has since implemented an aggressive recovery plan in conjunction 
with the federal government and the State of Minnesota. Ours is the 
largest freshwater fish species recovery program in America today.
    I have provided the above information to help you understand that 
we have been blessed with abundant natural resources, and the 
conservation and perpetuation of these resources is extremely important 
to my people and their direct survival needs.
Resource Management Funding Inequities
    Our tribal resources are managed by a small but dedicated group of 
biologists, technicians, and wardens. Our relatively meager natural 
resources funding comes primarily from Bureau of Indian Affairs (BIA) 
programs. Unfortunately, recent federal budget cuts in BIA natural 
resource funding have diminished our resource management capacity by 
20% in just the last five years. We have attempted to make up the 
difference by seeking outside grant funds, but the opportunities are 
very limited, especially for fish and wildlife conservation. Still, we 
do the best we can with the limited funds we have.
    For the most part, tribes have been left out of authorizing 
language for federal conservation programs, even though these programs 
were enacted to conserve all of America's resources, and even though 
tribes are responsible for managing more than 2.25% of the land 
resource base within the United States. For example, tribes cannot 
access substantial funding sources like the Federal Aid in Fish and 
Wildlife Restoration Acts of 1950 and 1937. These acts levy excise 
taxes on hunting and fishing equipment, and allocate the proceeds 
(about $450 million annually) to the fifty states, territories, and the 
District of Columbia for fish and wildlife programs. Tribal members who 
hunt and fish pay these excise taxes just like all Americans, but none 
of these revenues come back to tribes to fund programs which benefit 
fish and wildlife on that portion of America under tribal jurisdiction.
Tribal Request to Remove Prohibition on Land Acquisition in CARA Title 
        II
    I thank the Committee for including tribes as an eligible entity to 
receive funds under the Land and Water Conservation Fund (LWCF), which 
has, as its major focus, the purchase of land for conservation. But a 
prohibition in Title II of H.R. 701 that applies only to Indian tribes 
would prevent tribes from acquiring land for conservation purposes. 
This prohibition makes no sense, because any land acquired with LWCF 
funds must be used only for public outdoor recreation uses. I ask that 
the prohibition on tribal land acquisition be removed, and that tribes 
be subject to the same benefits and responsibilities as the states and 
the territories.
    I also request that language be included requiring the Secretary of 
Interior to consult with tribes in the development of the competitive 
grant program for allocation of funds to tribes under this title, 
consistent with the government-to-government relationship.
    Finally, I ask that the maximum amount available to a single tribe 
in any year be limited to 5% rather than the 10% currently used in the 
bill, in order to ensure that more of these funds reach more tribal 
programs. In Attachment A, we have provided proposed amendment language 
for Title II which addresses the concerns I have raised.
Tribal Access to CARA Title III
    I thank the Committee for including the 2.25% allocation in Title 
III of H.R. 701. Tribes have long proposed that on the basis of 
fairness and equity, we should receive 2.25% of new conservation 
funding, including the new subaccount to be created by Title III in the 
federal aid to wildlife restoration fund. This 2.25 percentage is based 
on the ratio of Indian trust land to the rest of the land area of the 
United States. No Federal Aid funds now go towards fish and wildlife 
conservation efforts on these lands for which tribes are responsible. I 
am grateful that this Committee has recognized the inequities and 
included a 2.25% allocation in Title III.
    I appreciate the Committee's effort to find statutory language by 
which the 2.25% share can be fairly allocated among the various tribes. 
We believe statutory distribution language is necessary to ensure a 
reliable base of core funding that Indian tribes can count upon from 
year to year. The present language would divide the funds among tribal 
conservation programs on the basis of 1/3 land and 2/3 population. As 
the Committee further deliberates on the CARA provisions, we ask that 
you give some consideration to amending this provision so as to 
allocate funds on the basis of 2/3 land and 1/3 population. Obviously, 
wildlife conservation funding needs rise incrementally in relation to 
the amount of trust land acreage a tribe is responsible for managing. 
Therefore it makes sense to have greater weight apply to the trust land 
acreage of a tribe, while still including a factor to reflect that 
tribe's population of users. We also ask that language be added to 
clarify that funds allocated under this section, upon application by a 
tribe, shall be used by a tribe only to support an established wildlife 
conservation and restoration program or to develop a wildlife 
conservation plan or strategy. Finally, since some tribes may not apply 
or develop conservation programs, I ask that language be added which 
specifies that any of the 2.25% allocation which remains undistributed 
to tribes near the end of the fiscal year should be redistributed on a 
proportional basis to those tribes who received distributions that 
year. In Attachment B, we have provided proposed amendment language for 
Title III to address these issues.
Keep CARA Title VI Intact
    Title VI of H.R. 701, Federal and Indian Lands Restoration, 
provides up to $200 million annually for a coordinated program on 
federal and Indian lands to restore degraded lands, protect resources 
that are threatened with degradation, and protect public health and 
safety. Of this amount, 60% would be allocated for Department of 
Interior lands, 30% would be allocated for Department of Agriculture 
lands, and 10% would be allocated for Indian lands. This allocation 
formula is based on acreage.
    Like the federal government and the states, tribes have an immense 
wealth of natural resources under their management and care. However, 
tribes lag far behind the federal government and the states in our 
capacity to protect these resources. The development of this capacity 
takes time and dedicated financial resources, and tribes have long been 
disadvantaged in this area.
    The $20 million allocated to tribes under this title is modest when 
you consider that it must be spread among more than 550 tribal 
governments and 56 million acres of Indian trust land. However, it does 
represent a critically important source of funds, and I strongly urge 
you to ensure that Title VI is kept intact in the final CARA 
legislation.
    We do ask that the maximum amount available to a single tribe in 
any year be limited to 5% rather than the 10% cap used in the current 
version of CARA. We also ask that language be included in Title VI 
requiring the Secretary of Interior to consult with tribes in the 
development of the competitive grant program for allocation of funds to 
tribes, again, to reflect the government-to-government relationship. In 
Attachment C, we have provided a proposed amendment that would do this.
Conclusions
    The protection of America's natural resources is of immense 
importance. CARA represents perhaps the greatest opportunity ever to 
provide a lasting legacy of resource preservation for future 
generations of Americans. CARA is consistent with the First Americans'' 
view of protecting Mother Earth.
    Because tribes were left out of Title VIII, Land Conservation, 
Preservation and Infrastructure Improvement to the Fiscal Year 2001 
Interior Appropriations Bill, H.R. 4578, our hope lies in the enactment 
of CARA this year. If tribes are to preserve our resources and our way 
of life, we need access to funds in a manner similar to other agencies 
charged with the protection of America's land and water. I sincerely 
hope that you, and this Committee's colleagues in the Congress, will 
take my words to heart, and do the right thing on behalf of America's 
Indian tribes.
    I have attached to this testimony proposed amendment language for 
CARA Titles II, III and VI, which addresses the issues I have raised 
today. Also attached is further background information which justifies 
our request. I would be pleased to provide any additional information 
you need. I thank you for the opportunity to present testimony today on 
behalf of the Red Lake Band of Chippewa Indians.Attachment A
                                 ______
                                 
                              ATTACHMENT A

         Tribal Amendments Proposed to CARA Title II--H.R. 701

    H.R. 701 (As introduced in the House of Representatives on February 
14, 2001) (GPO's PDF version)
    On page 36, line 7, just after ``...rule.'' insert:
        ``The Secretary shall develop the competitive grant program in 
        consultation with Indian tribes and with the active 
        participation of a joint, federal and tribal workgroup, 
        composed of a BIA and a tribal representative from each BIA 
        region.''
    On page 36, line 12, strike ``10'' and replace with ``5''
    On page 36, line 14, strike ``Funds''
    On page 36, strike lines 15 through 18
                                 ______
                                 
                              ATTACHMENT B

         Tribal Amendments Proposed to CARA Title III--H.R. 701

    H.R. 701 (As introduced in the House of Representatives on February 
14, 2001) (GPO's PDF version)
    On page 45, line 12, strike ``not more''
    On page 45, line 13, strike ``than''
    On page 45, line 14, strike ``1/3'' and replace with ``2/3''
    On page 45, line 18, strike ``2/3'' and replace with ``1/3''
    On page 45, Insert at the end of line 24, the following two new 
sentences:
        ``Such amounts may be used by a tribe only to support or 
        develop a wildlife conservation or restoration program or plan, 
        and, upon application, shall be distributed to tribes before 
        July 1st of each fiscal year. Should any of the 2 1/4 percent 
        apportionment remain undistributed on July 1st of each fiscal 
        year, such remainder shall be distributed on a proportional 
        basis to those tribes previously receiving distributions that 
        year under this subsection.''
                                 ______
                                 
                              ATTACHMENT C

         Tribal Amendments Proposed to CARA Title VI--H.R. 701

    H.R. 701 (As introduced in the House of Representatives on February 
14, 2001) (GPO's PDF version)
    On page 59, at the end of line 2, insert:
        ``The Secretary shall develop the competitive grant program in 
        consultation with Indian tribes and with the active 
        participation of a joint, federal and tribal workgroup, 
        composed of a BIA and a tribal representative from each BIA 
        region.''
    On page 59, line 5, strike ``10'' and replace with ``5''
                                 ______
                                 
    Mr. Thornberry. Thank you, sir. I appreciate your 
testimony.
    I would inform the other members that the House in recess 
until about 1:30, at which time we will have further votes.
    Mr. Kildee?
    Mr. Kildee. I thank you. I want to thank the entire panel 
for their testimony. This bill is very near and dear to me. I 
am one of the original cosponsors.
    And, Chairman Whitefeather, I certainly recognize the fact 
that you and I need to work together with Ms. McCollum to try 
to recognize that, as a sovereign government, you should be 
treated like the other sovereign governments in the United 
States.
    So hopefully, during the process of enacting this bill, we 
can recognize that our own Constitution states that the 
Congress shall have the power to regulate commerce with foreign 
nations and among the several states and with the Indian 
tribes. And that does narrate, gives a list, of the three 
sovereignties that the Constitution recognizes, doesn't grant. 
Your sovereignty is a retained sovereignty under the decisions 
of the U.S. Supreme Court.
    So I would like to work with you to see how we can be more 
sensitive to the needs of your sovereign nation.
    Thank you very much for your testimony.
    Mr. Whitefeather. [Speaking in Obijwe.]
    Mr. Thornberry. Thank you.
    Ms. McCollum, do you have any questions?
    Ms. McCollum. No, Mr. Chairman.
    Mr. Thornberry. Let me thank the panel for your testimony. 
I appreciate you being here and hearing your perspectives.
    And we will go ahead and call up the third panel at this 
time: Mr. David Waller, director, Georgia Division of Wildlife, 
Department of Natural Resources, Social Circle, Georgia; Mr. 
Edward F. Sanderson, president, National Conference of State 
Historic Preservation Officers, Washington, DC; Ms. F. Patricia 
Callahan, president, American Association of Small Property 
Owners, Washington, DC.
    Let me welcome each of you to the hearing today, and I 
appreciate your willingness to testify.
    Mr. Waller, we will begin with you.

   STATEMENT OF DAVID WALLER, DIRECTOR, GEORGIA DIVISION OF 
   WILDLIFE, DEPARTMENT OF NATURAL RESOURCES, SOCIAL CIRCLE, 
                            GEORGIA

    Mr. Waller. Thank you, Mr. Chairman. My name is David 
Waller, and I am director of the Georgia Wildlife Resources 
Division and a past president of the International Association 
of Fish and Wildlife Agencies.
    As you are aware, all 50 states are members of the 
association and strongly support H.R. 701. The wildlife 
agencies and the international have been working on this for 
several years. We worked in building a coalition across the 
country, and it has been mentioned many times about how broad 
that coalition is. But it represents a truly grassroots 
support, including business and industry, conservation 
organizations, elected officials, governors, mayors, city 
council members, support this. The recreational community 
supports it, soccer moms.
    So it has tremendous support across America.
    This bill is a bipartisan, consensus-built, common-sense 
approach to conservation that makes good economic sense, good 
common sense, and good political sense.
    I would like to thank you for your efforts last year in 
basically passing the same bill out of the House of 
Representatives. We came so close last year, and that created 
the momentum that brings us back here today to consider a bill 
that is currently cosponsored by over half the House. And what 
we want to do is finish the job this year.
    The support of the American people for CARA, which 
dedicates assured funding for conservation, sends a clear 
message that certainty for conservation program funding has 
finally achieved the standing in the national budget that it 
truly deserves.
    As you know and appreciate, natural resource, conservation, 
recreation programs contribute significantly to our quality of 
life, our socioeconomic stability, and our nation's health and 
well-being. Stewardship of our fish and wildlife, land, 
coastal, and cultural resources is important to every one of 
our citizens. It is particularly important to future 
generations who will benefit from our care for these resources.
    Good stewardship cannot be imposed from Washington, DC, or 
defined by regulation. It needs to be supported at the state 
and the community level where we live.
    It is clear that our nation's long-term resource 
conservation challenges can't be solved by one-time fixes or 
cookie-cutter answers or simply passing more regulations. The 
history of fluctuations and constantly shifting priorities of 
year-to-year appropriations has proven that annual funding 
simply is not adequate to meet current needs or address future 
problems.
    There needs to be a comprehensive and sustained Federal, 
state, and local stewardship commitment. For these reasons, 
assured funding and state-based decisionmaking are the most 
important provisions of CARA.
    As you know, Mr. Chairman, conserving fish and wildlife 
species is not a quick fix. Restoring declining species to a 
sustainable level is a complex, multiyear endeavor that 
requires a certainty of available funding for success.
    We have learned this from our experience with game and 
sport fish species where assured funding was made available for 
these efforts. And that is why our wildlife populations across 
the country are in such good shape.
    But there is no such funding currently available with any 
certainty to address the many imperiled nongame species. With 
assured and dedicated funding, we can implement proactive 
conservation programs to address the early warning signs of 
declining species. And it is a ``pay a little now,'' or ``pay a 
lot more later'' situation after species are added to the 
endangered species list.
    And that has been brought up many times, about the problems 
with endangered species. And this is a preventative maintenance 
program that will keeps species off that list.
    Assured long-term funding is also necessary to create 
incentives, providing technical and financial assistance for 
private landowners, which include such things as cooperative 
agreements with resource agencies to accomplish conservation 
objectives.
    These efforts would be designed to reduce the need to list 
endangered species by funding preventative conservation 
programs that restore declining species before they reach a 
point where listing is necessary. This helps the landowner 
become part of the solution.
    Also, as you know, Mr. Chairman, outdoor recreation is the 
fastest growing industry in this country. And CARA will 
position the state fish and wildlife agencies to help local 
communities identify and take advantage of wildlife-related 
tourism opportunities. Programs to capture these opportunities 
can significantly enhance the economy of these rural 
communities.
    And last but not least, there is a huge need for 
conservation and education programs in these counties. I go 
into schools every year across Georgia, and you can do the same 
thing in your state, and you will be shocked at the lack of 
information children have. Most of them don't even know that 
milk comes from a cow or a cow bites the dust when they get a 
hamburger at McDonald's.
    So there is a huge need for that. And CARA provides funding 
for conservation education.
    And I see my time has run out, but I would encourage you to 
please move forward with this bill and move it through the 
House as soon as you can to get it over to the Senate where we 
will have more time to work on it for next year.
    Mr. Chairman, I have one more request that some of our 
coalition asked, and I don't know the protocol, but they asked 
if you could keep the record open for another week or two so 
they could get in some--they would like to write in and make 
comments on it, too.
    [The prepared statement of Mr. Waller follows:]

Statement of David Waller, past President, International Association of 
                       Fish and Wildlife Agencies

    Thank you, Mr. Chairman. My name is David Waller, Director of the 
Georgia Wildlife Resources Division, and a past President of the 
International Association of Fish and Wildlife Agencies. As you are 
aware, all 50 states are members of the Association.
    The Association sincerely appreciates the opportunity to appear 
before your Committee today to share with you the collective and 
continued strong support of the 50 State Fish and Wildlife Agencies for 
H.R. 701, the Conservation and Reinvestment Act, a bill that will 
ensure a conservation legacy for all Americans. This bill is 
unquestionably the most significant legislative initiative for fish and 
wildlife (and other natural resources) conservation in the last several 
decades. Whether you hunt, fish, bird watch, hike, play soccer or just 
enjoy the peace and tranquility of being outdoors appreciating the vast 
natural bounty of our Nation, this bill will ensure that our children 
and future generations will enjoy this bountiful natural wealth.
    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's fish and 
wildlife resources. The Association's governmental members include the 
fish and wildlife agencies of the states, provinces, and federal 
governments of the U.S., Canada, and Mexico. The Association has been a 
key organization in promoting sound resource management and 
strengthening federal, state, and private cooperation in protecting and 
managing fish and wildlife and their habitats in the public interest.
    Let me also thank you, Chairman Hansen, and Chairman Young, 
Congressman Dingell, Congressman Miller, Congressman Tauzin, 
Congressman John and many others for your efforts in passing 
essentially this same bill out of the House in the last Congress. 
Although the bill was never acted on by the full Senate in the last 
Congress, your efforts to dedicate assured funding to state-based 
conservation and recreation programs captured the overwhelming support 
of the American public and your House colleagues as well as support 
from most Senators. It has created the momentum that brings us back 
here today to consider a bill that is currently cosponsored by over 
one-half of the House. Mr. Chairman, we remain as committed to working 
with you this Congress as in the last, and in this Congress, we fully 
expect to join you in the Rose Garden for the ceremony signing CARA 
into law.
    The overwhelmingly bipartisan House vote in the last Congress, and 
robust sponsorship in this Congress for H.R. 701 clearly shows that 
conservation programs are an extremely high priority for the American 
people. The support for CARA, which dedicates assured funding for 
conservation, sends an unmistakable message that certainty for 
conservation program funding has finally achieved the standing in the 
national budget that it truly deserves. As you know and appreciate, Mr. 
Chairman, natural resource conservation and recreation programs 
contribute significantly to our quality of life, our socio-economic 
stability, and our Nation's health and well-being. Just as Social 
Security is a financial safety net, conservation of our natural 
resources is resource safety net for both this and future generations. 
Unless Congress makes a multi-year commitment to conservation, history 
indicates that we postpone conservation efforts which then cost more 
and result in substantial impact on private and public land because 
species become threatened and endangered.
    Stewardship of our fish and wildlife, land, coastal, and cultural 
resources is important to every one of our citizens. It is particularly 
important to future generations who will benefit from our prudent care 
for these resources or be burdened by our failure to do so. Good 
stewardship cannot be imposed from Washington, DC, or defined by 
regulation; it needs to be nurtured and supported at the state and 
community level where we live. It is clear that our nation's long-term 
resource conservation challenges cannot be solved by one-time fixes, 
cookie-cutter answers, or simply passing more regulations. The history 
of fluctuations and constantly shifting priorities of year-to-year 
appropriations underscores the fact that annual funding simply is not 
adequate to meet current needs or address future problems. There needs 
to be a comprehensive and sustained federal, state and local 
stewardship commitment. For these reasons, assured funding and state-
based decision making are the most important fundamental provisions of 
CARA.
    As you know, Mr. Chairman, conserving fish and wildlife species is 
not a one-time fix. Restoring declining species to a sustainable level 
is a complex, multi-year endeavor that requires the certainty of 
available funding for success. As an example, restoring the nation's 
symbol--the bald eagle--to its current status has taken four decades. 
It took a lot more than banning the use of certain pesticides to 
achieve this goal. In this case, funds were available under the 
Endangered Species Act, but no such funding is currently available with 
any certainty to address the many imperiled nongame species from which 
ranks will come the next listed species. With assured and dedicated 
funding, we can implement proactive conservation to address the early 
warning signs of decline. It is less expensive to restore species, and 
our opportunities to use voluntary incentive based, non-regulatory 
programs are much greater than when a species comes under the authority 
of the ESA. Also history indicates it is not only expensive to restore 
an endangered species but it may be too late.
    Our experience with game and sportfish species also demonstrates 
the success of wildlife conservation efforts when dedicated and assured 
funding is available. As you know, Mr. Chairman, at the beginning of 
the last century, America's fish and wildlife populations were in dire 
circumstances from several factors. Through the dedicated efforts of 
the sportsmen and sportswomen of this country, working with the hunting 
and fishing equipment industry and state and federal fish and wildlife 
agencies, Congress statutorily established the Federal Aid in Wildlife 
Restoration Act (Pittman-Robertson) in 1937 and Federal Aid in 
Sportfish Restoration Act (Dingell-Johnson/Wallop-Breaux) in 1950 to 
provide dedicated and assured funding to the State fish and wildlife 
agencies for game and sportfish species. Those funds, along with 
license fees paid by hunters and anglers, have provided the foundation 
for America's successful fish and wildlife conservation programs over 
many years in bringing back species like the white-tailed deer, 
pronghorn antelope, wood duck, wild turkey and striped bass. Now is the 
time to duplicate that success with funding provided under CARA that 
include those fish and wildlife species (nongame species) that are 
neither game nor sportfish, but constitute the majority of fish and 
wildlife in this country. We have the expertise, we have the will, and 
with assured funding from CARA, we will have the resources to duplicate 
our successes which make our system of fish and wildlife conservation 
the model which other countries seek to emulate.
    Also, as you are aware, assured, long-term funding is necessary to 
create incentives for private landowners to provide technical and 
financial assistance which include such things as cooperative 
agreements with resource agencies to accomplish conservation 
objectives. These efforts would be designed to reduce the need to list 
endangered species by funding preventative conservation programs that 
restore declining species before they reach a point where listing is 
necessary. This helps landowners to become part of the solution through 
non-regulatory, incentive-based programs that can integrate their land 
management intentions with fish and wildlife conservation efforts.
    We look forward to working with you to expeditiously report H.R. 
701 out of your Committee, and pass it out of the House before the 
August recess. Let's take advantage of the tremendous opportunity 
afforded us in this bill to do something for all Americans!
    The Association has testified several times before this Committee 
(and others) in the last Congress on H.R. 701 and other proposals that 
would dedicate Outer Continental Shelf (OCS) revenues to State-based 
enhanced programs for fish and wildlife conservation, conservation 
education, and wildlife associated recreation; land and water 
conservation; outdoor recreation; and coastal conservation and impact 
assistance. The Association strongly supports the Conservation and 
Reinvestment Act because it is a bipartisan, consensus-built, and 
common sense approach to conservation that makes good economic sense, 
good common sense, and good political sense.
    We also sincerely appreciate the work of you and the other CARA 
champions, on and off this Committee, in amending the Wildlife 
Conservation and Restoration Program (Title III) authorizing language 
into the Pittman-Robertson statute last year through the enactment of 
the fiscal year 2001 Commerce, Justice, State, the Judiciary and 
Related Agencies Appropriations act. That law, again through your and 
many other members'' supportive efforts, also made available to the 
State fish and wildlife agencies a one-time appropriation of $50 
million to be apportioned to and expended by the States under the terms 
and conditions of the Wildlife Conservation and Restoration Program. I 
wanted to share with you that, through a truly cooperative effort 
between the US Fish and Wildlife Service and the State Fish and 
Wildlife agencies, all states and territories have been expeditiously 
qualified for their apportionment and are currently submitting their 
projects for expenditure approval so that they can do good things on 
the ground for fish and wildlife and our citizens. This was a good 
start, but as you know, more funding with greater assurances is 
necessary to meet the needs.
    The coalition of over 4500 organizations that has come together in 
support of CARA, and worked so tirelessly for House passage in the last 
Congress and is doing so again now, truly represents both broad and 
diverse grass-root support of the business community, conservation 
organizations, elected officials at all levels of governments, 
industry, the recreation community and other interests. Citizens from 
``soccer moms'' to hunters and wildlife photographers strongly support 
CARA. Our common goal is to bring dedicated, consistent funding to 
state-based fish and wildlife conservation programs; land and water 
conservation; coastal conservation and environmental programs; state 
and local outdoor recreation; historic preservation; and incentives for 
our landowners to continue good stewardship of their land in open space 
uses as farmland, ranchland and forest land. CARA places decisions on 
identifying needs and spending priorities at the State and local level 
which we believe can best reflect the interest of our citizens, and, it 
does that while giving greater protection than exists in current law to 
private property owners with respect to federal land acquisition. This 
coalition truly represents America's interest in our natural and 
cultural heritage, and our need to conserve that heritage for future 
generations.
    As we have testified many times before, the most significant 
benefit of CARA to fish and wildlife conservation is that the State 
fish and wildlife agencies will finally be in a position to take 
preventative conservation measures to address the life needs and 
habitat requirements of declining species before they reach a status 
where they must be listed as endangered or threatened species. This 
will save money and prevent the social and economic disruption 
associated with species being threatened or endangered. By acting 
proactively when more conservation options are available to us, the 
State fish and wildlife agencies can work cooperatively with private 
landowners through voluntary, non-regulatory means such as incentives, 
technical assistance, easements, and other such measures. Prevention 
makes good biological sense, good economic sense, and good common 
sense. Preventative conservation now is an investment that will 
continue to pay dividends far into the future. It simply costs much 
less to conserve fish and wildlife species by responding to early 
warning signs of decline, than it does to recover these species once 
they have to be listed.
    Also, as you know, Mr. Chairman, outdoor recreation is the fastest 
growing industry in this country, and CARA will position the State fish 
and wildlife agencies to help local communities identify and take 
advantage of wildlife related tourism opportunities. Programs to 
capture these opportunities can significantly enhance the economy of 
these rural communities.
    Let me briefly share with you today two perfecting amendments the 
Association would urge be made to the Wildlife Title (Title III) of the 
Conservation and Reinvestment Act. The Association staff will continue 
to work closely with your Committee staff on the details of some other 
technical or clarifying language suggestions.
    First, we would ask for your serious consideration of eliminating 
the 10% spending cap restriction on wildlife related recreation 
expenses. In 1996, over 62 million Americans participated in wildlife 
viewing with an economic impact of nearly $30 billion. Wildlife related 
recreation is critical in the fostering of the public's commitment to 
wildlife conservation--in short, responsible nature-based tourism 
development, the promotion of nature and birding festivals, active 
wildlife-watching skill-building, and other creative activities build 
and sustain a growing wildlife conservation constituency. Although we 
recognize the concern that infrastructure needs might divert needed 
funding away from on the ground conservation, states need to be able to 
provide quality, safe opportunities for wildlife viewing and 
photography which are not only highly popular but provide significant 
economic benefits to communities. Such wildlife recreation 
opportunities would be provided consistent with other needs for 
wildlife management. Also, one-time capital investments to provide 
wildlife related recreation facilities while maintaining ongoing 
programs could require more funding than the 10% annual cap would 
allow. State fish and wildlife agencies are in the best position to 
decide what mix of Title III funds should be applied to conservation, 
wildlife associated recreation, and conservation education, and we 
encourage your support for eliminating the 10% cap on expenditures for 
wildlife associated recreation.
    Second, we strongly encourage you to allow, at the discretion of 
the State fish and wildlife agency, the expenditure of up to 10% of the 
Title III funds for conservation law enforcement activities. As you 
know, state fish and wildlife conservation officers have many 
opportunities to work with landowners and the public to implement 
voluntary, proactive fish and wildlife protection and public education 
and outreach programs. They also prevent poaching, or over-utilization 
of fish and wildlife resources, thereby reducing the likelihood that a 
species may become threatened or endangered in the future. Further, 
they provide for public safety, security, search and rescue functions, 
and resolution of outdoor user conflicts. In short, conservation law 
enforcement is an integral component of a comprehensive state fish and 
wildlife program and should, at the discretion of the State Director, 
be eligible for up to 10% funding under CARA.
    Mr. Chairman, in closing, the Association stands ready to assist 
you in whatever way we can to make programs which would be funded under 
CARA a reality for all of our citizens. Let's work together to pass 
this landmark legislation now, and provide a future for our citizens 
that we can all be proud of passing on.
    We would be pleased to answer any questions the Committee may have.
    Thank you for the opportunity to share the Association's 
perspectives with you.
                                 ______
                                 
    The Chairman. [Presiding.] I appreciate that, and we will 
honor that request.
    Mr. Sanderson?

     STATEMENT OF EDWARD F. SANDERSON, PRESIDENT, NATIONAL 
CONFERENCE OF STATE HISTORIC PRESERVATION OFFICERS, WASHINGTON, 
                               DC

    Mr. Sanderson. Mr. Chairman, thank you for the opportunity 
to speak to the Committee. My name is Ted Sanderson. I am the 
director of Rhode Island's Historical Preservation and Heritage 
Commission, and I am here today representing the National 
Conference of State Historic Preservation Officers as their 
president.
    We strongly support the concept of H.R. 701 to provide 
predictable, automatic withdrawals from the Historic 
Preservation Fund to states and tribes. And we thank the 
Committee for including the Historic Preservation Fund as Title 
V at its authorized level of $150 million per year.
    The National Conference of State Historic Preservation 
Officers is the association of state officials appointed by 
their governor to carry out the national Historic Preservation 
Act on behalf of the secretaries of interior and the Advisory 
Council on Historic Preservation.
    Today we are part of a broad coalition that strongly 
supports H.R. 701, and includes other state-based 
organizations, like the National Governors Association and the 
National Conference of State Legislators.
    When Congress created the Historic Preservation Fund in 
1976, it made a promise to preserve America's heritage. Part of 
the proceeds from the sale of nonrenewable oil and gas 
resources would be used to fund the long-term conservation of 
historic places. But appropriations have fallen short of that 
promise and the nation's heritage is at risk.
    Only a third of the total authorized revenue in the 
Historic Preservation Fund has ever been appropriated. For 
fiscal year 2002, funding for states and tribes would be cut by 
20 percent. And the total appropriation for historic 
preservation would only be about half the authorized level.
    The consequence of this underfunding is a mounting backlog 
of unmet needs, historic buildings lost, and communities with 
few resources, struggling to save their heritage. Ironically, 
unappropriated revenue continues to accumulate in the Historic 
Preservation Fund.
    The funding provided by H.R. 701 is essential to fulfill 
Congress's promise to preserve America's heritage. Instead of 
creating a large bureaucracy, the Historic Preservation Fund 
enables each state to carry out historic preservation 
activities on behalf of the Federal Government.
    Our program is an excellent example of federalism. The 
Secretary of the Interior sets standards while state historic 
preservation officers do the actual work, and governors oversee 
the effective operation of the program in their state.
    The Historic Preservation Fund pays only half the cost of 
this national program, and states match the Federal dollars. 
This is cost-effective government that is responsive to local 
citizens.
    The National Historic Preservation Act created a rational 
approach to historic preservation. States identify the historic 
places within their boundaries, and with the involvement of the 
public, produce a historic preservation plan to set priorities.
    The Historic Preservation Fund matches nonfederal funds to 
carry out the program, and H.R. 701 will guarantee an adequate 
and predictable funding level.
    Congress understood that states are in the best position to 
have knowledge about the full range of historic properties and 
to make decisions in accordance with local needs and local 
conditions. For this reason, the act limited direct grants by 
the Secretary of Interior to 10 percent of the annual 
appropriation.
    But over the last few years, special category grants 
awarded from Washington have exceeded 40 percent of the annual 
appropriation. Coupled with low appropriations, this situation 
has choked the flow of funding originally envisioned by the 
Historic Preservation Fund.
    As a result, all across America, critical preservation 
projects are locked out from a large share of what funding is 
available. Language in Title V directing Historic Preservation 
Fund allocations to states and tribes will correct this 
situation.
    My written testimony recommends several specific changes to 
the bill. In the interest of time I won't discuss the details 
of those changes but ask that they be considered by the 
Committee. And I would be happy to answer any questions that 
you might have about it.
    In conclusion, our nation's heritage rests in the historic 
buildings, sites, and neighborhoods of towns and rural areas in 
each of the states. Historic places close to home are part of 
the heritage of the nation as a whole, and preserving them is 
the promise the Congress made in the National Historic 
Preservation Act and in the Historic Preservation Fund.
    States are fulfilling their part of the promise, working 
with citizens and local government. Now we ask that Congress 
fulfill its part of the promise by enacting H.R. 701 to 
guarantee full funding of $150 million per year.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sanderson follows:]

  Statement of Edward F. Sanderson, President, National Conference of 
State Historic Preservation Officers, Executive Director, Rhode Island 
            Historical Preservation and Heritage Commission

I. INTRODUCTION: EXPRESSION OF THANKS
    Thank you, Mr. Chairman, for the opportunity to speak to the 
committee. My name is Ted Sanderson. I'm the director of Rhode Island's 
Historical Preservation & Heritage Commission and President of the 
National Conference of State Historic Preservation Officers.
    The National Conference of State Historic Preservation Officers 
extends its thanks to House Resources Committee Chairman James Hanson 
for including the Historic Preservation Fund as Title V of H. R. 701, 
the Conservation and Reinvestment Act at its historically authorized 
level of $150,000,000. The National Conference further thanks Chairman 
Hansen, Ranking Member Rahall, and the Resources Committee for an 
invitation to testify on behalf of H. R. 701, particularly Title V.
    The National Conference of State Historic Preservation Officers 
strongly endorses the concept of H. R. 701 to provide predictable, 
automatic withdrawals from the Historic Preservation Fund to States and 
tribes.'
II. CONSERVATION AND REINVESTMENT ACT: A PROMISE KEPT FOR AMERICA'S 
        HERITAGE
    When Congress created the Historic Preservation Fund in 1976 it 
made a promise to America's heritage. A part of the proceeds from sale 
of non-renewable oil and gas
    'The National Conference, while fully supporting tribal historic 
preservation officers as a major part of the national historic 
preservation program, does not presume to represent or speak for Tribal 
Historic Preservation Offices or tribal interests. resources would be 
used to fund the long-term conservation of historic places. Less than a 
year ago, thanks to the leadership of the Honorable Joel Hefley, 
Representative from Colorado, Congress again renewed its promise of an 
annual deposit of $150,000,000 into the Historic Preservation Fund (P. 
L. 106-208). But appropriations from the Historic Preservation Fund 
have fallen short of the promise, and the nation's heritage is at risk. 
Over the past 25 years, only a third of the total authorized revenue in 
the Historic Preservation Fund has ever been appropriated. For Fiscal 
Year 2002, funding for states and tribes would be cut by twenty 
percent, and the total appropriation for historic preservation would be 
only about half the authorized amount. The consequence of this under 
funding is a mounting backlog of unmet needs, historic buildings lost, 
and communities with few resources struggling to save their heritage. 
Ironically, unappropriated revenue continues to accumulate in the 
Historic Preservation Fund.
    The funding provided by H.R.701 is essential to fulfill Congress' 
promise to preserve America's heritage. The National Historic 
Preservation Act (16 U.S.C. 470) created a partnership between the 
Department of the Interior and all of the states. Instead of creating a 
large federal bureaucracy in historic preservation, the Historic 
Preservation Fund enables each state to carry out historic preservation 
activities on behalf of the federal government.
    The historic preservation program is an excellent example of 
federalism. Our national heritage rests in the historic buildings, 
sites, and neighborhoods of cities, towns, and rural areas located in 
each of the states. States work with the federal government and with 
local government to preserve historic resources. The Historic 
Preservation Fund pays only half the cost of the national historic 
preservation program. States match the federal dollars, and State 
Historic Preservation Offices do the actual work. The Secretary of the 
Interior sets standards, while governors oversee the effective 
operation of the program in their state. This is cost-effective 
government responsive to local citizens.
III. NATIONAL HISTORIC PRESERVATION ACT AND THE HISTORIC PRESERVATION 
        FUND: A RATIONAL APPROACH TO HISTORIC PRESERVATION
    The National Historic Preservation Act created a rational approach 
to historic preservation based on historic values and public input. 
States identify the historic places within their boundaries, and with 
the involvement of the public, produce a historic preservation plan to 
set priorities. Adequate, dependable, predictable funding as provided 
in H. R. 701 will allow State Historic Preservation Offices to raise 
matching funds and meet historic preservation needs in cooperation with 
local governments, nonprofit organizations, and property owners. 
Congress understood that states are in the best position to have 
knowledge about the full range of historic properties and to make 
decisions in accordance with local needs and conditions. For this 
reason, the Act limits direct grants by the Secretary of the Interior 
to ten percent of the annual appropriation.
    The National Historic Preservation Act specifies recipients of 
Historic Preservation Fund grants. Section 101(e) specifies the 
recipients: States, National Trust for Historic Preservation, Indian 
tribes and Native Hawaiian organizations, and Micronesian States. 
Subparagraph 101(e)(3) authorizes the Secretary of the Interior to make 
direct grants with the following conditions: a) the amount of 
Secretarial grants may not exceed 10% of the annual appropriation from 
the Historic Preservation Fund, b) the Secretary must consult with the 
appropriate State Historic Preservation Officer, and c) projects may be 
for National Historic Landmarks, World Heritage sites, demonstration 
projects, training and development of skilled labor trades, and to 
assist small businesses in National Register Historic Districts.
    In recent years, special category grants awarded from Washington 
have exceeded forty percent of the annual appropriation. Coupled with 
low appropriations, this situation has choked the flow of funding 
originally envisioned by the Historic Preservation Fund. As a result, 
all across America in town centers and rural areas critical 
preservation projects are ``locked out'' from more than a third of the 
available funding. Language in Title V of the Conservation and 
Reinvestment Act directing Historic Preservation Fund allocations to 
States and tribes will correct this situation.
IV. CHANGES NEEDED IN H.R. 701
    The National Conference of State Historic Preservation Officers 
makes the following suggestions for changes to the text of H. R. 701.
A. Section 6. Limitation on Use of Available Amounts for Administration
    The National Conference agrees that the purpose of H. R. 701 is to 
conserve resources benefitting the Nation's heritage. Making available 
the full $150,000,000 annually to States and tribes will allow 
sufficient funding to administer federal funds following OMB and 
Department of the Interior and National Park Service requirements. 
Administrative costs as a percentage of the total funds available 
declines as the size of the grant increases.
    At the lesser amounts States have received historically through the 
budget and appropriations process, the actual cost of administration to 
meet federal requirements is 10%. Should allocations to States be less 
than the authorized amount this section would create an unfunded 
mandate on State government.
B. Section 7. Record Keeping Requirements
    The National Conference of State Historic Preservation Officers 
questions the Committee's inclusion of additional Record Keeping 
requirements on State governments. At least in the case of Historic 
Preservation Fund expenditures, substantial record-keeping and 
reporting requirements are already in place in accordance with 
regulations previously issued by the Secretary of the Interior and the 
Office of Management and Budget. Recognizing the desire of Congress to 
minimize the use of CARA funds for administration, additional or 
duplicative Record Keeping should be avoided.
C. Section 8. Maintenance of Effort and Matching Funding
    The National Conference of State Historic Preservation Officers 
believes the 30-year record of the States in supporting the Historic 
Preservation Fund makes this section unnecessary. Further, under the 
National Historic Preservation Act, the State Historic Preservation 
Officers are carrying out a federal government program for 
identification, evaluation and protection of historic properties. The 
Historic Preservation Fund reimburses States for roughly half the cost 
of making subgrants for heritage enhancement as well as for half the 
cost of running this federal program. Existing law and regulations 
require that all federal funds must be matched by non-federal funds. 
Therefore a reduction of state or local resources may automatically 
reduce federal assistance as the result of matching fund requirements 
already in place.
D. Section 501. Treatment of Amounts Transferred from the Conservation 
        and Reinvestment Act Fund
    1. Section 501 (3), new Section 108(b) of the National Historic 
Preservation Act-The National Conference of State Historic Preservation 
Officers recommends the addition of the word ``and'' after the word 
``States'' on line 18 and the insertion of a period after the word 
``tribes'' on that same line. Note: grants to the States, by law, 
include funding for local governments-not less than 10% of the States' 
allocation up to $60,000,000 and, in amounts above $60,000,00, half of 
the excess.
    2. Section 501(3), new Section108(c) of the National Historic 
Preservation Act-The National Conference of State Historic Preservation 
Officers has testified for thirty years about the need to increase the 
Historic Preservation Fund appropriations to allow for subgrants for 
restoration projects, and we continue to support that position. 
However, the Conference requests that this section be stricken as it 
limits State flexibility to respond to State needs for the following 
reasons.
        a. LBecause the Historic Preservation Fund supports a program 
        for identification, evaluation, and protection of historic 
        properties generally as well as enhancement and restoration of 
        particular properties, a substantial share of HPF funding will 
        continue to be allocated to program-wide needs.
        b. LIn some States such as Florida and Colorado that have major 
        annual State funding for restoration projects, the State may 
        need to use its Historic Preservation Fund allocation to assist 
        in redevelopment projects, to help local governments undertake 
        historic site survey or National Register work.
        c. LTitle V includes specific authorization for States to use 
        Historic Preservation Fund allocations to assist heritage 
        areas. Heritage areas may need redevelopment assistance, or 
        help with survey and education activities. Section 501(3) will 
        hamper the State Historic Preservation Officer's ability to 
        address the genuine needs of heritage areas.
        d. LOutside of heritage areas important unmet needs also exist 
        for historic preservation -related redevelopment assistance and 
        implementation of survey and education programs to increase 
        public recognition and understanding for historic resources.
        e. LThe needs of the historic resources and sound management 
        practices may require a short-term major investment that is not 
        project related. A significant example is the need to make up 
        for the past 30 years of under funding of historic site survey 
        work to identify and record significant historic properties. In 
        many states the current backlog in historic site survey pushes 
        the financial burden for identification of historic places on 
        to other federal agencies and sometimes on to private sector 
        applicants for federal assistance.
        f. LSound preservation planning may dictate a major capital 
        investment in digitizing information on historic properties 
        through computer-based geographic information systems to 
        modernize the accessibility of information and expedite project 
        reviews.
    One response to these concerns would be to define ``projects'' 
broadly enough to include the types of activities described above.
E. Section 503. Funding for Maritime Heritage Programs
    The National Conference of State Historic Preservation Officers 
fully supports funding for maritime heritage. This sector of the 
historic preservation community has been active for decades working 
with Congress to secure dedicated funding.
    The National Conference of State Historic Preservation Officers has 
consistently advocated for the Historic Preservation Fund to support a 
historic preservation program that is truly national in scope and 
inclusive of all types of significant historic properties. With limited 
funding through the appropriations process, the National Conference of 
State Historic Preservation Officers has warned about the danger of 
``Balkanization'' of the historic preservation program. When individual 
properties or groups of properties, no matter how worthy, obtain 
special, dedicated funding for their own narrow resource type, a 
disproportionate benefit is created that excludes the majority of 
resource types and fails to address truly national needs. Special 
category grants, awarded from Washington, have helped many threatened 
resources. However, sending the same amount of money through the States 
leads to more equal access, better pre-project evaluation, funding for 
more projects, assurances of matching-fund capability, and quality 
control over the final product.
    The Conservation and Reinvestment Act will allow all Americans 
access to funding for historic preservation. The dependability of 
funding from CARA also will encourage applicants that if their project 
is not funded in the current year, funding will be available in the 
next application cycle.
V. EXPLANATION OF NATIONAL CONFERENCE OF STATE HISTORIC PRESERVATION 
        OFFICERS
    The National Conference of State Historic Preservation Officers is 
the association of state officials-appointed by their governors-who 
carry out the National Historic Preservation Act for the Secretary of 
the Interior and the Advisory Council on Historic Preservation pursuant 
to the National Historic Preservation Act (16 U.S.C. 470). For over 
thirty years State Historic Preservation Officers have actively 
supported historic preservation authorization legislation and advocated 
for adequate appropriations to achieve the Congressional mandate for 
preserving America's heritage ``as a living part of our community 
life.'' Today we are part of a broad coalition that strongly supports 
H.R. 701, and includes other state-based organizations such as the 
National Governors Association, the Southern Governors Association, the 
Coastal States Organization, and the National Conference of State 
Legislators.
VI. CONCLUSION
    Everywhere in the United States historic buildings and sites are 
valued for various reasons: saving key historic landmarks, preserving 
the character of a special neighborhood or small town, helping to teach 
rising generations about their nation's past, economic development on 
traditional Main Streets, rehabilitation of housing, and revitalizing 
older communities. In every state, citizens recognize that the historic 
places close to home are also part of the heritage of the nation as a 
whole. That is the promise Congress originally offered in the National 
Historic Preservation Act and the Historic Preservation Fund. State 
Historic Preservation Offices in each state are fulfilling their part 
of the promise by carrying out the national historic preservation 
program and by working with citizens and local government to raise the 
money to match federal funding. We ask that the Congress fulfill its 
part of the promise by enacting H.R. 701 to guarantee states and tribes 
the full authorized funding of the Historic Preservation Fund: 
$150,000,000.
                                 ______
                                 
    The Chairman. I thank you, Mr. Sanderson.
    Ms. Callahan, I appreciate seeing you again, appreciate you 
being here.

    STATEMENT OF F. PATRICIA CALLAHAN, PRESIDENT, AMERICAN 
     ASSOCIATION OF SMALL PROPERTY OWNERS, WASHINGTON, D.C.

    Ms. Callahan. Thank you so much.
    Mr. Chairman and members of the Committee, thank you for 
your invitation to appear today and express the perspective of 
small property owners. I am Pat Callahan, president and founder 
of the American Association of Small Property Owners, the voice 
of small landlords and real estate investors.
    Since 1993, AASPO has been working for the right of small 
property owners to prosper freely and fairly, to make possible 
the American dream of building wealth through real estate.
    There are 10 million small owners of investment properties 
nationwide, accounting for $40 billion per year in direct 
economic activity. We are served by 2,000 state and local 
associations. Our print newsletter, The Small Property Owner, 
was voted the best independent real estate newsletter for 1996 
by the National Association of Real Estate Editors. And we work 
very closely with the National Association of Real Estate 
Editors.
    AASPO believes that entrepreneurship flourishes in a free-
market economy. This means that taxes and regulations should be 
kept to a minimum, and that government must clearly define its 
role to provide for the general welfare of all its citizens. 
Government programs should encourage small property owners, not 
stifle them, and certainly not compete with them.
    Too often we see that policies and programs which started 
with good intentions have the opposite effect.
    We oppose CARA as the next step in an already flawed 
Federal land policy. About 100 years ago, the Federal 
Government stopped privatizing its massive landholdings and 
started to act as the perpetual owner, instead of temporary 
steward, of its lands.
    As a consequence, the Federal Government became the 
nation's number one landowner, in several states owning more 
than half of the land. The landholdings eventually came to be 
organized into various tracts, from wilderness areas to 
national parks to national forests.
    Yet even in the latter tracts, where multiple use prevails, 
the possibility of ownership in fee simple was taken off the 
table. Thus, a hallmark of our constitutional order, the 
ancient privilege and immunity of free people to own land in 
fee simple, no longer motivates public policy.
    CARA moves this land policy in the wrong direction, by 
authorizing the acquisition of some $45 billion in land over 15 
years.
    To be sure, our Constitution allows the acquisition of 
private property for public purposes provided there is just 
compensation, and there can be no objection to select 
acquisition of land by the Federal Government when there is a 
proper and necessary relationship to the enumerated powers of 
the Federal Government.
    But select acquisition of private property is altogether 
different from the concerted effort embodied in CARA.
    Private ownership of real property is a fundamental 
principle on which our country was founded. Ownership of land 
is connected with freedom itself and has been at the core of 
our governmental process. If you take the resources and 
ownership out of land use, then you destroy the fundamental 
meaning of private property ownership.
    Private property ownership underlies the opening of the 
West. Responsible stewardship is best exercised not by 
government but by private owners.
    Private landowners are natural conservationists, inclined 
to multiple use, preserving what is most valuable to be 
preserved, and developing what is most valuable to be 
developed.
    The highest and best use, which is a concept in real 
estate, of one's property is best determined by the owner, not 
by the Federal Government.
    Property ownership is a local issue and is best dealt with 
by local governments. This is another founding principle of 
federalism, that the power of decisionmaking rests with state 
and local consensus.
    In the absence of a compelling need and a compelling 
Federal interest, the Federal Government should not intrude 
into land use decisions and certainly not become the owner of 
private property.
    Nowhere in the Constitution is there granted the right of 
the Federal Government to enter into the real estate business.
    Private property ownership is not a Western issue. It is an 
urban issue, a women's issue, a minority issue, and an 
immigrant issue. The ownership of real estate is what draws 
newcomers to our shores.
    Urban landlords are sensitive to the present debate because 
of our experiences with encroachment on the management of our 
properties, as you would find, for example, with rent control 
in New York City and California.
    Sixty years ago, in response to a national wartime 
emergency, rent control was imposed in many communities. But 
New York City has never ended its housing emergency. The result 
has been a shortage in housing options, lost tax revenues, and 
missed opportunities for women, minorities, and immigrants to 
become successful landlords in New York.
    Unfortunately, the situation has not been allowed to be 
self-correcting. The shortfall in local property tax revenues, 
for example, is conveniently made up for by an infusion of 
Federal funds through various grant programs, thus removing an 
important element for municipal fiscal discipline.
    Land use, to be sure, involves many tough issues fought out 
at the local level. The exercise of democracy can at times 
become very contentious. The intervention of the Federal 
Government in land use matters, whether directly or through a 
funding mechanism, will allow idealogues to exercise undue 
influence in the process, and thereby disenfranchise local 
private property owners.
    Finally, there is the economic impact of CARA. We question 
the effects on transportation and the flow of energy resources 
to our cities and suburbs.
    For example, how would a pipeline reach our cities if parts 
of the route were to be placed off-limits by designating land 
as wilderness?
    I think a current example of the calamity in Klamath basin 
is precisely the sort of situation the environmentalists and 
the government land acquisition agents create and will create 
to destroy the use and market value of private lands so that 
contented second and third generation families will have no 
other choice but to become willing sellers. And the feds, 
states, and the environmentalists will be there with their 
billions of dollars of CARA money to buy up these private lands 
and transfer it into government hands. This is an outrage.
    The Klamath basin catastrophe is the absolute perfect 
textbook example of exactly what CARA is all about.
    And why people who are working tirelessly to pass it and 
spending millions of dollars hiring expensive lobbyists--the 
Trust for Public Lands, the American Farm Trust. You know, you 
name it, you know who the players are.
    The extreme environmentalists and the government create a 
calamity using the ESA to halt private property, private use on 
private lands. When the land can't be used, the landowner sees 
the market value of their land plummet and the collateral value 
of their land drop to zero. They can't get loans, they can't 
buy, they can't sell, they can't really do anything of economic 
worth with the land.
    In desperation, families that had been the backbone of the 
rural community are suddenly facing total disaster and have no 
choice but to become willing sellers. Then the government and 
the Nature Conservancy and others such as they come into save 
the day and rescue all of these willing sellers, picking up 
their land and homes and dreams for $.05 on the dollar, if they 
are lucky, and further eroding American freedom by transferring 
still more private land into the hands of the government.
    In sum, we feel that the Federal Government should be a 
minimal interventionist. If citizens want a particular benefit, 
they should discuss it, debate it, vote on it, and pay for it 
directly. The closer the taxpayer is to the collection point, 
the wiser the decision is likely to be.
    A recent article in USA Today illustrates this point, and 
what it says--and I have examples in my testimony--is that 
local people are not voting bonds and taxes on themselves in 
order to create additional green space.
    In conclusion, we hope that the policies and programs that 
compel consideration of constitutional protections for private 
property, as found in H.R. 1592, would be changed so that this 
bill will be unnecessary. But absent such a move, we support 
the enactment this legislation. Thank you.
    [The prepared statement of Ms. Callahan follows:]

  Statement of F. Patricia Callahan, President and Founder, American 
                  Association of Small Property Owners

    Mr. Chairman and Members of the Committee:
    Thank you for your invitation to appear today and express the 
perspective of small property owners on H.R. 701, the Conservation and 
Reinvestment Act, or CARA, and H.R. 1592, the Constitutional Land 
Acquisition Act. I am Pat Callahan, president and founder of the 
American Association of Small Property Owners, the voice of small 
landlords and real estate investors.
    Since 1993, AASPO has been working for the right of small property 
owners to prosper freely and fairly--to make possible the American 
dream of building wealth through real estate. Based in Washington, DC, 
and with experts and advisors strategically located throughout the 
nation from California to New England, AASPO is the only national 
organization for small landlords, property owners and real estate 
investors to share information and strategies on important issues of 
the day.
    There are 10 million small owners of residential and commercial 
investment properties, accounting for more than $40 billion per year in 
direct economic activity. We are served by 2,000 state and local 
associations around the country. AASPO's print newsletter, The Small 
Property Owner, was voted the ``Best Independent Real Estate Newsletter 
for 1996'' by the National Association of Real Estate Editors. Our web 
site is at www.aaspo.org. We use the internet as the main 
communications vehicle for our growing constituency.
    AASPO believes that entrepreneurship flourishes in a free-market 
economy. This means that taxes and regulations should be kept to a 
minimum, and that government must clearly define its role to provide 
for the general welfare of all its citizens. Government programs should 
encourage small property owners, not stifle them, and certainly not 
compete with them. Too often we see that policies and programs which 
started with good intentions have the opposite effect.
    We oppose CARA as it is the next step in an already flawed federal 
land policy.
    About one hundred years ago, the federal government stopped 
privatizing its massive land holdings, and started to act as the 
perpetual owner, instead of temporary steward, of its lands. As a 
consequence, the federal government became the nation's 1 land owner, 
in several states owning more than half of the land.
    The land holdings eventually came to be organized into various 
tracts, from wilderness areas to national parks to national forests. 
Yet, even in the latter tracts, where ``multiple use'' prevails, the 
possibility of ownership in fee simple was taken off the table. Thus, a 
hallmark of our Constitutional order, the ancient ``privilege and 
immunity'' of free people to own land in fee simple no longer motivated 
public policy.
    CARA moves this land policy in the wrong direction, by authorizing 
the acquisition of some $45 billion in land over fifteen years.
    To be sure, our Constitution allows the acquisition of private 
property for public purposes provided there is just compensation, and 
there can be no objection to select acquisition of land by the federal 
government when this has a ``proper and necessary'' relationship to the 
enumerated powers of the federal government. But select acquisition of 
private property is altogether different from the concerted effort 
embodied in CARA.
    Private ownership of real property is a fundamental principle on 
which our country was founded. Ownership of land is connected with 
freedom itself. The history of our political parties shows that private 
property ownership has been at the core of our governmental process. If 
you take the resources and ownership out of land use, then you destroy 
the fundamental meaning of private property ownership. As Thomas 
Jefferson observed in 1816: ``The true foundation of republican 
government is the equal right of every citizen in his person and 
property and in their management.''
    Private property ownership underlies the opening of the West to 
settlement in the last century. Responsible stewardship is best 
exercised not by government but by private owners. Private landowners 
are natural conservationists, inclined to ``multiple use,'' preserving 
what is most valuable to be preserved, and developing what is most 
valuable to be developed. The highest and best use of one's property is 
best determined by the owner, not the federal government.
    Property ownership is a local issue and is best dealt with by local 
government. This is another founding principle of federalism, that the 
power of decision-making rests with state/local consensus. In the 
absence of a compelling need and a compelling federal interest, the 
federal government should not intrude into land use decisions and 
certainly not become an owner of private property. No where in the 
Constitutional is there granted the right of the federal government to 
enter into the real estate business.
    Private property ownership is not a ``Western'' issue. It is an 
urban issue, a woman's issue, a minority issue, and an immigrant issue. 
Our Massachusetts chapter president is an immigrant from Switzerland 
and regularly reminds me that America is the only country were ordinary 
people can hope to own real estate. It is a magnet that draws newcomers 
to our shores.
    Urban landlords are sensitive to the present debate because of our 
experiences with encroachment on the management of our properties, as 
you would find with rent control in New York City and California. Sixty 
years ago, in response to a national wartime emergency, rent control 
was imposed in many communities. But New York City has never ended its 
housing ``emergency.'' The result has been a shortage in housing 
options, lost tax revenue and missed opportunities for women, 
minorities and immigrants to become successful landlords in New York. 
Unfortunately, the situation has not been allowed to be self-
correcting. The shortfall in local property tax revenues, for example, 
is conveniently made up for by an infusion of federal funds through 
various grant programs, thus removing an important element for 
municipal fiscal discipline.
    Land use involves tough issues, fought out on the local level. It 
is an exercise in democracy which can at times become very contentious. 
The intervention of the federal government in land use matters, whether 
directly or through a funding mechanism, will allow ideologues to 
exercise undue influence in the process, and thereby disenfranchise 
local private property owners.
    Finally, there is the economic impact of CARA. We question the 
effects on transportation and the flow of energy resources to our 
cities and suburbs. For example, how would a pipeline reach our cities 
if parts of the route were to be placed off-limits by designating land 
as wilderness?
    In sum, we feel that the federal government should be a minimal 
interventionist. If citizens want a particular benefit, they should 
discuss, debate, vote on and pay directly for it. The closer the 
taxpayer is to the collection point, the wiser the decision is likely 
to be.
    A recent article in USA Today illustrates this point, and reports 
that voters in states and municipalities around the nation are 
approving new taxes to purchase open spaces. Last year, California 
approved $5 billion in acquisition funds. Open-space advocates say 
approving tax hikes for recreational and environmental purposes is an 
easier sell at the county and municipal level--because voters are more 
willing to pay to keep land green when it is in their own neighborhood. 
The movement is swiftly building momentum. In November 2000, voters 
approved 172 local measures, raising $2.4 billion for land 
acquisition--a considerable jump from the $540 million raised in voting 
two years earlier. Residents of Boise, ID voted last month to hike 
property taxes for two years and devote the $10 million to purchases of 
land outside the city. In April, voters in McHenry County, IL, and in 
DeKalb County, in the Atlanta area, passed bond referendums to buy open 
space. Since March 31, Massachusetts towns have voted to raise property 
taxes as much as 3 percent to finance open-space acquisitions and other 
land issues. Source: Martha J. Moore, ``Cities Tax to Keep Land 
Green,'' USA Today, May 31, 2001.
    In conclusion, we would hope that the policies and programs that 
compel consideration of constitutional protections for private 
property, as found in H.R. 1592, would be changed so that this bill 
would be unnecessary. But absent such a move, we support the enactment 
of H.R. 1592.
    Thank you.
                                 ______
                                 
    The Chairman. I thank the lady, thank you, Ms. Callahan.
    The gentleman from Louisiana, questions for our panel?
    Mr. Tauzin. Thank you, Mr. Chairman.
    First of all, Ms. Callahan, are you aware of the average 
Federal appropriations for land acquisition since 1998 in this 
country?
    Ms. Callahan. Well, I didn't want to get into the specifics 
and start talking about dollars and cents on--
    Mr. Tauzin. I am just asking you a question. Could you 
answer it for me? Are you aware of the dollars we spend each 
year to acquire private lands in America?
    Ms. Callahan. Well, in what regard? I am trying to address 
your question. What exactly--
    Mr. Tauzin. I am asking you if you know the average 
expenditure each year by the Federal Government to acquire 
private lands in America right now, without CARA.
    Ms. Callahan. Oh, without CARA.
    Mr. Tauzin. Yes.
    Ms. Callahan. I don't believe I have the figures in--
    Mr. Tauzin. That average is $544 million a year.
    In fact, the last President and this current President are 
each recommending at least $450 million a year in Federal land 
acquisition. But we are averaging $544.
    If CARA had been in place in 1992, we would have only 
bought $373 million of property. In 1995, for example, we would 
have only bought $387.
    CARA puts a ceiling of $450 million when we are spending an 
average of $544 million a year right now without CARA.
    Are you aware of that?
    Ms. Callahan. Well, you are buying. You are not divesting. 
The whole essence of my testimony is that the Federal 
Government should not be in the real estate business.
    Mr. Tauzin. But what I am saying is--
    Ms. Callahan. And the--
    Mr. Tauzin. --that without CARA, Ms. Callahan, government 
is now acquiring more property, spending more dollars to 
acquire private property, than CARA would permit. It limits it 
to $450 a year.
    Are you aware of that?
    Ms. Callahan. Well, it isn't a matter of being aware. It is 
a matter of whether I support the trend that I feel is very 
disturbing.
    We should be--
    Mr. Tauzin. Well, what I am suggesting--
    Ms. Callahan. --encouraging private property ownership, not 
ownership by institution--
    Mr. Tauzin. Well, then let's talk about the way the 
government acquires property today and the way CARA would allow 
or prohibit the government from acting.
    Are you aware of any law today that requires the Federal 
Government to consolidate the Federal landholdings in states 
that have checkerboard patterns of landholdings?
    Ms. Callahan. Well, what I am looking at is the practical 
results of what has been happening by case examples, and I 
think the trend is very disturbing. We should be encouraging--
    Mr. Tauzin. I understand--listen.
    Ms. Callahan. --private property ownership.
    Mr. Tauzin. I listened to your testimony very carefully, 
and I am asking you now to respond to my questions, not to give 
your testimony again.
    I simply want to know, are you aware of any law that 
requires the Federal Government today to consolidate the 
checkerboard pattern of Federal landholdings out west?
    Ms. Callahan. Well, the effects are occurring, as we heard 
from the witness earlier--
    Mr. Tauzin. No, you don't want answer my question.
    The answer is no, there is no such Federal law. CARA 
creates such a requirement.
    Are you aware of any Federal law that requires the Federal 
Government to consider exchanging land rather than acquiring 
new land when it needs new property?
    Ms. Callahan. Well, again, you--
    Mr. Tauzin. There is no such law. The answer is no; CARA 
provides such a law.
    Are you aware of any law that requires the Federal 
Government to consider permanent easements rather than full 
acquisition in place of land acquisition? Are you aware of any 
such law today?
    Ms. Callahan. Well, that trend, again, toward easements and 
that is really preventing, I think, the full use of one's 
private property. So usually what you will end up doing is 
owning, having the title to the land, and the privilege of 
paying the taxes.
    I think it is very--
    Mr. Tauzin. Well, today there is no such law that--
    Ms. Callahan. Conservation easements are very disturbing.
    Mr. Tauzin. --would favor land acquisition in the form of 
easements instead of full title. CARA would permit that, in 
fact, encourage that, as opposed to full landownership by the 
Federal Government.
    Are you aware of any law that requires that the Federal 
Government today prepare a list of surplus land eligible for 
sale to private landowners again?
    The answer is no, there is no such law. CARA creates such a 
provision.
    Are you aware of any law that requires the Federal 
Government to state the statutory authority and the reason why 
land is be acquired when it acquires it?
    The answer is no. CARA now requires that, in its language.
    Here is the most important part: Are you aware of any law 
that requires Congress to approve a land acquisition rather 
than allowing an agency to do it on its own, from an unwilling 
seller?
    Ms. Callahan. Well, you know, the theories that you are 
showing, whether we accept them or not, as a practical matter, 
Congress, when they were not able to, with the regulatory 
reform issue, oversee simple regulations before they went into 
effect, how are they going to be able to review every piece of 
land acquisition?
    Mr. Tauzin. Well, CARA requires them to. CARA says 
something brand new in the law that I think property rights 
advocates have missed and ought to pay attention to.
    And as a lead sponsor of the first private property rights 
bill in this Congress, I can tell you, I pay a lot of attention 
to it, because we help craft these provisions.
    Today, when the President has asked for $544 million to buy 
land and the appropriators give it to him, the agencies make 
the decision about what land they are going to buy, and they do 
it under forced acquisition. They have that power and they go 
about doing it.
    And Congress never approves the specific act. They don't 
even have to advertise it in the local papers and tell us, send 
Members of Congress a list of what they are going to acquire. 
They can just go ahead with the money that has been 
appropriated to them under the appropriation authority, and 
they can go ahead and condemn property and take it.
    CARA says no to that. CARA says, from now on, before you 
take any property, you have to say what you want, you have to 
send letters to the Members of Congress and publish it in the 
local newspapers. And if it is an unwilling seller, you can't 
take it unless Congress specifically passes a new act saying 
you can take that property from an unwilling seller. They have 
to pass a whole new act.
    Otherwise, the only way you can acquire that property is if 
the person wants to sell it to you. Now, that is a huge 
improvement over current law that I think private property 
advocates ought to take account of.
    This CARA bill protects private property in ways that the 
current law does not, and everybody, unfortunately, is missing 
that.
    If we let the current law stand, and we let the Presidents 
and the appropriators continue to ask for and spend a half 
billion dollars a year in acquiring property, current law 
allows the agencies to take what they want, when they want, 
from whom they want, without Congress ever specifically saying, 
``Yes, we want it so badly we're going to let you 
expropriate,'' or we're going to let you take it in a way that 
doesn't require willing seller.
    This law says, you have to have a willing seller or else 
you have to come back to Congress, specifically identify the 
site after notice to all the parties, and then make a decision 
here in Congress to buy it.
    That is a huge improvement over current law. That is a huge 
improvement.
    And I know you come here to protect private property 
rights, and I applaud you for that. I am standing with you. 
What I am saying is that current law is so much weaker in these 
areas than is CARA. And that makes a great deal of difference 
to me.
    And one final point, because I know we have time limits, 
Mr. Chairman, but in Louisiana--I know Jack Caldwell knows 
this. In Louisiana, we have something called the civil law. It 
is a little different from common law. But when you study them 
both, you see that they end up arriving at the same place, in 
time, when it comes to private property.
    In Louisiana, we divide property ownership in three parts: 
the use of the property, which is the rentals on the property; 
the fruits of the property, that is, the crops you might grow 
or whatever you might take from the property; and the naked 
ownership, the right to sell it and to make profit from it in a 
sale.
    The right to sell it is an integral right to the property 
owner.
    Now, what I don't understand from some of my friends in the 
private property protection community is that I think sometimes 
we fail to respect that right.
    If I want to sell my property, and I want to sell it to a 
conservation organization or to the Federal Government for a 
park or a refuge, if I want to sell it to them to build an 
airport, if I want to sell to them because they are the best 
buyer and they can make the most profit for me, you ought to be 
fighting and I ought to be fighting for the right of that 
private property owner to sell it whomever he wants, including 
the public purpose, if that is what he wants.
    CARA protects that. It says we will protect the right of 
willing sellers to sell. And if you are not a willing seller, 
unless Congress says specifically the government can take your 
property, it can't take it.
    And it restates the incredibly important provision you cite 
in the Constitution, which I have cited a thousand times at 
this Committee, that the government does not have a right to 
take your property through regulations or through any other 
means without fully compensating you under the Fifth Amendment 
of the Constitution.
    I guess what I am trying to say, Ms. Callahan, is CARA is 
so much of an improvement over current law, and CARA recognizes 
the reality of the fact that government is going to buying 
property. It is buying a ton of it every year.
    And if we are going to be buying a ton of it every year, 
maybe we ought to put a cap on the acquisitions and maybe we 
ought to encourage the government to swap property instead and 
dispose of property it doesn't need instead.
    And maybe we ought to tell the government, you can't go 
around taking property from people without paying them. And you 
ought to always work with willing sellers whenever you can. And 
if you can't, you better doggone well come back to Congress and 
make a good case for it.
    That is a heck of nice improvement over current law.
    And, Mr. Chairman, I know I have gone on long, but I just 
wish all of our friends in the property rights movement would 
at least recognize what CARA improves in private property 
rights over the current state of the law.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And I certainly recognize that the private property rights 
provisions in CARA are an improvement over current law. I don't 
see how anybody can look at the black letter of the law and 
question that they are better than what we have now.
    Now, there are other parts of CARA that give people some 
concerns. But if you just compare what we have versus what is 
in CARA, they are certainly an improvement.
    I am concerned, however, that they don't improve enough and 
that there may be a little bit less there than meets the eye. 
And I am sorry, I know the Chairman from Louisiana has a lot of 
other commitments. We had a discussion earlier with some of the 
witnesses about what a willing seller really means, and whether 
it is possible to have friendly condemnation when you have an 
agency which continues to harass you. And the Chairman knows 
the kinds of things I am talking about.
    That is why I think there are improvements that can be made 
and should be made to CARA. But, Mr. Chairman, it is why I also 
think that with or without CARA, we have to put something into 
the law under the Land and Water Conservation Fund to put some 
private property rights there.
    Again, with or without CARA--
    Mr. Tauzin. Would my friend yield a second?
    Mr. Thornberry. Of course.
    Mr. Tauzin. And I will be glad to ask additional time. I 
don't want to take his time.
    Let me concur with that. And let me assure my friend that 
in our negotiations on CARA, we tried to get in even better 
protections.
    One of the things we did get in there that I think is very 
important for the point the gentleman was making is that we 
have in here a provision that says the Federal Government gains 
no regulatory authority over property that has been identified 
for acquisition within the boundaries of an existing proposed 
land management unit.
    That was one of the areas that Mr. Pombo and I know you and 
others, particularly members out West, were so interested in, 
because the Federal Government has used the maps of proposed 
acquisitions to go in and regulate the dickens out of property 
until you want to become a willing seller by force. That is 
hardly a willing seller.
    So let me concur with the gentleman. I think his crusade to 
stop the Federal Government from harassing people into becoming 
willing sellers is a good crusade. And I will join him in it.
    I just want to point out that we did include in here at 
least one good feature that stops the Federal Government from 
imposing regulatory authority that it doesn't have over areas 
just because they drew a map of proposed acquisitions. And that 
was an incredibly important provision in here.
    Thank you, sir.
    Mr. Thornberry. I appreciate the gentleman's comments. And 
I agree with them, except they will not solve all of the 
harassment that goes on. And we heard some of that earlier in 
the testimony today.
    And so my bottom line is that with or without CARA we have 
to find some way to get these protections.
    I certainly appreciate the testimony and perspective of all 
the witnesses today.
    Certainly, we have heard, Mr. Chairman, there are a number 
of good ways to spread this royalty money around all over the 
country.
    I do have to note, following up on a comment from my 
colleague from Wyoming earlier today, we have had testimony in 
the last two panels from state and local officials from 
California, North Carolina, and Georgia, none of which help 
produce these moneys that they are eager to spend.
    But nonetheless, there are a lot of good purposes out 
there. I just think we have to be very careful about having--
and I appreciate the negotiating ability of the gentleman from 
Louisiana, the gentleman from Alaska, and others. But I do 
believe that there is still a shortfall that could be made up 
to put the protections in there that will help prevent some of 
the harassment and some of the kinds of things we have heard 
earlier today, where a landowner is pushed toward becoming a 
willing seller perhaps against his will.
    So I appreciate the time today, Mr. Chairman, and your 
patience.
    The Chairman. I thank the gentleman from Texas and the 
gentleman from Louisiana for their excellent remarks.
    You know, the frustration of this Committee, if I may say 
so, is what you do with public ground. We have held 11 hearings 
in my 20-some years here on how you handle public ground.
    If you want to see a fudge factory, see the BLM, the Forest 
Service, and the Park Service. Try to figure out, to sell, 
swap, buy, trade. It is almost impossible.
    I have used the following illustration: When I was city 
councilman 40 years ago, we tried to swap some ground in the 
little town of Farmington. We worked on it for 12 years. We 
couldn't get it done.
    I then went to the State legislature, where I was speaker 
of the House. I had the Forest Service come in, and we couldn't 
get it done.
    We finally had to come to Congress and pass an omnibus bill 
for 12 different states on little things for little communities 
who couldn't get it done with either the BLM, the Park Service 
or the Forest Service.
    The most frustrating experience you can go through is what 
we are talking about.
    Both of these gentlemen have brought up some very 
interesting ideas. I hope that this is a step forward in 
getting things done. And in no way, shape or form do we want to 
hurt--I don't think there is a person on the Committee who 
wants to in any way, shape or form have the heavy hand of 
government, the Federal Government, take away their rights and 
think--
    Mr. Tauzin. Would the gentleman yield a second?
    The Chairman. I would be happy to yield.
    Mr. Tauzin. I think it is important to make a point here. 
The gentleman makes some extraordinarily good points. I mean, I 
am ready to stand shoulder to shoulder with him and tackle 
Federal regulators who do this to people, because they do it in 
my state and they do it to my people as well, and I get as 
angry as you do about. And I know it occurs probably more often 
out West than it does in some of our states.
    But remember, I live in a wet state. I have to deal wetland 
laws and all sorts of things, where people twist and bend the 
regulatory of the Federal Government in ways that are shocking 
to me sometimes.
    I had a priest trying to build a boys' club, a boys' home, 
to help wayward young men in our state. And I had all kinds of 
surveys and engineers view that property, and they approved it 
for the building of that facility--and all people who were 
approved of by the Corps of Engineers for that purpose.
    And yet the corps followed right behind them and condemned 
it all as wetland property and denied the building.
    And you see those kinds of things happening. This is high 
and dry property. Even in 38 inches of rainfall, it didn't 
flood. It is high and dry property.
    So I know what the gentleman talks about. And so that 
person is left--if you can't sell it someone who can use it, 
what does he do with it. The government literally is taking the 
value of that property away when it could have been put to an 
extraordinarily useful purpose.
    And it is not serving any wetlands purposes in my state, I 
promise you. We have a lot of real wetlands in the state; not 
that one.
    So let me first say my sympathies are with the gentleman. 
But my concern is that when we can come to agreements that 
advance the cause of property rights, owners, in America as 
significantly as this list I sort of read off, and we say, 
``Well, it doesn't go all the way so we are not going to do it. 
We can't accomplish everything, so we won't accomplish what we 
can accomplish,'' I also get frustrated.
    My concern is that, in this legislative process, we are 
often at that juncture where we say, well, we can't get 
everything so we will settle for nothing. I am at the point 
where, after many years of fighting property rights battles, 
when I can win significant improvements over current law, I try 
to win them.
    And that is my only point to the gentleman. I hope we don't 
miss the opportunity with CARA, because there is an awful lot 
people who want other things in CARA, who are willing to give 
us these improvements in property rights in exchange.
    We may never have this opportunity again. When it is 
strictly a fight between us and them on private property 
rights, we lose. Now we have them with us because they want 
some other things in CARA that are equally good, parks and, you 
know, all the other, preservation, conservation efforts.
    This is the kind of thing where I just think we ought not 
miss the opportunity to win what we can when we are making 
significant improvements. And that is my only point.
    The Chairman. I thank the gentleman for his comments.
    And I couldn't agree more. What a problem.
    I look at Section 404 of the Clean Water Act. Holy cow, 
have you ever seen a problem as big as that? It just is one of 
the things that just blows my mind.
    And the thing the lady from the Dinosaur area up in Utah 
and Colorado talked about, extortion by the Federal Government, 
really bothers me. And I have seen that, and the pressure, it 
is kind of subtle in some ways, sometimes heavy handed. A 
terrible thing for people to do.
    But it runs the other way sometimes. I had gentleman call 
me because I was Chairman of the Parks Subcommittee for a 
number of years and he had an in-holding in one of our parks.
    I said, ``How much you got?''
    And he said, ``I've got 3 acres.''
    And I said, ``Well, we're interested in getting those. Are 
you willing to sell?''
    And he said, ``Absolutely.''
    And here it is, stuck in a huge park. And I said, ``How 
much do you want for it?''
    And he says, ``$6 million.''
    I mean, it is totally ridiculous. I said, ``Would you go to 
binding arbitration?'' I said, ``Maybe we can arrange that.''
    He said, ``No, I don't want to do that. I want $6 
million.''
    I said, ``How old are you?''
    He said, ``I'm 89.''
    I said, ``Well, just wait a little while.''
    [Laughter.]
    Anyway, with that in mind, let me thank all of you for a 
very interesting hearing. I appreciate everybody who is here. 
All of your points were well-taken, and we will look forward to 
things that you have written. And we also hope that you will 
respond to questions if they come up.
    The Chairman. And with that, we stand adjourned.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]

    [A letter submitted for the record by Secretary Gale Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T3218.035


    [The prepared statement of Mr. Young follows:]

Statement of The Honorable Don Young, a Representative in Congress from 
                          the State of Alaska

    Thank you, Chairman Hansen, for holding this hearing on H.R. 701, 
the Conservation and Reinvestment Act and Mr. Thornberry's H.R. 1592, 
the Constitutional Land Acquisition Act. I will focus my comments on 
the Conservation and Reinvestment Act, the bill known as CARA.
    I would like to add my enthusiasm for the fact that CARA has 
surpassed 218 cosponsors today. This is an important milestone and I am 
impressed with how quickly our colleagues have returned to this 
comprehensive, bipartisan conservation legislation.
    At the end of last Congress, many were left wondering if a single-
year of high appropriations would remove the need for annual and 
dedicated funding for conservation and recreation. I think that we will 
hear today that CARA is still needed to provide federal dollars for 
state-based conservation and recreation.
    The promise of substantial and annual appropriations for wildlife, 
the Land and Water Conservation Fund, Historic Preservation and Payment 
In-Lieu of Taxes has always been an empty promise. For the states to 
have the assurance of consistent funding, we must pass CARA this 
Congress.
    Last year, CARA passed the House with a supermajority and 
bipartisan vote of 315 to 102. It was especially rewarding that a 
majority of both Republicans and Democrats joined together to pass this 
large conservation legislation. Unfortunately, the other body was only 
able to pass CARA out of Committee and did not have enough time to put 
a bill before the President. This year, we have a new opportunity to 
pass this historic legislation in the House early and allow the other 
body more time in its consideration.
    Today's hearing is a great first step to that goal and one that 
allows all interested groups and individuals the opportunity to testify 
and submit testimony. Since this bill is so similar, I don't expect 
that we will receive many new comments or suggestions. Rather, I expect 
that we will build upon the five days of legislative hearings held 
during the last Congress.
    I understand that the Resources Committee received testimony from 
nearly 90 individuals in the 106th Congress. This hearing provides a 
forum for individuals to comment on the few changes that were made to 
the bill and allows others another opportunity to share their opinions 
on the bill.
    An ongoing issue for the Conservation and Reinvestment Act is the 
notion that property rights are not protected within the bill. As a 
champion of protecting the rights of landowners I have found this claim 
troubling--mainly because it is, quite frankly, false.
    Current law does not provide protections for property owners, CARA 
provides substantial property rights protections. Current law does not 
prohibit the Administration from unilaterally taking someone's property 
into federal ownership--CARA does. Current law does not require 
notification when the government seeks to buy private lands--CARA does.
    These are only two of the many property protections found within 
the Conservation and Reinvestment Act. In addition, CARA continues to 
provide Congressional oversight of new federal Land and Water 
Conservation Fund acquisitions through the Congressional appropriations 
process. In fact, we strengthen that process to further protect 
landowners.
    By adding protections that do not exist today for federal land 
acquisition and providing stable funding for conservation and 
recreation, CARA is a win-win. It provides the funding necessary for 
comprehensive, state-based conservation and recreation programs, while 
providing property protections that would not be viable on their own.
    It is time to report CARA from the Resources Committee and send it 
to the House floor for consideration. CARA is sound policy that holds 
the support of more than 5,000 organizations that are joined by our 
Nation's governors, county leaders and mayors. We must not hesitate in 
acting on the will of the House and work to pass CARA as early as 
possible.
    Thank you Chairman Hansen for holding this hearing today. I look 
forward to listening to the witnesses assembled.
                                 ______
                                 
    [The prepared statement of Mrs. Cubin follows:]

Statement of The Honorable Barbara Cubin, a Representative in Congress 
          from the State of Wyoming, on H.R. 701 and H.R. 1592

    Thank you, Mr. Chairman, for holding this important hearing on H.R. 
701 and H.R. 1592.
    In the 106th Congress I heard from group after group in Wyoming, 
and across the nation, who had extreme difficulties with CARA. The 
107th Congress has been no different.
    I will be the first to recognize that coastal states, such as 
Louisiana, are not receiving a fair amount of royalty revenues to 
address their conservation concerns and I am more than willing to work 
with these states to fix this problem.
    Having said that, I continue to have several basic philosophical 
differences with provisions within CARA. First, my primary concern is 
that this legislation establishes a trust fund for the purpose of land 
acquisition. I maintain that the federal government cannot manage the 
lands it has now, including the addition of several million acres of 
new National Monuments. The last thing I will advocate for is more 
federal land in the West.
    Second, I continue to be concerned with where the money will come 
from specifically. It obviously can't just fall from the heavens. I am 
convinced CARA will prosper at the expense of other yet unnamed 
programs that many in this room will later fight for in order to 
maintain that program's funding level. I fear that in the rush for 
short term fixes to many funding needs, we will pay far greater 
sacrifices from equally important long term initiatives.
    Finally, I am still highly concerned about private property rights 
being infringed upon through new government land acquisitions. While 
CARA does create a good starting point, I look to Mr. Thornberry's H.R. 
1592, the Constitutional Land Acquisition Act, to further protect 
private property owners and their lands from current law.
    I look forward to the testimony today on these bills as we move 
forward to finding a solution more palatable to all parties involved.
                                 ______
                                 
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Mr. Chairman, I appreciate your holding this hearing this morning 
on H.R. 701--the Conservation and Reinvestment Act (CARA), and H.R. 
1592--the Constitutional Land Acquisition Act.
    While H.R. 701, is certainly well-intentioned, as are my colleagues 
who support it, I, like many of my western colleagues, must oppose it. 
Federal ownership of Idaho lands now equals nearly 64 percent--a total 
of 20 million acres. Apparently if H.R. 701 passes, that number would 
increase substantially, because the bill establishes an off-budget 
dedicated trust fund for substantially more federal and state 
acquisition and ownership of lands across the United States.
    I am concerned that the bill would authorize Congress to deposit 
more than $42 billion of Outer Continental Shelf oil royalties into the 
trust fund over the next fifteen years to enable the federal and state 
governments, and other special interest groups to purchase land for 
``conservation.'' Mr. Chairman, that's an extraordinary amount of money 
that could be used for so many other important priorities.
    H.R. 701 would require states to match federal monies provided to 
them for land acquisition. Requiring so much local and state matching 
acquisition funds could impact other important state and local 
priorities such as education, crime prevention, and other vital 
services. Inevitably, acquisition of new land would also require 
millions of dollars in increased funding for maintenance of lands on 
top of the substantial maintenance backlogs that the federal government 
has already amassed.
    In addition, it could imperil private property rights by 
strengthening the hand of government and special interests at taxpayer 
expense. The Founding Fathers defended private property rights as a 
fundamental tenant of the United States Constitution. I cannot support 
legislation that could weaken that important principle.
    While I do not support H.R. 701, I am an original co-sponsor of my 
friend and colleague, Representative Thornberry's bill--H.R. 1592--the 
Constitutional Land Acquisition Act. This measure will provide 
protection to real property owners whose property is within or adjacent 
to a federal unit. It provides stronger notice requirements for 
acquisitions. It prohibits the use of funds for acquisition by 
condemnation. And it restricts the the use of acquired property for 
other than public outdoor recreation purposes. Mr. Chairman, Idaho's 
citizens deserve the protection that H.R. 1592 would give them, and I 
urge its passage.
    This hearing is important to the lives and prosperity of thousands 
of people who live far away from Washington, D.C. Unfortunately, most 
will not be afforded the time and cannot afford to be here today. That 
is why I and a number of other members of Congress are requesting today 
that the House Resources Committee do not mark-up H.R. 701 until the 
Committee holds additional field hearings. While many are for or 
against CARA, I believe we should all support additional hearings 
closer to the people most affected, so that they have a say in 
legislation of such magnitude.
    Thank you, Mr. Chairman, for your leadership and commitment to the 
values and constitutional property rights of every citizen.
                                 ______
                                 
    [The prepared statement of Mr. Tom Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Mr. Chairman and Ranking Member, of the two measures before the 
committee today, I would like to make a brief comment on H.R. 701, the 
Conservation and Reinvestment Act. I strongly support this bill because 
of the role it has in improving the quality of American life and 
conserving important natural resources. CARA addresses this national 
need because it provides lasting protection for our nation's special 
public lands and wildlife. Across our country there is tremendous 
pressure to develop farmland and open space yet at the same time, 
coastlines and marine resources are highly stressed and we need more 
wildlife habitat and recreation areas.
    My father, former Secretary of the Interior Stewart Udall, has 
rightly called the Land and Water Conservation Fund Act landmark 
legislation that will be remembered for years to come. My father's 
words still ring true because CARA is as important today as when he 
served as Secretary of the Interior, over 30 years ago.
    My father and others working on this bill in the 1960's were 
successful because these initiatives were the result of bipartisan 
input that looked ahead to generations of Americans yet unborn. In 
fact, the idea for creating a Land and Water Conservation Fund came 
from a bi-partisan commission sitting on Lawrence Rockefeller's Outdoor 
Recreation Resources Review Commission were: four Senators, 2 Democrats 
and 2 Republicans, four Representatives also split 2 and 2, and 7 
presidential appointees including groups as diverse as the Wilderness 
Society and the American Cattlemen's Association. This bi-partisan 
commission translated its work into sound proposals, and Congress then 
passed the Land and Water Conservation Fund Act with virtually 
unanimous support.
    H.R. 701 has had and should continue to have broad bi-partisan 
support in the House. The 107th Congress should take the example of the 
88th Congress' success and demonstrate that we also can also work 
together to pass landmark legislation, such as H.R. 701.
    By joining with each other in a meaningful, bi-partisan dialogue, 
individuals like my father and his colleagues were able to leave as 
their legacy the invaluable gift of protected wildlands and wildlife. 
It's now our turn as their heirs to do the same thing for our children.
    The Land and Water Conservation Fund helps all of us in our 
respective states by protecting invaluable lands and resources. For 
example, my district in New Mexico has been awarded over $25 million in 
federal and $10 million in state funds for projects such as:
    <bullet> LThe Chaco Culture National Historic Park;
    <bullet> LBandelier National Monument;
    <bullet> LThe Chama Playground;
    <bullet> LThe Rodriguez Baseball Park in Las Vegas, New Mexico;
    <bullet> LA High School Recreation Park in Raton;
    <bullet> LA Recreation Park Development in Zuni; and
    <bullet> LA Red Rock Campground in Gallup, New Mexico.
    As you can see, these are projects that support much needed state 
and local programs and speak to the fact that CARA supports not only 
federal projects but also local ones. As I conclude, I am reminded of 
John Chafee who loved to quote Teddy Roosevelt's observation that ``of 
all the great questions which can come before this nation, short of the 
actual preservation of its existence in a great war, there is none 
which compares in importance with the central task of leaving this land 
even a better land for our descendants than it is for us.''
    Mr. Chairman and Mr. Ranking Member, I support CARA and urge all of 
my colleagues--regardless of the side of the aisle on which they sit--
to support H.R. 701.
    Thank you, Mr. Chairman, and I look forward to today's hearing.
                                 ______
                                 
    [The prepared statement of Ms. McCollum follows:]

Statement of The Honorable Betty McCollum, a Representative in Congress 
                      from the State of Minnesota

    Thank you Mr. Chair. I am deeply honored to be able to introduce 
Bobby Whitefeather, Chairman of the Red Lake Band of Chippewa.
    Chairman Whitefeather was raised in a small, traditional Indian 
community on the Red Lake Reservation in Northern Minnesota. After 
serving the United States honorably in the Vietnam War, Chairman 
Whitefeather has worked on behalf of his people on the reservation for 
the past 15 years. First elected to Treasurer, Chairman Whitefeather 
served as Secretary before becoming Chairman of the Red Lake Band of 
Chippewa.
    While economic development is a priority for Chairman Whitefeather, 
conservation has also played an important role in his professional 
career. He has testified before Congress in the past on matters such as 
improving tribal conservation enforcement capability, strengthening 
educational opportunities in fish and wildlife management for tribal 
members and has worked for equitable access to federal aid that helps 
restore fish and other wildlife.
    Closer to home, Chairman Whitefeather initiated a series of 
meetings between the state and federal government in 1997 after walleye 
stocks in the Red Lakes in Northern Minnesota had been devastated by 
over fishing. This partnership led to one of the largest freshwater 
fish recovery programs in America today, and one of the most successful 
so early in the process. Two years ago Chairman Whitefeather was 
honored by the Great Lakes Region of the Native American Fish and 
Wildlife Society with a special award honoring his longstanding 
commitment to conservation.
    Chairman Whitefeather has been active in the area of Indian issues 
throughout his career. He is a past officer of the National Congress of 
American Indians. He is currently President of the Midwest Alliance of 
Sovereign Tribes and he serves on a number of Bureau of Indian Affairs 
and self-governance committees at the regional and national level.
    Ojibwe is the Chairman's first language. And while ojibwe is a 
language unknown to many, the Chairman has become an effective voice 
for the Chippewa and all Native People. It is my honor today to 
introduce Chairman Bobby Whitefeather.
                                 ______
                                 

    The following additional information was submitted for the 
record:

    <bullet>LLetter from G. Ray Arnett, Stockton, California
    <bullet>LStatement of Juan N. Babauta, Resident 
Representative, Commonwealth of the Northern Mariana Islands
    <bullet>LLetter from Nolan Colegrove, Sr., Forest Manager, 
Hoopa Valley Tribe, Hoopa, California
    <bullet>LLetter from Allen Garber, Commissioner, Minnesota 
Department of Natural Resources, St. Paul, Minnesota
    <bullet>LStatement of the National Governors Association
    <bullet>LLetter from Olney Patt, Jr., Chairman, Tribal 
Council of the Confederated Tribes of Warm Springs Reservation 
of Oregon
    <bullet>LLetter from Ronald J. Regan, Commissioner, 
Department of Fish and Wildlife, State of Vermont
    <bullet>LLetter from Sarah Taylor-Rogers, Ph.D., Secretary, 
Maryland Department of Natural Resources, Annapolis, Maryland
    <bullet>LLetters from Thomas P. Walters, Washington 
Representative, on behalf of the Counties of Riverside, San 
Diego, and Ventura, California
[GRAPHIC] [TIFF OMITTED] T3218.005

[GRAPHIC] [TIFF OMITTED] T3218.006

[GRAPHIC] [TIFF OMITTED] T3218.007

[GRAPHIC] [TIFF OMITTED] T3218.008

[GRAPHIC] [TIFF OMITTED] T3218.023

[GRAPHIC] [TIFF OMITTED] T3218.024

[GRAPHIC] [TIFF OMITTED] T3218.025

[GRAPHIC] [TIFF OMITTED] T3218.026

[GRAPHIC] [TIFF OMITTED] T3218.027

[GRAPHIC] [TIFF OMITTED] T3218.028

[GRAPHIC] [TIFF OMITTED] T3218.029

[GRAPHIC] [TIFF OMITTED] T3218.030

[GRAPHIC] [TIFF OMITTED] T3218.031

[GRAPHIC] [TIFF OMITTED] T3218.032

[GRAPHIC] [TIFF OMITTED] T3218.033

[GRAPHIC] [TIFF OMITTED] T3218.012

[GRAPHIC] [TIFF OMITTED] T3218.013

[GRAPHIC] [TIFF OMITTED] T3218.014

[GRAPHIC] [TIFF OMITTED] T3218.015

[GRAPHIC] [TIFF OMITTED] T3218.016

[GRAPHIC] [TIFF OMITTED] T3218.017

[GRAPHIC] [TIFF OMITTED] T3218.018

[GRAPHIC] [TIFF OMITTED] T3218.019

[GRAPHIC] [TIFF OMITTED] T3218.020

[GRAPHIC] [TIFF OMITTED] T3218.021

[GRAPHIC] [TIFF OMITTED] T3218.022

[GRAPHIC] [TIFF OMITTED] T3218.009

[GRAPHIC] [TIFF OMITTED] T3218.010

[GRAPHIC] [TIFF OMITTED] T3218.011

                                   - 

</pre></body></html>
